<html>
<title> - REAUTHORIZATION OF THE FIRE GRANT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         REAUTHORIZATION OF THE
                          FIRE GRANT PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

                           Serial No. 111-40

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______
                  U.S. GOVERNMENT PRINTING OFFICE
50-661                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
         HOLLY LOGUE PRUTZ Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant


                            C O N T E N T S

                              July 8, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative David Wu, Chairman, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

Statement by Representative Ben R. Lujan, Vice Chair, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                                Panel I:

The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey, 8th District
    Oral Statement...............................................    12
    Written Statement............................................    14

                               Panel II:

Mr. Timothy W. Manning, Deputy Administrator, Federal Emergency 
  Management Agency (FEMA), U.S. Department of Homeland Security 
  (DHS)
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    20

Chief Jeffrey D. Johnson, First Vice President, The International 
  Association of Fire Chiefs (IAFC); Chief, Tualatin Valley Fire 
  and Rescue
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    26

Chief Jack Carriger, Stayton Fire Department, Stayton, Oregon; 
  First Vice-Chairman of the National Volunteer Fire Council 
  (NVFC)
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    33

Mr. Kevin B. O'Connor, Assistant to the General President, 
  International Association of Fire Fighters (IAFF)
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    41

Chief Curt Varone, Division Manager, Public Fire Protection 
  Division, National Fire Protection Association (NFPA)
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    44

Mr. Ed Carlin, Training Officer, Spalding Rural Volunteer Fire 
  Department, Spalding, Nebraska
    Oral Statement...............................................    45
    Written Statement............................................    47
    Biography....................................................    49

Discussion.......................................................    49

              Appendix: Answers to Post-Hearing Questions

Mr. Timothy W. Manning, Deputy Administrator, Federal Emergency 
  Management Agency (FEMA), U.S. Department of Homeland Security 
  (DHS)..........................................................    62

Chief Jeffrey D. Johnson, First Vice President, The International 
  Association of Fire Chiefs (IAFC); Chief, Tualatin Valley Fire 
  and Rescue.....................................................    69

Chief Jack Carriger, Stayton Fire Department, Stayton, Oregon; 
  First Vice-Chairman of the National Volunteer Fire Council 
  (NVFC).........................................................    72

Mr. Kevin B. O'Connor, Assistant to the General President, 
  International Association of Fire Fighters (IAFF)..............    81

Chief Curt Varone, Division Manager, Public Fire Protection 
  Division, National Fire Protection Association (NFPA)..........    83


               REAUTHORIZATION OF THE FIRE GRANT PROGRAMS

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Ben Ray 
Lujan [Vice Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         Reauthorization of the

                          Fire Grant Programs

                        wednesday, july 8, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Wednesday, July 8, the Subcommittee on Technology and Innovation 
of the Committee on Science and Technology will hold a hearing to 
examine the Assistance to Firefighter Grant (AFG) and Staffing for 
Adequate Fire and Emergency Response (SAFER) Grant programs, together 
referred to as the FIRE grants, in preparation for their 
reauthorization. The current authorization for AFG will expire at the 
end of this fiscal year; the authorization for SAFER will expire at the 
end of FY 2010.

II. Witnesses

Panel I
Congressman Bill Pascrell is the Representative from New Jersey-8th 
District.

Panel II

Mr. Timothy Manning is the Deputy Administrator of the National 
Preparedness Directorate at the Federal Emergency Management Agency 
(FEMA) of the Department of Homeland Security (DHS).

Chief Jeffrey D. Johnson is the First Vice President of the 
International Association of Fire Chiefs (IAFC) and the Chief of the 
Tualatin Valley Fire and Rescue.

Chief Jack Carriger is the Stayton, Oregon Fire District First Vice 
Chairman of the National Volunteer Fire Council (NVFC).

Mr. Kevin O'Connor is the Assistant to the General President of the 
International Association of Fire Fighters (IAFF).

Chief Curt Varone is the Division Manager of the Public Fire Protection 
Division for the National Fire Protection Association (NFPA).

Mr. Ed Carlin is the Training Officer of the Spalding Rural Volunteer 
Fire Department in Spalding, Nebraska.

III. Hearing Issues

    Congress created AFG and SAFER to increase the safety of the public 
and firefighting personnel, from fire and related hazards. This hearing 
will examine how well FEMA has met this challenge in awarding grants to 
fire departments across the country, with respect to balancing the 
needs of career, volunteer, and combination fire departments, along 
with national emergency response funding priorities. In addition, the 
hearing will examine progress toward decreasing the number of fire 
fatalities, injuries, and related property loss, in both civilian and 
firefighter populations.

IV. Background

    The AFG Program competitively awards funds to local fire 
departments to purchase emergency response equipment and training. 
SAFER, also competitively awarded, funds the hiring, recruitment, and 
retention of firefighting personnel. Both programs are administered by 
FEMA, within DHS, through the Office of Grants and Training. Since AFG 
began in 2001, fire departments across the country have over subscribed 
for the grants. For FY 2008 alone, FEMA received 21,022 applications 
for AFG funds, with requests totaling $3,137,121,053 and 1,314 
applications for SAFER funds, with requests totaling $583,953,578. A 
total of $454,403,597 in grants was awarded for AFG in FY 2008 and 
$152,847,595 was awarded for SAFER in FY 2008. In addition to the 
grants that go for equipment and personnel, FEMA also provides funding 
for fire prevention and safety, as well as grants to emergency medical 
service (EMS) providers unaffiliated with fire departments.

History of FIRE Grants
    Congress created the AFG program in 2000 in response to concerns 
over local budget shortfalls at a time of increasing responsibilities 
for fire departments. Introduced as H.R. 1168, the Firefighter 
Investment and Response Act, the program was enacted into law in the FY 
2001 National Defense Authorization Act (P.L. 398, Title XVII). 
Congress reauthorized AFG in the FY 2005 National Defense Authorization 
Act (P.L. 108-375, Title XXXVI) with funds authorized through FY 2009.
    Congress created the SAFER program amidst concern that local fire 
departments needed assistance in hiring, or recruiting and retaining 
volunteer firefighters, in order to meet national consensus standards 
for minimum staffing levels. The program was introduced in H.R. 3992, 
and later enacted in section 1057 of the FY 2004 National Defense 
Authorization Act (P.L. 108-136). This authorization will expire in FY 
2010.

Current Activity for the AFG Program
    Support from AFG may be used for a number of different activities. 
Under the existing authorization, grants may fund the purchase of 
firefighting equipment, protective gear, and vehicles. Permissible 
training activity under the grants includes terrorism incident 
response, arson prevention and detection, hazardous material response, 
and fire inspector certification. The grants may also be used for 
firefighter health and safety programs and to modify fire stations to 
improve firefighter health and safety. FEMA must annually convene a 
panel of fire service organization representatives to advise the agency 
on priorities and grant making criteria for the following fiscal year. 
The program guidance from FEMA notes that ``The AFG program is an 
important part of the Administration's larger, coordinated effort to 
strengthen homeland security preparedness,'' and as such, reflects the 
priorities of the National Preparedness Guidelines. DHS issued these 
guidelines in 2007 to coordinate and increase the level of preparedness 
at all levels of government to respond to catastrophic events, and 
terrorist attacks in particular. To help governments plan, the 
Guidelines established the Target Capabilities List and the Universal 
Task List.\1\ Similar to previous years, FY 2009 AFG priorities are 
first responder safety, enhancing national capabilities, addressing 
risk, and promoting inter-operability.\2\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security National Preparedness 
Guidelines, September 2007 (http://www.dhs.gov/xlibrary/assets/
National<INF>-</INF>Preparedness<INF>-</INF>Guidelines.pdf)
    \2\ Fiscal Year 2009 Assistance to Firefighters Grants Guidance and 
Application Kit, April 2009 (http://www.firegrantsupport.com/docs/
2009AFGguidance.pdf).
---------------------------------------------------------------------------
    The grants are peer-reviewed. Peer reviewers score the applications 
according to the clarity of the proposed project/purchase and 
accompanying budget, the organization's financial need, the cost-
benefit of the proposed project/purchase, and the degree to which the 
proposed project/purchase enhances daily operations or the department's 
ability to protect life and property. The authorizing legislation 
requires that FEMA take into account the cost-to-benefit ratio when 
considering applications and making awards. The FEMA grant guidance to 
fire departments notes that ``DHS will provide a higher level of 
consideration to departments with significant levels of incidents and 
to departments that protect large populations relative to other 
applicants, regardless of the type of community served.'' Therefore 
lower call volumes and smaller communities receive lower priority. The 
authorizing legislation requires that volunteer departments, which 
typically serve rural areas, receive funding in proportion to the 
percentage of the U.S. population they serve (approximately 55 
percent). There is no other specific guidance on geographic 
distribution of the funds, other than a directive that they be 
dispersed to a diverse mix of type (volunteer, career, or combination), 
geographic location, and composition of community served (urban, 
suburban, or rural).
    In addition to the FEMA guidance for the program, departments must 
also meet certain legislative requirements. Local fire departments 
applying for a grant must provide matching funds in accordance with the 
population of the community they serve (see Table 1). Other 
restrictions in the program include a cap per fiscal year relative to 
the size of the community (see Table 2), a 25 percent cap on total 
appropriated funds available for fire vehicles, and a 3.5 percent floor 
on funds that must be used for EMS training and equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Current Activity for the Fire Prevention and Safety Grants Program
    Under current statute, a minimum of five percent of AFG funding 
must be used for Fire Safety and Prevention (FP&S) Grants. In the 
1970's, the President's National Commission on Fire Prevention and 
Control released America Burning, which cited the death rate from fires 
in the U.S. at 12,000 people per year. The NFPA reports that the 
current average is 3,760 deaths per year, and at least $10 billion per 
year in total property damage. While the number of deaths has decreased 
significantly since the 1970s, a report by the National Academy of 
Public Administration (NAPA) notes that the decline in fire fatality 
rate slowed or ended in the late 1990s. The report also notes that 
fatality rates vary dramatically across demographic groups: African-
Americans are three times more likely than whites to die in residential 
fires; males are 78 percent more likely to die in fires than females; 
and those with less than a high school education are five times as 
likely as those with some college education to die in residential 
fires.
    FP&S grants fund fire prevention programs at both local fire 
departments and other related community organizations. The 
authorization sets aside a minimum of five percent of AFG funds for 
FP&S grants, and sets a cap of $1,000,000 per grant per fiscal year. 
FEMA guidance for FP&S supports activities in two categories: ``(1) 
activities designed to reach high-risk target groups and mitigate 
incidences of deaths and injuries caused by fire and related hazards; 
and (2) research and development activities aimed at improvements of 
firefighter safety.'' For 2006 and 2007, the two years for which the 
breakout for research and prevention grants were reported by FEMA, 33 
and 38 percent, respectively, went toward firefighter safety research. 
Most research was performed at universities.

Current Activity for the SAFER Program
    SAFER grants may be used to hire new personnel and to provide 
funding for recruitment and retention of firefighters for volunteer and 
combination departments. Ten percent of the total SAFER funding is 
reserved for recruitment and retention. The majority of funds assist 
local departments in paying the salaries of new firefighters, hired to 
bring local departments into compliance with safe staffing minimums 
established in national voluntary consensus standards. The original 
legislative requirement includes an escalating local match, with the 
department providing 10 percent of the salary and related costs of the 
firefighter for the first year of the grant, 20 percent the second 
year, 50 percent the third, and 70 percent in the fourth. The 
department is also required to retain the firefighter for at least one 
more year following the fourth year of the grant. Regardless of 
matching funds, the current law sets a cap (adjusted annually for 
inflation, starting from $100,000 in 2005, set at $108,380 for 2008) on 
the total amount of money the grant can pay over the four year span for 
each firefighter. Ten percent of the hiring funds must go to volunteer, 
or mostly volunteer departments (mostly volunteer departments are 
defined as those where 50 percent of the personnel do not receive 
financial compensation for their services).
    In response to concerns that current economic conditions would 
hinder the ability of communities to provide matching funds, and thus 
discourage departments from applying for existing SAFER funds, the 
American Recovery and Reinvestment Act of 2009 (P.L. 111-5) included a 
provision waiving the matching requirements for SAFER grants awarded in 
FY 2009. The waiver was similarly permitted for FY 2010. Amidst further 
concerns that grant requirements prevented struggling communities from 
applying for funds, the Supplemental Appropriations Act of 2009 (P.L. 
111-32) included a provision allowing the Secretary of Homeland 
Security to waive the following requirements: that the grants be used 
only to hire new firefighters, that they not supplant local funding, 
that the department commit to at least one additional year of funding 
beyond the term of the grant, and that the federal funding shall not 
exceed the cap set in statute.
    Like AFG funding, SAFER awards are also made via a peer-review 
process. FEMA also convenes a panel of fire service organization 
representatives to offer recommendations on the program criteria for 
each grant year. FEMA's FY 2008 program guidance for SAFER (FY 2009 is 
not yet available) states that, ``As a result of the enhanced staffing, 
a SAFER grantee's response time should be sufficiently reduced with an 
appropriate number of trained personnel assembled at the incident 
scene.'' FEMA accords higher consideration to departments with higher 
call volumes and serving large populations in making staffing award 
decisions. For the recruitment and retention grants, volunteer, or 
mostly volunteer departments, receive higher consideration.

Funding Levels for the Grant Programs
    AFG: In total, since FY 2001, $5.2 billion\3\ has been appropriated 
for the AFG program. The table on the next page shows the authorized 
and appropriated levels for the AFG program since FY 2006.
---------------------------------------------------------------------------
    \3\ This does not include appropriations from the American Recovery 
and Reinvestment Act of 2009.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    SAFER: In total, since FY 2005, $1.1 billion has been appropriated 
for the SAFER program.\4\ The table below shows the authorized and 
appropriated levels for the SAFER program since FY 2006.
---------------------------------------------------------------------------
    \4\ SAFER was not appropriated in FY 2004.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The grants are given out to all-volunteer departments, all-career 
departments, and combination volunteer/career departments in an 
approximate proportion to the amount of grant requests they receive 
from these types of departments. In FY 2008, 48 percent of AFG money 
went to all-volunteer fire departments, 27 percent went to combination 
volunteer/career fire departments, and 19 percent went to all-career 
departments. The remaining six percent went to paid on-call 
departments. Career firefighters are more common in urban areas and 
volunteer firefighters are more common in rural areas; however, there 
is a differential in the correlation. Sixty-seven percent of AFG money 
went to rural departments in FY 2008 while 20 percent went to suburban 
departments and 13 percent went to urban departments. More than 60 
percent of all applications are for fire trucks and engines, only 25 
percent of the appropriated funds may be used for that purpose. 
Firefighting equipment and personal protective gear are also heavily 
requested.
    In FY 2007, two percent of FP&S money went to all-volunteer fire 
departments, five percent went to career departments, five percent went 
to combination departments, and 88 percent went to other community 
organizations. In FY 2007, FEMA received 2,561 applications for FP&S 
funds, with requests totaling $330,719,746. A total of $33,887,071 was 
awarded.\5\
---------------------------------------------------------------------------
    \5\ FY 2008 award numbers are not available.
---------------------------------------------------------------------------
    In FY 2008, 32.4 percent of SAFER applications came from all-
volunteer fire departments, 48.0 percent came from combination 
volunteer/career fire departments, and 17.4 percent came from all-
career fire departments. The remaining 2.1 percent came from Statewide 
and Local Volunteer Firefighter Interest Organizations.\6\
---------------------------------------------------------------------------
    \6\ http://www.firegrantsupport.com/docs/2008SAFERApps.pdf

Review of AFG
    In 2007, at the request of the Department of Homeland Security, 
NAPA reviewed the performance of the AFG program and offered 
recommendations for its improvement.\7\ The report recommends that AFG 
should convert from primarily funding basic firefighting and EMS needs 
to prioritizing grant applications that would more likely increase 
preparedness for catastrophic events. The report also recommends the 
program should prioritize applications that fund mitigation 
capabilities, including public education, and applications that target 
places and people at greatest risk from fire. The report further 
recommends that the program should work with DHS to build a national 
network of response capabilities that can be deployed quickly where 
needed.
---------------------------------------------------------------------------
    \7\ National Academy of Public Administration, Assistance to 
Firefighters Grant Program: Assessing Performance, April 2007.
---------------------------------------------------------------------------
    Mr. Lujan. The hearing will come to order.
    Good morning. Today's hearing addresses a key program in 
increasing public safety and protecting the safety of first 
responders. The FIRE grants help fire departments across the 
country increase their capabilities to fight fires, respond to 
medical emergencies, handle disasters and better confront all 
that is asked of the modern fire service.
    The authorizations for the Assistance for Firefighter Grant 
(AFG) program and the Staffing for Adequate Fire Emergency 
Response, or the SAFER program, are both facing expiration. 
These grant programs provide funding for local fire 
departments, ones in every state and every district, to obtain 
equipment and training and to increase their ranks of 
firefighters.
    The FIRE grants were created to help local communities keep 
up with the needed manpower and equipment to handle the 
increasing array of tasks falling to local fire departments. 
The growing duties include emergency medical services, fighting 
fires at the wildland-urban interface and serving as first 
responders to terrorist attacks and natural disasters.
    In this economy, maintaining equipment, training and 
personnel to safely respond to all calls is increasingly 
difficult, or impossible, in many jurisdictions. Fire 
departments around the country have been forced to lay off 
firefighters and forego needed equipment and training. 
Therefore, the over $6 billion of grants that have gone to fire 
departments since 2000 have been integral to maintaining public 
safety in many communities. This year and last year, fire 
departments in my district in New Mexico have benefited from a 
half a million dollars of this funding.
    Fire remains a serious problem in the United States. More 
people die in fires in the United States than from all other 
natural disasters combined. On average, 3,700 citizens die in 
structure fires each year and over 100 firefighters are killed 
in the line of duty. In addition to these fatalities, there are 
thousands of injuries and over $10 billion in property losses 
each year. Fires are often a surprise to their victims but the 
statistics tell us that fire fatalities and injuries are not 
random. Demographics shape who is most likely to die in fires. 
Vulnerable populations like the poor and the elderly suffer the 
most. Males are more likely to die than females, as are 
minorities and those without a high school education. I hope 
that the witnesses today will offer insight on why fires 
disproportionately affect these individuals and how these 
trends can be changed.
    I would also like to learn today how we can improve upon 
the contribution FIRE grants make to public safety and the 
safety of first responders. I hope the witnesses will offer 
insight on the best balance to serve the needs of fire 
departments and the populations they protect, and I hope to 
learn how any proposed changes would affect the fire.
    I want to thank our witnesses for appearing before us 
today.
    I now would like to recognize Representative Smith for his 
opening statement.
    [The prepared statement of Mr. Lujan follows:]

               Prepared Statement of Vice Chair Ben Lujan

    Good morning. Today's hearing addresses a key program in increasing 
public safety and protecting the safety of first responders. The FIRE 
Grants help fire departments across the country increase their 
capabilities to fight fires, respond to medical emergencies, handle 
disasters, and better confront all that is asked of the modern fire 
service.
    The authorizations for the Assistance for Firefighters Grant 
Program and the Staffing for Adequate Fire and Emergency Response--or 
SAFER program--are both facing expirations. These grant programs 
provide funding for local fire departments, ones in every state and 
every district, to obtain equipment and training, and to increase their 
ranks of firefighters.
    The FIRE grants were created to help local communities keep up with 
the needed manpower and equipment to handle the increasing array of 
tasks falling to local fire departments. The growing duties include 
emergency medical services, fighting fires at the wildland-urban 
interface, and serving as first responders to terrorist attacks and 
natural disasters.
    In this economy, maintaining the equipment, training, and personnel 
to safely and swiftly respond to all calls is increasingly difficult, 
or impossible, in many jurisdictions. Fire departments around the 
country have been forced to lay-off firefighters and forego needed 
equipment and training. Therefore, the over $6 billion of grants that 
have gone to fire departments since 2000 has been integral to 
maintaining public safety in many communities. This year and last, fire 
departments in my district in New Mexico have benefited from a half a 
million dollars of this funding.
    Fire remains a serious problem in the U.S. More people die in fires 
in the U.S. than from all other natural disasters combined. On average, 
3,700 citizens die in structure fires each year, and over 100 
firefighters are killed in the line of duty. In addition to these 
fatalities, there are thousands of injuries and over $10 billion 
dollars in property lost each year. Fires are often a surprise to their 
victims but the statistics tell us that fire fatalities and injuries 
are not random. Demographics shape who is most likely to die in fires; 
vulnerable populations, like the poor or the elderly suffer the most. 
Males are more likely to die than females, as are minorities, and those 
without a high school education. I hope the witnesses today will offer 
insight on why fires disproportionately affect these individuals and 
how these trends can be changed.
    I would also like to learn today how we can improve upon the 
contribution FIRE grants make to public safety and the safety of first 
responders. I hope the witnesses will also offer insight on the best 
balance to serve the needs of fire departments and the populations they 
protect. And, I hope to learn how any proposed changes would affect the 
fire service.
    I will now recognize Ranking Member Smith for his opening 
statement.

    Mr. Smith. Thank you, Mr. Chair. Thank you for holding the 
hearing today to discuss reauthorization of the Department of 
Homeland Security's firefighter grants program. I want to 
welcome all of our witnesses and thank you for coming here 
today to testify on these essential programs. I especially want 
to thank Mr. Ed Carlin for coming all the way from rural 
Nebraska, the Spalding Rural Volunteer Fire Department, 
obviously located in the 3rd District of Nebraska, and I 
appreciate your willingness to share and certainly for your 
service to our community, our state and certainly our nation.
    The Assistance to Firefighters Grant program and the 
Staffing for Adequate Fire and Emergency Response, the acronym 
SAFER, programs both provide much-needed assistance to fire 
departments across our country. In rural areas, many 
communities rely upon all-volunteer departments to respond to 
fires and other emergencies. The equipment needed to fight 
fires and save lives and properties is costly and requires 
departments to have certain minimum response capabilities 
regardless of whether they are protecting a community of a few 
thousand people or a large city of a few hundred thousand 
people. Acquiring these capabilities are particularly difficult 
in many small communities that do not possess the financial 
resources necessary to provide adequate support to these 
departments. As such, firefighter grants have proven absolutely 
vital for rural and volunteer fire departments that have small 
taxes bases and the least stability to acquire such equipment.
    In numerous discussions with fire chiefs and firefighters 
in my district, the AFG program is frequently cited as a 
lifesaver and the only means by which their department can 
attempt to purchase up-to-date equipment which requires a 
significant portion of their budget for their volunteers. 
Because of the volunteer departments' reliance upon the AFG 
program and because of the AFG program's proven track record of 
successfully awarding grants through an open, competitive 
process based on need, I am concerned about the United Fire 
Service's proposal to transition away from this model to one 
where statutory set-asides limit program flexibility based on 
department type. I fear this redistribution of AFG funds will 
put many rural and all-volunteer departments at a severe 
disadvantage when it comes to obtaining the necessary 
equipment.
    Similarly, also worrisome to me is a proposal to provide 
priority to applicants with higher call volume and population. 
Volunteer departments serving predominantly rural areas benefit 
tremendously from firefighter assistance programs because, 
unlike many other agency programs, the grants are distributed 
on need rather than population. Population and call volume 
isn't the only determinate of need, and we must be cognizant of 
the unique role the volunteer firefighters play in serving 
their communities and not limit an extremely critical source of 
funding for their departments.
    I am extremely appreciative of the services all brave 
firefighters provide on behalf of our nation's citizens and I 
look forward to hearing from the witnesses on this very 
essential program.
    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

    Mr. Chairman, thank you for holding this hearing today to discuss 
reauthorization of the Department of Homeland Security's Firefighters 
grants programs.
    I want to welcome our all of our witnesses and thank you for coming 
here today to testify on these essential programs. I especially want to 
offer a warm welcome to Mr. Ed Carlin from Spalding Rural Volunteer 
Fire Department, which is located in the Third District of Nebraska. I 
sincerely appreciate your willingness to appear before the Subcommittee 
today to discuss these important issues and am grateful for your 
service to your community and nation.
    The Assistance to Firefighters Grant (AFG) program and the Staffing 
for Adequate Fire and Emergency Response (SAFER) program both provide 
much-needed assistance to fire departments across our nation. In rural 
areas, many communities rely upon all-volunteer departments to respond 
to fires and other emergencies. The equipment needed to fight fires and 
save lives and property is costly, and requires departments to have 
certain minimum response capabilities regardless of whether they are 
protecting a community of a few thousand people or a large city of a 
few hundred thousand people. Acquiring these capabilities are 
particularly difficult in many small communities that do not possess 
the financial resources necessary to provide adequate support to these 
departments. As such, Firefighter grants have proven absolutely vital 
for rural and volunteer fire departments that have small tax bases and 
the least ability to acquire such equipment.
    In numerous discussions with fire chiefs and firefighters in my 
District, the AFG program is frequently cited as a ``lifesaver,'' and 
the only means by which their department can attempt to purchase up-to-
date equipment--which requires a significant portion of their budget--
for their volunteers. Because of volunteer departments' reliance upon 
the AFG program, and because of the AFG programs' proven track record 
of successfully awarding grants through a fully competitive process, I 
am concerned about the Unified Fire Service's proposal to replace the 
program's current need-based focus with one where statutory set-asides 
limit program flexibility based on department type. I fear this 
redistribution of AFG funds will put many rural and all-volunteer 
departments at a severe disadvantage when it comes to obtaining the 
necessary equipment.
    Similarly, also worrisome to me is a proposal to provide priority 
to applicants with higher call volume and population. Volunteer 
departments serving predominantly rural areas benefit tremendously from 
firefighter assistance programs because--unlike many other agency 
programs--the grants are distributed on need rather than population. 
Population and call volume isn't the only determinant of need, and we 
must be cognizant of the unique role our volunteer firefighters play in 
serving their communities and not limit an extremely critical source of 
funding for their departments.
    I am extremely appreciative of the services all brave firefighters 
provide on behalf of our nation's citizens and I look forward to 
hearing from the witnesses today on this essential program.
    Thank you, Mr. Chairman.

    Mr. Lujan. Thank you very much, Mr. Smith.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    Good morning. I would like to welcome everybody to this morning's 
hearing on the reauthorization of the Assistance to Firefighter Grant 
program and the Staffing for Adequate Fire and Emergency Response grant 
program, known collectively as the FIRE Grant programs. Supporting our 
nation's first responders is critical; historically the Science and 
Technology Committee has been one the strongest backers of the fire 
service. In the last Congress, the Science Committee reauthorized the 
U.S. Fire Administration, which delivers vital training and provides 
national leadership to the fire service. Today, we are looking at the 
FIRE Grant programs, which help raise the capabilities of fire 
departments to tackle fires and other emergencies.
    Since fiscal year 2001, the AFG program has provided over $4.8 
billion to local fire departments to purchase equipment, vehicles, and 
training. The program, created by Congress in 2000 because of concerns 
that local budgets were unable to handle the mounting responsibilities 
being assigned to the fire service, continues to be a critical asset to 
community safety in this tough economy. Congress created the SAFER 
program in 2004 to help fire departments hire firefighting personnel 
and meet voluntary consensus standards on safe minimum staffing levels. 
Through SAFER, $689 million in grants have gone to help fire 
departments respond quickly and safely to all emergencies.
    Fire is a serious problem in the United States, killing over 3,000 
people a year--a rate higher than all other industrialized countries. 
In addition, approximately 20,000 people are injured, and $10 billion 
in property is lost each year due to fire. Statistics show that 
minorities and low-income Americans are disproportionately the victims 
of fires. The AFG program also supports grants for fire prevention and 
safety. I hope to learn today about the types of activities the fire 
prevention and safety grants currently fund and how they may be 
improved to combat these high numbers of death, injury, and loss.
    I am pleased to have a panel of first-hand experts with us who can 
offer their recommendations on how to improve the FIRE Grant programs 
to meet the growing challenges our first responders face. From 
responding to emergency medical calls to fighting wildfires that 
encroach into adjacent communities, fire departments must be ready for 
any type of emergency. The Nation's 30,000 fire departments serve a 
variety of communities, from the largest to the smallest. Many of those 
who serve as firefighters do so on a volunteer basis. As cities and 
towns of all sizes struggle to provide services in this economy, the 
FIRE Grant programs are a key resource for protecting the safety of the 
public and firefighters.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Today we will examine and evaluate the Assistance to Firefighter 
Grant (AFG) and Staffing for Adequate Fire and Emergency Response 
(SAFER) Grant programs.
    Firefighters are often the first--and the last--to leave an 
emergency scene. Whether it's putting out a house or an apartment 
fire--or responding to a wildfire or a car accident--we depend on 
firefighters every day.
    As you know, Congress created the AFG program in 2000 to help local 
fire departments accommodate increasing responsibilities. SAFER was 
created to assist local fire departments with hiring, or recruiting and 
retaining volunteer firefighters, in order to meet national consensus 
standards for minimum staffing levels.
    I look forward to hearing more from our witnesses on how the AFG 
and SAFER programs have increased the safety of the public and 
firefighting personnel, from fire and related hazards.
    I yield back.

                                Panel I:

    Mr. Lujan. It is my pleasure to introduce our first witness 
panel. Our friend, Congressman Bill Pascrell, is a U.S. 
Representative from the 8th District of New Jersey. Mr. 
Pascrell, you have five minutes for your spoken testimony, and 
your written testimony will be included in the record for the 
hearing. Congressman Pascrell, please begin.

   STATEMENT OF HON. BILL PASCRELL, JR., A REPRESENTATIVE IN 
      CONGRESS FROM THE STATE OF NEW JERSEY, 8TH DISTRICT

    Mr. Pascrell. Thank you, my friend from New Mexico and the 
Ranking Member, Mr. Smith. I want to thank also, of course, our 
Chairman, David Wu, and Bart Gordon, the Full Committee Chair.
    It seems like a lifetime but this legislation--I had 
introduced this legislation in the 106th Congress. That is when 
it passed. It passed before 9/11 and it passed because so many 
firefighters, both career and volunteer, came to Washington 
knowing that this legislation was a bottom-up piece of 
legislation, unheard of before, with two or three signatures on 
it for a year and a half and then probably more signatures when 
it passed than any other bill that term, and it was passed in 
2000. Billions of dollars of course have been competitively bid 
for.
    By every estimation, this is either the first or second 
best federal program in the whole government, and I think it is 
important because the peers--the firefighters themselves make 
the judgment--bureaucrats are not involved, and I think this is 
why the program has been so successful, Mr. Chairman, and it 
really was the inspiration for the second piece of legislation, 
which is not before you today which I ask also that you 
reauthorize, and that is the SAFER bill. When I teamed up with 
Congressman Boehlert from Cooperstown, New York, who is no 
longer with us--retired, and we passed the SAFER bill, which 
helps the personnel in many of our fire departments, 
particularly at a time when our economy is feeling a tremendous 
amount of pressure and communities cannot respond as they 
should.
    Now, when we looked at this in the later 1990s, it was 
quite obvious from the firefighters that I assembled, 
volunteer, career, and retired, it became very obvious that 
there was a tremendous amount of need out there, and who better 
could define those needs but firefighters? Gee, that was 
something new on Capitol Hill. Let us go to the source of the 
problem, let us go to those folks who have to deal with the 
situation every day, and when you look at the federal 
responsibility and response to the very needs, you would see 
that that was a part of public safety that was tremendously 
neglected. The Federal Government had relatively little input 
into helping communities respond to their fire needs. That is 
why the FIRE Act was passed.
    These brave firefighters are on duty every day. We saw what 
happened on 9/11 when so many lost their lives responding. They 
are our first responders. They respond faster and quicker than 
the Federal Government. They are in our communities all 
throughout the United States, yet we knew that there were 
communities in this country where they have to push the 
apparatus to the fires. We were very careful when we shaped 
this legislation that it not become top heavy in any area, that 
rural areas, suburban areas and urban areas, we would balance 
whatever the legislation would be, and I think those 
firefighters who have acted in reviewing and analyzing 3,000 
applications that come in every year and finally making the 
decision as to which departments show the greatest need, we 
have extended--and I want to compliment FEMA (Federal Emergency 
Management Agency) for helping put together sessions throughout 
the country so that firefighters and those who do the grant 
writing can come to these sessions and learn how to fill out a 
grant because that is three-quarters of the battle, and I 
really--they have done a terrific job. They have really done a 
sensational job.
    So the FIRE Act was passed and officially established 
through title 17 and actually became part of the National 
Defense Authorization Act. So since 2001, the program has 
responded to the needs such as infrared cameras, personal 
protective gear, hazmat detection devices, and fitness 
programs, which have saved firefighters' lives. Many of these 
firefighters never went through a physical or hadn't taken 
periodic physicals. Saved lives. My own District, I could give 
you specific examples. That is important. We want healthy 
people going online. We want people that are able to do the 
physical work that is necessary to protect us to be able to do 
that, and of course, inter-operable communication systems.
    So we know that this competitive grant process has worked. 
I would put it against any such competitive process in the 
entire Federal Government, not just in Homeland Security, but 
in the entire Federal Government. Together, as I said, with the 
FIRE and SAFER, make up what we commonly refer to as the FIRE 
grant programs.
    I want to make the point again, Mr. Chairman, that the FIRE 
grant programs are vital and are vital and necessary today as 
the day we passed them. In fact, when you look at the 
applications that are coming to FEMA and when you see what the 
needs are, you will see things haven't changed dramatically 
really in those 10 years. They haven't really changed that 
dramatically, even after 9/11.
    Today, in the midst of a terrible economic recession, 
localities throughout America are being forced to cut budgets 
and unfortunately public safety is the first to go. Sixty 
percent of fire departments do not have enough self-contained 
breathing apparatus to equip all firefighters on a shift. 
Forty-eight percent of fire departments do not have enough 
personnel alert safety system devices to equip all emergency 
responders on a shift. Sixty-five percent of fire departments 
do not have enough portable radios to equip all emergency 
responders on shift. Eight years after 9/11, that is not 
acceptable. It is just not acceptable. Less than 20 percent of 
the fire departments in the United States are able to cover the 
cost of apparatus replacement through their normal budget. I 
mean, how many pancake breakfasts do you need to have to buy a 
$600,000, $700,000 piece of equipment? It doesn't work. It 
doesn't work. The same can be said for the SAFER grants.
    I come here today to state that there is one thing we do 
agree upon and that is, it is essential that we reauthorize 
both the FIRE and SAFER grants in the 111th Congress. Clearly, 
adjustments must be made to both programs in the next 
reauthorization based on the lessons we have learned. We made 
some adjustments in the past by changing and minimizing the 
amount of matching money from the local communities, and I 
think it has been particularly helpful to a lot of communities 
who couldn't make the match.
    So I want to thank you for allowing me to testify. This is 
in my bone marrow. I am available for questions, and if you 
want to ask any questions, ask them.
    [The prepared statement of Mr. Pascrell follows:]

        Prepared Statement of Representative Bill Pascrell, Jr.

    I want to thank Full Committee Chairman Bart Gordon, Subcommittee 
Chairman David Wu and Ranking Member Adrian Smith for holding this 
important hearing and allowing me to testify before this subcommittee 
about the need to reauthorize the fire grants, an issue which has been 
very near and dear to me.
    I am very proud to say that in the 106th Congress I authored the 
original FIRE Act and helped lead the effort with many of my colleagues 
in Congress to get this vital grant program started. At that time we in 
Congress began to realize that our national public security could not 
be ensured if we simply left it to states and localities to provide the 
equipment and resources necessary for our firefighters. It was a great 
sight to behold so many of our nation's finest and bravest firefighters 
come to the halls of Congress and lobby their Members on the need to 
pass the FIRE Act. I think it's especially noteworthy that all the fire 
service organizations--volunteers and career--truly joined together and 
worked hand-in-hand to help get the FIRE Act up and running.
    In the end the FIRE Act was passed and the Assistance to 
Firefighters Grant (AFG) Program was officially established through 
Title XVII (17) of the FY 2001 National Defense Authorization Act. 
After the terrible attacks we witnessed on 9/11 few could argue against 
the critical need for these fire grants. On that fateful day 343 
firefighters lost their lives while bravely trying to save others. The 
lesson was clear--we needed to provide those firefighters with the 
equipment and training necessary to match their bravery and strength. 
With those men and women as our inspiration, we fought on a bipartisan 
basis to establish funding for fire grants and protect those grants 
against repeated annual cuts in the President's budget.
    Since 2001, this program has positively impacted public safety by 
providing more than $3 billion for infrared cameras, personal 
protective gear, hazmat detection devices, improved breathing 
apparatuses, advanced training and fitness programs, fire engines, 
prevention and education programs, and inter-operable communication 
systems. A number of independent evaluations of the program have 
demonstrated its success:

        <bullet>  On May 13, 2003, the U.S. Fire Administration (USFA) 
        released the first independent evaluation of the Assistance to 
        Firefighters Program and concluded overall that the program was 
        ``highly effective in improving the readiness and capabilities 
        of firefighters across the Nation.''

        <bullet>  Another evaluation was released by the DHS Office of 
        Inspector General in September 2003, which concluded that the 
        program ``succeeded in achieving a balanced distribution of 
        funding through a competitive grant process.''

        <bullet>  Finally, in the FY 2008 DHS Program Assessment Rating 
        Tool report issued in May, the FIRE Act grant program received 
        the second highest rating of any program in DHS scoring only 
        one percentage point lower than the U.S. Secret Service 
        Domestic Protectees program.

    After the success of the FIRE Act, we again worked with all the 
fire services groups in the 108th Congress to address concerns that our 
nation's firehouses were not being adequately staffed. In response we 
passed the Staffing for Adequate Fire and Emergency Response Act--the 
SAFER Act, which authorized grants to career, volunteer and combination 
local fire departments for the purpose of increasing the number of 
firefighters to help communities meet industry minimum standards and 
attain 24-hour staffing to provide sufficient protection from fire and 
fire-related hazards.
    Together FIRE and SAFER make up what we commonly refer to as the 
fire grant programs and while I could go on for days relating the 
countless stories of lives that were saved or disasters that were 
averted throughout our nation due to these grants, the point I want to 
make here is that the fire grant programs are as vital and necessary 
today as the day we passed them. Today, in the midst of a terrible 
economic recession, localities throughout America are being forced to 
cut budgets and unfortunately public safety funds are too often the 
target. Sadly while public safety budgets can increase and decrease 
from year to year, the threat of fire and natural disaster are 
constant--these threats in no way accommodate for our economic 
condition.
    Furthermore, the need for FIRE grants is made clear by the 
statistics, according to the 2006 DHS report Four Years Later--A Second 
Needs Assessment of the U.S. Fire Service:

        <bullet>  60 percent of fire departments do not have enough 
        self-contained breathing apparatus to equip all firefighters on 
        a shift;

        <bullet>  48 percent of fire departments do not have enough 
        personal alert safety system devices to equip all emergency 
        responders on a shift;

        <bullet>  65 percent of fire departments do not have enough 
        portable radios to equip all emergency responders on shift;

        <bullet>  Less than 20 percent of fire departments in the 
        United States are able to cover the cost of apparatus 
        replacement through their normal budget.

    Similarly, the need for the SAFER grants is demonstrated by the 
large number of firefighters being laid off throughout the Nation. I 
imagine the Members here know of at least one similar situation in 
their own district. Finally, I want to make the point that in FY 2009, 
nearly 20,000 fire departments across the country applied for more than 
$3.1 billion in FIRE Act grant assistance--so no one should be able to 
claim that the demand for these grants does not still exist.
    Mr. Chairman, I came here today to state what we all should agree 
upon, that it is essential that we reauthorize both the FIRE and SAFER 
grants programs in this 111th Congress. Clearly adjustments must be 
made to both programs based on the lessons we have learned, but that 
should not and cannot hinder us from advancing these fire grant 
programs which have shown to be effective. I have always said that real 
homeland security starts on the streets of our local towns and not in 
the hallways of Washington--I truly believe these fire grants awarded 
to local municipalities are key to our homeland security 
infrastructure.
    Mr. Chairman, I thank you again for this invitation and the chance 
to speak on this essential issue.

    Mr. Lujan. Thank you very much, Mr. Pascrell. If none of 
the Members have any questions, Mr. Pascrell, you are now 
excused. Thank you very much, sir.
    Mr. Pascrell. Thank you.
    Mr. Lujan. And we will now take a short break before our 
next panel.
    [Recess.]

                               Panel II:

    Mr. Lujan. At this time I would like to introduce our 
second panel. Mr. Timothy Manning is the Deputy Administrator 
of the National Preparedness Directorate at the Federal 
Emergency Management Agency of the Department of Homeland 
Security, and comes from the great State of New Mexico, most 
recently as the director of our homeland security department. 
Thank you for being here, Mr. Manning. Chief Jeffrey Johnson is 
the First Vice President of the International Association of 
Fire Chiefs and the Chief of the Tualatin--did I get that 
correct, Chief?
    Chief Johnson. Yes.
    Mr. Lujan. Valley Fire and Rescue. Chief Jack Carriger is 
the Stayton, Oregon, Fire District First Vice Chairman of the 
National Volunteer Fire Council. Mr. Kevin O'Connor is the 
Assistant to the General President of the International 
Association of Firefighters, and Chief Curt Varone is the 
Division Manager of the Public Fire Protection Division for the 
National Fire Protection Association, and our final witness is 
Mr. Ed Carlin, who is the Training Officer of the Spalding 
Rural Volunteer Fire Department in Spalding, Nebraska.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing. When you all complete your testimony, we will begin 
with questions, and each Member will have five minutes to 
question the panel. Mr. Manning, please begin.

  STATEMENT OF MR. TIMOTHY W. MANNING, DEPUTY ADMINISTRATOR, 
FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA), U.S. DEPARTMENT OF 
                    HOMELAND SECURITY (DHS)

    Mr. Manning. Thank you. Good morning, Mr. Chairman, Ranking 
Member Smith, Members of the Committee. I am Tim Manning. I am 
the Deputy Administrator of the Federal Emergency Management 
Agency, and on behalf of Administrator Fugate, it is a 
privilege to appear before you today to offer the 
Administration's support for the reauthorization of the 
Assistance to Firefighters and Staffing for Adequate Fire and 
Emergency Response Grant programs.
    Mr. Chairman, we at FEMA share your continued support of 
the Nation's fire service. We understand the value of these 
programs to firefighters across the country and the citizens 
they serve. Having been raised in a fire service family and 
served as a volunteer firefighter myself, I have a firsthand 
appreciation for the dedication of these men and women, and I 
am honored to be able to support them in my capacity at FEMA. 
And as a former State emergency manager, I have a great 
appreciation of the values these grant programs can add to the 
fire and emergency services through improved response capacity, 
increased responder safety, and ultimately a greater public 
safety.
    Our door is always open to these first responders. Within 
his first weeks at FEMA, Administrator Fugate and I met with 
representatives of the International Association of Fire 
Chiefs, the International Association of Fire Fighters and the 
Metropolitan Fire Chiefs. Our partnership with the fire service 
is also demonstrated through the process by which each year's 
AFG and SAFER programs are developed. Each year, FEMA convenes 
a panel of professionals from the nine major fire service 
organizations to assist in the development of funding 
priorities for the coming year and to discuss any changes in 
the program requirements, and our collaboration and outreach 
extends throughout the grant award process.
    All grant awards under these programs are competitive and 
are based on funding priorities recommended by the fire service 
and based on peer reviews by panels comprised of 
representatives from the fire service.
    Mr. Chairman, reducing loss of life and property caused by 
fire remains a significant challenge. Death and injury rates by 
fire in the United States are still unacceptably high. Each 
year, fire injures kill more Americans than the combined losses 
of all other natural disasters. In 2007, fires in the United 
States resulted in 3,430 civilian deaths, 17,675 injuries and 
$14.6 billion in direct property loss, and during that year, 
118 firefighters lost their lives in the line of duty.
    We believe that AFG and SAFER programs can help reduce 
these numbers. We also believe that without these programs, 
these numbers might be higher. Our data is beginning to show 
that the rates of firefighter and civilian injuries in 
communities that receive AFG awards are better than the 
national average. For example, from fiscal year 2005 to 2007, 
firefighter injuries in AFG communities were reduced by 6.2 
percent while the national average rose by 6.1 percent, and 
civilian casualties decreased more than eight percent over the 
national average. The AFG program provides competitive grants 
to address the training, safety, apparatus, personal protective 
gear, firefighting equipment and firefighter wellness fitness 
needs for departments large and small, career and volunteer. 
Through its component grants for fire prevention and safety, 
the AFG program provides resources to fire departments and 
nonprofit organizations alike including public education 
programs, school-based programs, smoke alarm distribution 
projects for households, and in doing so, SAFER funding allows 
the fire departments to increase their number of trained front-
line firefighters available for their communities, which in 
turn reduce response times, increases deployment capabilities 
and enhances the overall public safety.
    From fiscal year 2002 to 2009, the AFG program has received 
applications from over 160,000 applicants, and has made over 
48,000 grants totaling over $3.7 billion in financial 
assistance. Under its component FP&S (Fire Prevention and 
Safety) program, 17,000 applications have been received, 
resulting in $172.9 million being awarded to 1,829 
organizations to enhance fire safety and prevention efforts. 
And in fiscal 2005, the SAFER program has received 7,500 
applications and provided 974 fire departments and volunteer 
firefighter interest organizations with $406 million in direct 
financial assistance.
    Mr. Chairman, I will conclude my statement by again 
emphasizing the support and respect that we have at the 
Department from Secretary Napolitano to Administrator Fugate to 
myself the respect we have for the men and women of the 
Nation's fire service. A commitment to the fire service also 
represents an ongoing commitment to public safety in our 
communities and the people who reside within them. We look 
forward to working with the Committee, Congress, and the 
community to reauthorize AFG and SAFER programs.
    Mr. Chairman, Ranking Member Smith, thank you for allowing 
us to be here today and I am happy to answer any questions you 
may have.
    [The prepared statement of Mr. Manning follows:]

                Prepared Statement of Timothy W. Manning

    Chairman Wu, Ranking Member Smith, Members of the Subcommittee, I 
am Timothy Manning and I serve as Deputy Administrator of the Federal 
Emergency Management Agency (FEMA). On behalf of Administrator Fugate, 
it is a privilege to appear before you today to offer this 
Administration's support for the reauthorization of the Assistance to 
Firefighters (AFG) and Staffing for Adequate Fire and Emergency 
Response (SAFER) Grant Programs.
    Mr. Chairman, all of us at FEMA share your continued support of the 
Nation's fire service and the men and women who serve in it. We 
understand the value of these programs to firefighters across the 
country and to the citizens they serve. Having been raised in a fire 
service family and serving as a volunteer firefighter myself, I have a 
first hand appreciation of the service these men and women provide to 
communities throughout the country. As a former State emergency 
manager, I have a great appreciation of the value these grant programs 
can add to the fire and emergency services through improved response 
capability, increased responder safety and ultimately greater public 
safety.
    Our door is always open to these first responders. Within his first 
weeks at FEMA, Administrator Fugate has met with representatives of the 
International Association of Fire Chiefs, the International Association 
of Fire Fighters and the Metropolitan Fire Chiefs. During my tenure, I 
have also met with many of these organizations.
    Our partnership with the fire service is also demonstrated through 
the process by which each year's AFG and SAFER Programs are developed. 
Each year FEMA convenes a panel of fire service professionals to assist 
in the development of funding priorities for the coming year. This also 
provides an opportunity to discuss any changes in program requirements. 
There are nine major fire service organizations represented on these 
yearly panels. They are:

        <bullet>  The Congressional Fire Services Institute;

        <bullet>  The National Volunteer Fire Council;

        <bullet>  The International Association of Arson Investigators;

        <bullet>  The International Association of Fire Fighters;

        <bullet>  The National Fire Protection Association;

        <bullet>  The National Association of State Fire Marshalls;

        <bullet>  The International Association of Fire Chiefs;

        <bullet>  The International Society of Fire Service 
        Instructors, and

        <bullet>  The North American Fire Training Directors.

    Our collaboration and outreach extends throughout the grant award 
process. All awards under these programs are competitive and are based 
on funding priorities recommended by the fire service and on peer 
reviews by panels comprised of representatives of the fire service. It 
is also important to note that these programs represent the 
collaboration of two FEMA components. The first is the Grant Programs 
Directorate's Assistance to Firefighters Grant Program Office. The 
other is the United States Fire Administration. Both these FEMA 
components are staffed by dedicated public employees, many who began 
their careers as firefighters.
    Mr. Chairman, reducing the loss of life and property caused by fire 
remains a significant challenge. Death and injury rates by fire in the 
United States are still unacceptably high. Each year fires injure and 
kill more Americans than the combined losses of all other natural 
disasters. In 2007, fires in the United States resulted in 3,430 
civilian deaths, 17,675 civilian injuries, and $14.6 billion in direct 
property losses. During that year 118 firefighters also lost their 
lives due to fire. We believe that the AFG and SAFER Programs can help 
reduce these numbers.
    In Fiscal Year 2000, Congress amended the landmark Federal Fire 
Protections and Control Act of 1974--the same act that created the 
United States Fire Administration--and created the AFG Program. 
Subsequent amendments in Fiscal Year 2004 created the SAFER Program. In 
the few short years since their creation these programs have provided 
the fire service with resources and capabilities which have without 
question saved lives and property.
    The AFG Program provides competitive grants to address the 
training, safety, apparatus, personal protective gear, firefighting 
equipment, and firefighter wellness and fitness needs of fire 
departments large and small, career and volunteer. Through its 
component grants for Fire Prevention and Safety (FP&S), the AFG Program 
provides resources to fire departments and non-profit organizations to 
address fire prevention issues, including public education programs, 
school based programs, and smoke alarm distribution projects for 
households. FP&S also provides funding for research and development 
projects aimed at improvements to firefighter health and safety. The 
SAFER Program has addressed staffing needs by enhancing these fire 
departments' ability to hire career firefighters and to recruit and 
retain volunteer firefighters. In doing so, SAFER funding allows fire 
departments to increase the number of trained, front-line firefighters 
available in their communities which in turn reduces response times, 
increases deployment capabilities, and enhances overall public safety.
    From Fiscal Year 2002\1\ through Fiscal Year 2009, the AFG program 
has received applications from 160,798 eligible applicants and made 
48,822 grants totaling $3,731,619,486 in financial assistance. Under 
its component FP&S Program 17,406 applications have been received 
resulting in $172,983,355 being awarded to 1,829 organizations to 
enhance fire safety and prevention efforts. Similarly, since its 
inception in Fiscal Year 2005 the SAFER Program has received 7,531 
applications and has provided 974 fire departments and volunteer 
firefighter interest organizations with $406,428,090 in direct 
financial assistance. Further, since its inception, the SAFER Program 
has resulted in the hiring of 3,705 firefighters.
---------------------------------------------------------------------------
    \1\ In Fiscal Year 2001, AFG was paper based, but since Fiscal Year 
2002 it has been electronically based and operated.
---------------------------------------------------------------------------
    Over that same period (Fiscal Year 2002 through Fiscal year 2009) 
applications under the AFG Program were distributed as follows:

        <bullet>  59.17 percent of AFG applications were for ``Fire 
        Operations and Fire Fighter Safety'' programs;

        <bullet>  30.37 percent of AFG applications were for 
        ``Firefighting Vehicles''; and

        <bullet>  10.45 percent were under ``Fire Prevention.''

    Of those AFG Program applications:

        <bullet>  63.62 percent came from ``All Volunteer'' fire 
        departments;

        <bullet>  20.81 percent came from combination fire departments;

        <bullet>  10.54 percent came from ``All Paid'' or ``Career'' 
        fire departments; and

        <bullet>  5.03 percent came from ``Paid On Call/Stipend'' 
        departments.

    Over that same period (Fiscal Year 2002 through Fiscal Year 2009) 
applications under the SAFER Program were distributed as follows:

        <bullet>  58.12 percent of SAFER applications were for ``Fire 
        Fighter Hiring''; and

        <bullet>  41.88 percent of SAFER applications were for ``Fire 
        Fighter Recruitment and retention.''

    Of those SAFER Program applications:

        <bullet>  29.83 percent were received from ``All Volunteer'' 
        fire departments;

        <bullet>  48.89 percent were received from combination fire 
        departments;

        <bullet>  19.94 percent were received from ``All Paid'' or 
        ``Career'' fire departments; and

        <bullet>  1.79 percent were received from ``Interest 
        Organizations'', i.e., regional, State or local entities with 
        an interest in the recruitment and retention of volunteers.

    In Fiscal Year 2009, $565,000,000 has been appropriated for the AFG 
Program. By statute a minimum of five percent of those funds, or 
$28,250,000, must be set aside for the FP&S grants. Further for Fiscal 
Year 2009, $210,000,000 has been appropriated for the SAFER Program. In 
Fiscal Year 2009, the AFG Grant Program opened on April 15, 2009 and 
closed on May 20, 2009. A total of 19,786 applications have been 
received. The Fiscal Year 2009 SAFER and FP&S Grant application periods 
have not yet opened and the grant guidance is still being developed.
    Mr. Chairman, I will conclude my statement by again emphasizing the 
support and respect that we at the Department of Homeland Security--
from Secretary Napolitano, to Administrator Fugate, to myself--have for 
the men and women of the Nation's fire service. A commitment to the 
fire service also represents an ongoing commitment to the public safety 
in our communities and the people who reside within them. We look 
forward to working with you, this Committee and the Congress on the re-
authorization of the AFG and SAFER Programs. Thank you Mr. Chairman, 
Ranking Member Smith and Members of the Subcommittee, for allowing me 
to testify today. I am happy to answer any questions you may have.

                    Biography for Timothy W. Manning

    Tim Manning is the Director of the New Mexico Department of 
Homeland Security and Emergency Management and Homeland Security 
Advisor to Governor Bill Richardson. He was named the Department's 
first Director by Governor Richardson in April 2007, having previously 
been appointed to the Cabinet as Director of the Governor's Office of 
Homeland Security in 2005 and as the State Director of Emergency 
Management since early 2003. In addition to the State's intelligence 
and anti-terrorism programs, Mr. Manning also oversees the daily 
administration of the state's disaster and emergency preparedness, 
mitigation, response, and recovery efforts.
    Mr. Manning has previously served as a Deputy Cabinet Secretary of 
the New Mexico Department of Public Safety. He has a diverse background 
in emergency services, working in a number of positions in the state's 
emergency management agency from entering as the hazardous materials 
response program coordinator up through to the Chief of the Emergency 
Operations Bureau, and eventually the agency's Director. Prior to his 
service with the State of New Mexico, Mr. Manning had service as a 
firefighter, EMT, rescue mountaineer, and hazardous materials 
specialist. He also spent ten years as a hydrogeologist working on the 
investigation and restoration of chemical contaminant sites and water 
resource projects. In addition to his role in the cabinet of Governor 
Richardson, Mr. Manning is a guest lecturer and subject matter expert 
at the Center for Homeland defense and Security at the Naval 
Postgraduate School in Monterey California.
    Mr. Manning is currently Co-Chair of the National Homeland Security 
Consortium; Chairman of the National Emergency Management Association's 
Homeland Security Committee; Executive Board member of the Governor's 
Homeland Security Advisors Council of the National Governors 
Association and Chair of the Intelligence and Information Sharing 
Committee; a member of the Director of National Intelligence's Homeland 
Security and Law Enforcement Partners Group; an Interagency Threat 
Assessment Coordination Group Advisory Committee member; and Chair of 
the Emergency Management Accreditation Program (EMAP) Commission, an 
international emergency management standards setting and accreditation 
body. He has previously served as a Regional Vice President of NEMA and 
the Chairman of the Response and Recovery Committee, where he oversaw 
the efforts of the EMAC during Hurricane Katrina, and continues to 
serve on many other boards and commissions. Mr. Manning is also 
currently Chair of the New Mexico State Emergency Response Commission 
and Intrastate Mutual Aid Commission. He received a Bachelors of 
Science in Geology from Eastern Illinois University, and is a graduate 
of the Executive Program at the Center for Homeland Defense and 
Security of the Naval Postgraduate School. He is currently researching 
terrorism and political violence towards a Master of Letters from the 
University of St. Andrews, Scotland.

    Mr. Lujan. Thank you, Mr. Manning.
    Chief Johnson.

 STATEMENT OF CHIEF JEFFREY D. JOHNSON, FIRST VICE PRESIDENT, 
  THE INTERNATIONAL ASSOCIATION OF FIRE CHIEFS (IAFC); CHIEF, 
                TUALATIN VALLEY FIRE AND RESCUE

    Chief Johnson. Good morning, Chairman Lujan, Ranking Member 
Smith and distinguished Members of the Subcommittee. I am Jeff 
Johnson, First Vice President of the International Association 
of Fire Chiefs, and Fire Chief from Tualatin Valley Fire and 
Rescue in Oregon.
    The IAFC believes that the Assistance to Firefighters Grant 
program is an extremely successful program that improves the 
safety of the American public. It is one of the few DHS 
programs dedicated to all-hazard preparedness response. In 
addition, the program is well designed to improve the baseline 
operational capabilities of the American fire service.
    The program has the following core components that assure 
its effectiveness: the program distributes funding directly to 
local fire departments which reduces the amount of overhead and 
processing costs found in other DHS programs; every year, DHS 
convenes a meeting with the major fire service organizations to 
develop the criteria for awarding FIRE and SAFER grants, which 
ensures that the program is attuned to the needs of its end-
users; and the program uses a peer review process that ensures 
grants are awarded based on merit and demonstrated need.
    External reviews by federal agencies have highlighted the 
effectiveness of the program. A 2003 survey of over 1,500 FIRE 
grant recipients by the U.S. Department of Agriculture found 
that more than 97 percent of the respondents agreed that the 
AFG program had a positive impact on their department's 
operational capabilities. In addition, the Office of Management 
and Budget (OMB) reviewed the AFG program in 2007 and rated it 
effective. OMB also gave the program a 100 percent score for 
``Program Management'' and ``Program Results/Accountability.'' 
However, there is still a clear need for the program.
    Because of the recent economic downturn, many departments 
must close fire stations, lay off firefighters, cut training 
and equipment and fire prevention budgets. Meanwhile, they 
continue to face the constant risks presented by natural and 
manmade disasters.
    As the Subcommittee considers reauthorizing the AFG 
program, we would like to recommend some of the following 
changes:

        1. LThere is a need to restructure the SAFER grant 
        program. Currently, the SAFER grant program requires 
        local jurisdictions to make an escalating match with a 
        five-year commitment. In the current economic downturn, 
        many local jurisdictions cannot make this commitment. 
        As a result, there was a 20 percent drop in 
        applications from all career and combination 
        departments with a majority of career firefighters in 
        2008. The IAFC recommends that the SAFER grant program 
        be changed to a three-year commitment with a straight 
        20 percent match.

        2. LThe IAFC recommends that Congress removes the SAFER 
        cap per firefighter restriction which is at about 
        $108,000 in 2008. This cap does not take into account 
        the high cost of firefighters in jurisdictions such as 
        mine, where a rookie firefighter is budgeted and 
        actually does cost $76,000 a year. In my case, the 
        Federal Government's match would run out in the second 
        year, even with a three-year commitment on a 20 percent 
        match. Removing the cap would fix this problem.

        3. LThe FIRE grants should support improved 
        regionalism. According to the FIRE grant guidance, DHS 
        has the ability to waive the legislatively established 
        funding limits in order to support regional projects. 
        However, DHS does not reward fire departments that take 
        regionalism to the next step and consolidate or 
        amalgamate. For example, my department is composed 
        historically of 12 separate fire departments. We now 
        serve more than 432,000 people in nine cities and three 
        counties in the Portland metropolitan area. To reward 
        departments that consolidate and cover large 
        populations, the IAFC recommends that the funding limit 
        be raised.

        4. LCongress should establish centers of excellence in 
        fire safety research. Currently, the AFG program funds 
        a number of projects that are aimed at reducing more 
        than 100 firefighter deaths, and as discussed, over 
        3,000 civilian fire deaths each year. While beneficial, 
        many of these programs are not comprehensive research 
        programs. Also, their results need to be transferred to 
        the mainstream fire service. The IAFC recommends the 
        creation of two or three centers of excellence in fire 
        safety research. The research centers would be 
        partnerships between major fire service organizations 
        and major research institutions aimed at improving 
        firefighter health and public fire safety.

    The FIRE grant program should also have a waiver to local 
match requirements for economically challenged areas. According 
to the existing statute, most jurisdictions must meet a 20 
percent match while jurisdictions serving smaller populations 
must meet matches as low as five percent. Some jurisdictions 
cannot meet these requirements, especially due to the economic 
downturn, but still need training and/or to replace antiquated 
equipment. The IAFC recommends that Congress create the 
authority for DHS to waive the local match requirement for 
these departments.
    Mr. Chairman, Ranking Member Smith, I would like to thank 
you again for the opportunity to testify on the importance of 
the FIRE and SAFER grant programs. We look forward to working 
with the Committee and yourselves to continue these important 
programs. Thank you.
    [The prepared statement of Chief Johnson follows:]

             Prepared Statement of Chief Jeffrey D. Johnson

    Good morning, Chairman Wu, Ranking Member Smith, and distinguished 
Members of the Subcommittee. I am Jeff Johnson, First Vice President of 
the International Association of Fire Chiefs (IAFC), and Fire Chief of 
Tualatin Valley Fire and Rescue, which is located in Beaverton, Oregon. 
I appreciate the opportunity to testify this morning on the importance 
of reauthorizing the U.S. Department of Homeland Security's (DHS) 
Assistance to Firefighters Grant (AFG) program, which strengthens the 
baseline operational capabilities of America's fire and emergency 
services.
    The IAFC represents the leadership of over 1.1 million firefighters 
and emergency responders. IAFC members are the world's leading experts 
in firefighting, emergency medical services, terrorism response, 
hazardous materials spills, natural disasters, search and rescue, and 
public safety policy. Since 1873, the IAFC has provided a forum for its 
members to exchange ideas and uncover the latest products and services 
available to first responders.

The Fire and Emergency Service Community
    America's fire and emergency services are the only organized group 
of American citizens that is locally situated, staffed, trained, and 
equipped to respond to all types of emergencies. There are 
approximately 1.1 million men and women in the fire and emergency 
services--approximately 300,000 career firefighters and 800,000 
volunteer firefighters--serving in over 30,000 fire departments around 
the country. They are trained to respond to all hazards ranging from 
earthquakes, hurricanes, tornadoes and floods, to acts of terrorism, 
hazardous materials incidents, technical rescues, and fires. America's 
fire and emergency services also provide 68 percent of the Nation's 
pre-hospital 9-1-1 emergency medical response.
    The fire service protects America's critical infrastructure--the 
electrical grid, interstate highways, railroads, pipelines, petroleum 
and chemical facilities--and is, in fact, even considered part of the 
critical infrastructure. The fire service protects federal buildings, 
including military installations, and interstate commerce. No passenger 
airliner takes off from a runway that is not protected by a fire 
department.

The Success of the Assistance to Firefighters Grant Program

    The AFG program is one of the few grant programs dedicated to all-
hazards preparedness and response. The FIRE grant program was created 
in 2000 as part of the Fiscal Year (FY) 2001 National Defense 
Authorization Act (P.L. 106-398) to improve the baseline operational 
capability of America's fire service through improved equipment, 
training, and staffing. The program also includes the Fire Prevention 
and Safety (FP&S) grants, which are designed to enhance fire prevention 
programs and fire safety research. In 2004, Congress reauthorized the 
program. The SAFER grant program was created in 2003 as part of the FY 
2004 National Defense Authorization Act (P.L. 108-136) to specifically 
address the staffing shortages in career, volunteer and combination 
fire departments. Between FY 2001 and FY 2009, Congress appropriated 
$4.815 billion for the FIRE grant program. Also, Congress appropriated 
$689 million for the SAFER grant program between FY 2005 and FY 2009.
    From the IAFC's perspective, the AFG program has been very 
successful. The programs distribute federal funding directly to local 
fire departments, which reduces the amount of overhead and processing 
costs that are found in other DHS grant programs. Every year, DHS 
convenes annual meetings of the major fire service organizations to 
develop the criteria for awarding the FIRE and SAFER grants, which 
ensures that the award process is attuned to the needs of the end 
users. The AFG grant funds are awarded through a peer-review process to 
ensure that applications are judged on merit and demonstrated need. The 
programs also are designed to ensure that federal funds are used to 
supplement, and not supplant, local budgets. These factors ensure that 
the federal funds are used judiciously to meet the program's goal of 
improving public safety.
    There is clear evidence of the AFG program's success based on 
external federal studies. In 2003, the U.S. Department of Agriculture 
(USDA) surveyed over 1,500 AFG recipients to assess the effectiveness 
of the program. The USDA found that ``more than 97 percent of the 
respondents reported that the AFG program had a positive impact on 
their department's ability to handle fire or fire-related incidents.'' 
More than 75 percent of the respondents said that the grants had a 
``significant'' impact on their operational capabilities. In addition, 
the Office of Management and Budget (OMB) reviewed the program in 2007, 
and rated it ``Effective.'' Notably, the OMB also gave the program a 
100 percent score for ``Program Management'' and ``Program Results/
Accountability.''
    In 2006, the U.S. Fire Administration (USFA) and the National Fire 
Protection Association (NFPA) completed a statutorily-mandated analysis 
of the AFG program entitled ``Matching Assistance to Firefighters 
Grants to the Reported Needs of the U.S. Fire Service.'' The report 
compared data received from fire service needs assessments in 2001 and 
2005. This report demonstrated that the AFG program had begun to make 
progress in meeting the needs of the fire service. The following 
examples show some of the progress made by the program nationwide:

        <bullet>  The percentage of departments where there were not 
        enough portable radios to equip everyone on a shift declined by 
        13 percentage points (from 77 percent to 64 percent).

        <bullet>  The usage of thermal imaging cameras increased (and 
        the need therefore decreased) by 31 percentage points (from 24 
        percent to 55 percent).

        <bullet>  The percentage of departments without enough SCBA to 
        equip all emergency responders on a shift declined by 10 
        percentage points (from 70 percent to 60 percent).

        <bullet>  The percentage of departments without enough PASS 
        devices to equip all emergency responders on a shift declined 
        by 14 percentage points (from 62 percent to 48 percent).

    The report also found improvements in the size of the population 
covered by fire prevention programs. The programs include plans review; 
permit approval; routine testing of active alarm systems; the 
distribution of free smoke alarms; and programs that work with at-risk 
youth to reduce arson.
    One problem in measuring the effectiveness of these programs is 
that the most recent data that we have is from 2006. The data shows 
that the AFG program was beginning to show progress. However, we would 
encourage the Committee to support an updated needs assessment and 
further analysis of the AFG program's effectiveness as part of a FIRE-
SAFER reauthorization bill.

The Continued Demonstrated Need for the AFG Program

    While the studies listed above have documented the success of the 
AFG program, there is still a demonstrated need for its 
reauthorization. In 2006, the USFA and NFPA also released a report 
entitled ``Four Years Later--A Second Needs Assessment of the U.S. Fire 
Service.'' This document updated an earlier 2002 needs assessment. The 
2006 report still found a number of equipment and training shortages 
that can be addressed by the AFG program:

        <bullet>  An estimated two-thirds (66 percent) of departments 
        have at least some personal protective clothing that is at 
        least 10 years old. This includes basic equipment, such as 
        helmets, bunker gear, coats and boots.

        <bullet>  An estimated 63 percent of fire departments involved 
        in wildland firefighting have not provided formal training in 
        those duties to all involved personnel.

        <bullet>  An estimated 36 percent of fire departments involved 
        in emergency medical services or hazardous materials response 
        have not provided training to all involved personnel.

        <bullet>  In communities with a population of less then 2,500, 
        21 percent of fire departments, nearly all- or mostly-volunteer 
        departments, deliver an average of four or fewer volunteer 
        firefighters to a mid-day house fire.

    In light of the recent economic downturn, many fire departments 
across the country have seen their budgets cut. To respond to these 
budget cuts, fire stations have been shut down, firefighters have been 
laid off, and training, equipment, and fire prevention budgets have 
been cut. Meanwhile, fire departments face increased risks, including 
the widespread transportation of ethanol-blended fuels (which requires 
new training and equipment) and the outbreak of pandemic influenza, 
along with the continued risks presented by natural disasters and man-
made incidents. Over the next two years, the IAFC believes that the 
FIRE and SAFER grants will be critical for helping local fire 
departments prepare for and respond to these risks.

Proposed Changes to the FIRE Program

    While the IAFC believes that the AFG program runs well, we would 
recommend the following legislative changes to the FIRE grant program:

        <bullet>  Waiver to the local match for economically-challenged 
        jurisdictions: According to the current statute, most fire 
        departments have to meet a 20 percent match. A jurisdiction 
        with 50,000 or fewer residents has to meet a 10 percent match, 
        and a jurisdiction with 20,000 or fewer residents only has to 
        meet a five percent match. There are some jurisdictions that 
        cannot meet these local match requirements due to the economic 
        downturn, but still need to replace antiquated equipment or 
        need new training. Since the FIRE grant program is designed to 
        improve the operational baseline capability of fire 
        departments, we ask that the Committee create the authority for 
        the DHS to grant a waiver for the local match for these needy 
        departments. We would be willing to work with the Committee to 
        develop a fair, credible and transparent process for granting 
        waivers for needy departments.

        <bullet>  Establish Centers of Excellence in Fire Safety 
        Research: Every year, over 100 firefighters die in the line of 
        duty and over 3,000 members of the public die in fire-related 
        deaths every year. The FP&S grants fund a number of research 
        projects to study issues such as how to improve firefighter 
        cardiovascular health, reduce community fire risk, and the 
        IAFC's National Fire Fighter Near-Miss Reporting System, which 
        is designed to reduce firefighter deaths and injuries. However, 
        many of these projects are single projects that are not part of 
        a comprehensive research program. Also, there needs to be 
        greater success at transferring new technology and important 
        information developed by the FP&S grants to the mainstream fire 
        service.

           To address these concerns, the IAFC supports the use of the 
        FP&S funds to develop two or three centers of excellence in 
        fire safety research that would establish long-term, 
        comprehensive applied research programs to improve firefighter 
        health and public fire safety. We envision these research 
        centers as being joint partnerships between major fire service 
        organizations and regionally-accredited, major academic 
        research institutions aimed at reducing firefighter and public 
        mortality and improving firefighter and public safety. These 
        centers would be overseen by the AFG office and funded at up to 
        $2 million in the first year and no more than $5 million 
        annually thereafter from the FP&S grants.

        <bullet>  Reward Improved Regionalism: The FIRE grant program 
        is designed to support regionalism and even allows a separate 
        category of applications for regional projects. According to 
        the FIRE grant guidance, the DHS has the ability to waive the 
        legislatively established funding limits under the AFG to fund 
        larger projects that support training and equipment acquisition 
        that ``positively affect inter-operability between 
        jurisdictions.'' The IAFC supports these incentives to promote 
        greater regional cooperation between jurisdictions. Mutual aid 
        between jurisdictions is the backbone of our national emergency 
        response system.

           However, we are seeing an increasing trend, especially in 
        the West Coast states, to take regionalism ``to the next 
        level.'' To improve operational capabilities and derive 
        economies of scale, many departments are combining into larger, 
        amalgamated fire departments. For example, my fire department, 
        Tualatin Valley Fire and Rescue, is composed of what were 
        historically 12 departments. Today, my fire department has 500 
        members and protects more than 432,500 people in nine cities 
        and portions of three counties in the Portland, Oregon 
        metropolitan area. My fire department is limited to a $1 
        million grant, but if the 12 departments had applied separately 
        for AFG funding, they would be able to apply for a much larger 
        amount. In order to promote greater regional integration and 
        support greater equality for fire departments that are composed 
        of historically smaller entities, the IAFC recommends that the 
        funding cap be raised for larger fire departments.

Proposed Changes to the SAFER Program

    The IAFC also would recommend some major revisions to the SAFER 
grant program. The current program requires a five-year commitment with 
an escalating local match of 10-20-50-70-100 percent. The current 
economic downturn has demonstrated some weaknesses in this formula. 
Many jurisdictions can no longer make a five-year commitment to the 
program, because they do not know what their budget situation will look 
like in the fifth year when they have to cover 100 percent of the 
firefighter's salary. In 2008, the DHS reported a greater than 12 
percent drop in SAFER grant applications from 2007, including a 20 
percent drop in applications from all-career and combination 
departments with a majority of career firefighters. In addition, there 
is an increasing number of jurisdictions that have had to decline SAFER 
grants or give back federal funding, because they can no longer meet 
the local match requirements in the second, third, or fourth year. 
Congress attempted to address this issue temporarily earlier this year 
in both the American Recovery and Reinvestment Act (P.L. 111-5) and the 
Supplemental Appropriations Act (P.L. 111-32) by waiving the local 
match and other SAFER Act requirements. The IAFC supported these 
temporary relief measures, and believes that the situation can be 
simplified with a straight three-year local commitment for the SAFER 
grant program with a 20 percent match.
    The IAFC also would recommend that Congress remove the SAFER 
program's $100,000 statutory cap per firefighter (which was increased 
with inflation to $108,380 in 2008). This cap does not take into 
account the costs of hiring even a rookie firefighter in some parts of 
the country. For example, my fire department budgets $76,070 for a 
rookie firefighter for one year. Even under a three-year commitment 
with a 20 percent match, the $108,380 from the Federal Government would 
run out in the second year. Regardless of the federal match required by 
law, the statutory cap per firefighter would require me to pay 100 
percent of the ``subsidized'' firefighter by the third year. To prevent 
this contradiction, the IAFC would urge the Committee to remove this 
cap.

Conclusion

    In conclusion, I would like to thank the Subcommittee for its 
continued dedication to helping America's fire service. Last year, this 
subcommittee passed the United States Fire Administration (USFA) 
Reauthorization Act of 2008 (P.L. 110-376), which strengthened the USFA 
and the National Fire Academy. The IAFC is grateful that the 
Subcommittee is now focused on reauthorizing the FIRE and SAFER grant 
programs. As my testimony demonstrates, these programs play a vital 
role in making sure that local fire departments are prepared to respond 
to all-hazards and they have a proven record of effectiveness. We hope 
that the Subcommittee will consider the recommendations that we have 
outlined here today, and look forward to working with you to pass an 
AFG reauthorization bill this year.

                 Biography for Chief Jeffrey D. Johnson

    Jeff Johnson, Fire Chief and Chief Executive Officer of Tualatin 
Valley Fire and Rescue (TVF&R), joined the fire district in 1989, 
following an 11 year fire service career in Douglas County, Oregon. 
Chief Johnson served as Division Chief and Assistant Chief at TVF&R 
prior to becoming Fire Chief in 1995.
    Serving a resident population of more than 432,500 in nine cities 
and portions of three counties in the Portland (OR) metropolitan area, 
TVF&R is a fire district with approximately 500 members providing fire, 
EMS, and specialty rescue response along with prevention services. 
While under Chief Johnson's leadership, TVF&R has twice received the 
International Association of Fire Chiefs (IAFC)/U.S. Safety and 
Engineering Fire Service Excellence Award, the Nation's top award for 
organizational excellence in the fire service. TVF&R is accredited by 
the Center for Public Safety Excellence Commission on Fire 
Accreditation International CPSE/CFAI).
    Chief Johnson is an ambassador for excellence and innovation in our 
service to the community. Additionally, he advocates for cooperative 
initiatives and other business practices that achieve efficiencies and 
demonstrate smart government and value for the citizens' investment. He 
has authored two fire service books and is a featured guest lecturer 
across the nation.
    Chief Johnson is the Vice President of the International 
Association of Fire Chiefs (IAFC) and holds membership in the 
Metropolitan Fire Chiefs Association and the various IAFC Sections. He 
is the IAFC's alternate representative to the SAFECOM Executive 
Committee and a member of the SAFECOM Emergency Response Council. 
Additionally, he is a member of the USA Delegation to the Comite' 
Technique International De Prevention Et D'Extinction Du Feu (CTIF), 
also known as the International Association of Fire and Rescue 
Services.
    By gubernatorial appointment, he is the Chair of Oregon's State 
Inter-operability Executive Council and a member of the Oregon 
Governor's Homeland Security Council. He is Past President of both the 
Western Fire Chiefs Association (WFCA) and the Oregon Fire Chiefs 
Association (OFCA), the Past Chair of the Oregon Governors' Fire 
Service Policy Council, and a charter member of Oregon's Meritorious 
Service committee. Locally, he is a board member for both the 
Washington County Office on Consolidated Emergency Management (OCEM) 
and for the Washington County Consolidated Communications Agency 
(WCCCA; the 911/dispatch center.
    In the corporate environment, Chief Johnson sits on the boards of 
two private companies, specifically as a member of the Informed 
Corporation Board and as the Chairman of the Global Public Safety 
Solutions (GPSS) Board. He also is on the Editorial Board of FireRescue 
Magazine.
    Chief Johnson holds a Bachelor of Science Degree in Business and 
Associate Degrees in Fire Science and Criminal Justice Administration. 
He is a graduate of the National Fire Academy's Executive Fire Officer 
(EFO) Program and achieved the CPSE Chief Fire Officer (CFO) 
Designation. During his leisure time, Jeff enjoys spending time with 
his wife Kay and their two children. An avid outdoorsman and student of 
Oregon history, he enjoys camping, fishing and motorcycling in Oregon's 
back country.

    Mr. Lujan. Thank you very much, Chief.
    Chief Carriger.

  STATEMENT OF CHIEF JACK CARRIGER, STAYTON FIRE DEPARTMENT, 
STAYTON, OREGON; FIRST VICE-CHAIRMAN OF THE NATIONAL VOLUNTEER 
                      FIRE COUNCIL (NVFC)

    Chief Carriger. Good morning, Chairman Lujan and Ranking 
Member Smith and distinguished Members of the Subcommittee. I 
would like to take this opportunity to thank you for allowing 
me to be here today and I would like to also thank Chairman Wu 
for his dedicated service to public safety and his commitment 
to this program and others.
    My name is Jack Carriger. I am the Fire Chief for Stayton 
Fire District, which is in the northwest section of Oregon, and 
I am also here as the First Vice President of the National 
Volunteer Fire Council. The council has participated since the 
inception of the AFG program and SAFER program in the criteria 
and strategic planning of the programs through the Department 
of Homeland Security and has continued to be a part of that 
input, which has made this program the success that it is. That 
we in the fire service can give input to DHS and provide the 
information that is used to base the criteria development for 
the AFG grants and the SAFER grants is probably, as it has been 
testified earlier, one of the most successful things that has 
happened on this Hill in many years. Stakeholders have input 
that is solicited through the meetings since 2000 at its 
inception and the process was codified last year during the AFG 
reauthorization. In addition to consulting with the fire 
service through the criteria development and strategic 
planning, AFG convenes panels of firefighters to evaluate and 
rank applications based on merit and based on the panel's 
rankings awards those grants to departments across the United 
States, both rural, suburban and metro departments equally.
    When AFG was created in 2007, it was the first federal 
program designed to assist local fire agencies with goals of 
bringing all fire departments to a baseline to be able to 
provide a base level of security for the citizens of our 
country. And then in 2002 and 2004, AFG was reauthorized and a 
second assessment study was published in 2006 that found 
significant progress had been made in several areas including a 
56 percent increase in the number of departments with enough 
portable radios to provide everyone on shift, a 33 percent 
increase in the percentage of departments with enough self-
contained breathing apparatus to provide everybody on shift, 
129 percent increase in the number of departments with thermal 
imaging cameras and 21 to 42 percent increase in the overall 
percentage of departments with written agreements of 
cooperation using outside personnel and equipment in response 
to emergencies.
    In addition to statistical documentation of the program's 
success, there are several available web sites such as 
www.firegrantsupport.com, which is maintained by FEMA, and 
www.firegrantdata.com, which is maintained by several of the 
national fire service organizations, and I can tell you that my 
department has received several of these grants and they have 
made an extreme difference in our ability to not only provide 
service to the public but to provide service to other agencies 
through inter-operability and through compatibility. Our first 
grant was for SCBAs (self-contained breathing apparatus). Our 
equipment was more than 15 years old and did not meet any of 
the current NFPA standards. We were able to purchase new SCBAs 
that were compatible with larger departments around us and all 
of those neighboring departments that surrounded us.
    Our second grant was to receive personal protective 
equipment, which included helmets, turnouts, boots, and gloves, 
which replaced equipment that was 15 to 20 years old, and this 
allowed us to not only be able to provide safer service to the 
public but to provide that extra level of safe protection to 
the firefighters themselves, and as is stressed so heavily in 
the fire service today, the need for everyone to go home is 
based on our ability to provide safety for those firefighters, 
both career and volunteer.
    Our third grant was for a rehabilitation trailer for 
firefighters and other emergency agencies, people that provide 
monitoring, care and treatment on scene for firefighters while 
they are working, especially in long-duration incidents.
    The SAFER Act has brought a new ability to the volunteer 
fire service to be able to go out and actively participate in 
recruitment and retention programs that are so vitally 
important to the volunteer service right now with its 
challenges of finding people that are willing to take the time 
out of their lives and help revitalize the ranks of the 
volunteer fire service in the United States, and we at the NVFC 
feel that this program is vital to the future of the fire 
service in general, and that both SAFER and AFG are vital to 
the future of our ability to provide first response service to 
the communities that we serve, which is equal across the Nation 
no matter what size the Department is.
    At NVFC, we would like to see some things take change in 
the service. Although we feel that the program is an excellent 
program, it is designed well through criteria development, 
through strategic planning and through the peer group 
evaluation, those groups continually bring better things to the 
matrix process and the application process but we would also 
like to see Congress authorize additional tools for assessing 
AFG and SAFER. This would include another fire service needs 
assessment to measure the progress that has been made in 
bringing fire departments up to baseline levels of readiness 
based on national consensus standards. It would also include 
developing tools to analyze the impact that grants are having 
in the communities and incorporated data from NFIRS (National 
Fire Incident Reporting Systems). State fire training agencies 
should be made eligible grantees through the AFG including 
grants for the purchase of vehicles and equipment. Grants for 
State training agencies should be capped at $1 million, the 
same as all but the largest fire department jurisdictions. 
State training agencies are a critical component of creating 
and delivering training throughout the country, especially in 
rural areas. National organizations should be able to be 
eligible to apply for SAFER recruitment and retention grants. 
Recruitment and retention is one of the most significant 
challenges facing volunteer fire service today. State and local 
interest organizations are already eligible to apply for these 
grants and have been able to use the funds to assist hundreds 
of departments. National organizations could use the same 
approach and even on a larger scale and larger groups for 
departments.
    The local matching requirement for the departments through 
the fire prevention and safety should be eliminated. This would 
hopefully rejuvenate the participation in those programs as 
well as in the interest of national organizations, which 
currently have no matching requirements.
    I would like to thank you again for allowing me to 
participate, and if you have any questions, I would be more 
than happy to answer those.
    [The prepared statement of Chief Carriger follows:]

               Prepared Statement of Chief Jack Carriger

    Chairman Wu, Ranking Member Smith and distinguished Members of the 
Subcommittee, I'd like to thank you for giving me the opportunity to be 
here today to speak with you about the Assistance to Firefighters Grant 
(AFG) program and the Staffing for Adequate Fire and Emergency Response 
(SAFER) Grant program as the subcommittee prepares legislation to 
reauthorize both programs. My name is Jack Carriger and I am the Chief 
of the Stayton Fire Department in northwest Oregon as well as the First 
Vice-Chairman of the National Volunteer Fire Council (NVFC).
    The NVFC is a nonprofit organization representing the interests of 
the more than one million volunteer firefighters and EMS personnel in 
the United States. Volunteer firefighters and EMS personnel serve in 
more than 20,000 communities across this country. Their services save 
local taxpayers more than $37.2 billion each year. Without volunteer 
firefighters and EMS personnel, thousands of communities, particularly 
in rural areas, simply could not afford to provide effective emergency 
services to their citizens.

Program Overview

    The AFG and SAFER programs provide assistance to local fire and EMS 
agencies through a competitive grant process that ensures that funding 
is efficiently directed to the communities that need it most. AFG funds 
are used primarily to purchase equipment, protective gear, emergency 
vehicles and training while SAFER funds are used for hiring career 
firefighters as well as recruitment and retention of volunteer 
firefighters. By statute, five percent of AFG funds are set aside to 
support ``fire prevention and control activities.'' These funds have 
traditionally been administered as a separate program, the Fire 
Prevention and Safety (FP&S) grants.
    With several notable exceptions, AFG, SAFER and FP&S use local 
matching requirements restrictions on using federal funding to replace 
local spending to ensure that the programs are building capacity and 
improving safety rather than simply helping local governments balance 
their budgets. The size of grant awards is capped based on community 
size to ensure that there is funding available to help a large number 
of communities of different sizes.
    Over the past few years, I have represented the NVFC at criteria 
development and strategic planning meetings that the Department of 
Homeland Security (DHS) holds in order to receive stakeholder input on 
AFG, SAFER and FP&S. In March, I participated in a conference call with 
other stakeholders to provide input on criteria for the Fire Station 
Construction (FSC) grants that were funded through the American 
Recovery and Reinvestment Act (ARRA) of 2009.
    Stakeholder input has been solicited though criteria development 
meetings since the inception of AFG in 2000--a process that was 
codified during the last AFG reauthorization. DHS is able to take the 
input from the criteria development meetings and use it to recalibrate 
the grant criteria each year to ensure that it is addressing the most 
pressing needs of the fire service. The meetings also offer DHS an 
opportunity to share information with the fire service about emerging 
trends within the grant programs that may necessitate consideration of 
additional adjustments to the criteria.
    In addition to consulting the fire service through the criteria 
development and strategic planning meetings, DHS convenes panels of 
firefighters to evaluate and rank grant applications based on merit. 
Based on the panel rankings, awards are made directly to fire and EMS 
agencies. This funding delivery method, combined with the outstanding 
work of Grants Program Directorate (GPD) of the Federal Emergency 
Management Agency (FEMA), which administers the various programs, has 
resulted in more than 95 percent of appropriated funds reaching local 
first responders.

AFG

    When AFG was created in 2000, it was the first federal program 
designed to assist local fire agencies, with the goal of bringing all 
fire departments up to a baseline level of readiness. Congress 
authorized a needs assessment study to identify major areas of need 
based on national consensus standards in 2000 and again in 2004 when 
AFG was reauthorized. The second needs assessment study was published 
in 2006 and found that significant progress had been made in several 
areas, including:

        --  A 56 percent increase in the number of departments with 
        enough portable radios to equip everyone on a shift.

        --  A 33 percent increase in the percentage of departments with 
        enough self-contained breathing apparatus to equip everyone on 
        shift.

        --  A 129 percent increase in the number of departments with 
        thermal imaging cameras.

        --  A 21-42 percent increase (depending on the type of 
        incident) in the overall percentage of departments with written 
        agreements to coordinate the use of outside personnel and 
        equipment in a response.

    A 2007 DHS Program Assessment Rating Tool (PART) review of AFG 
determined that the program was 95 percent effective--the second 
highest rating of any DHS program behind only the Secret Service 
Domestic Protectees program. The Assessment found that AFG has been 
particularly successful at reducing on-scene firefighter injuries and 
reducing the percentage of grant dollars spent per firefighters 
trained.
    In addition to the statistical documentation of the program's 
success, there is substantial anecdotal evidence available on various 
web sites including www.firegrantsupport.com, which is maintained by 
FEMA, and www.firegrantdata.com, which is maintained by several 
national fire service organizations. My own fire department has 
received three AFG three AFG grants have been for firefighter safety 
and wellness. The first grant we received replaced Self Contained 
Breathing Apparatus that was for the most part over twenty years old 
and no longer compatible with or neighboring departments we know can 
work with all of our surrounding departments. The second grant assisted 
us in providing our firefighters with new Personal Protective Equipment 
which included turnout gear, helmets, gloves and boots that meet 
current NFPA standards that our old equipment, in most cases over 
fifteen years old, did not meet and left our firefighters exposed to 
much higher risk. Our third grant provided a firefighter rehabilitation 
unit designed to provide monitoring, care and treatment to firefighters 
and other emergency service agencies on scene. These grants have 
allowed us to provide a much higher level of protection to our 
volunteers then we have ever been able to provide before.
    One of the challenges in tracking the impact of AFG in statistical 
terms is a lack of comprehensive data on fire incidents nationally. The 
National Fire Incident Reporting System (NFIRS) is in the process of 
being updated using funds authorized last year in the United States 
Fire Administration Reauthorization Act of 2008, which was written by 
this committee. More consistent and comprehensive reporting of fire 
incidents will allow us to examine with far greater accuracy the true 
impact of AFG. Additionally, Congress should authorize another needs 
assessment of the fire service in order to examine progress that has 
been made since the last assessment was performed.
    In each of the past three years, an average of nearly 20,000 fire 
departments and EMS agencies have submitted requests for an average of 
more than $3 billion through AFG. The largest percentage of these 
requests--both in the number of applications and funds requested--have 
come from volunteer departments, which are first-due responders to 
approximately 70 percent of communities nationwide.
    Volunteer departments serve urban and suburban areas but are most 
highly concentrated in rural communities that have small tax bases and 
higher rates of poverty on average than larger jurisdictions. DHS needs 
assessments have consistently shown that equipment, training and 
apparatus needs are most acute in volunteer departments. Many volunteer 
departments rely on used equipment and apparatus, either purchased from 
or donated by other departments. According to a 2005 survey by the U.S. 
Fire Administration, in communities of 2,500 or less, only 43.5 percent 
of fire departments purchase new apparatus. According to the same 
survey, 71 percent of those communities are served by fire departments 
that are involved in structural firefighting without all personnel 
having formal training.
    Over the years, the roles and responsibilities the fire service has 
been asked to take on have been gradually expanding--a process that 
accelerated after the terrorist attacks on our country in September, 
2001. Since that time, a number of grant programs have been established 
through DHS to improve preparedness, including providing assistance to 
first responders. Funding through these programs is made available 
primarily in densely populated communities, which are perceived to have 
a higher risk of terrorist attack. Since Hurricane Katrina, the 
priorities of these programs have been altered to recognize the 
importance of preparing for a wider range of disasters. Still, the bulk 
of funding is still being directed to urban areas--both directly and by 
providing larger allocations of block-grant funding to states with 
major population centers.
    Of all DHS programs, the various firefighter assistance grants 
stand alone in serving communities of all sizes and distributing 
funding based on need rather than population (although population 
protected is one component taken into account in ranking AFG 
applications). AFG is particularly important to volunteer departments 
because it addresses the pressing needs that represent the largest 
proportion of their budgets--equipment, training and apparatus 
expenditures.
    Even with little-to-no costs in the form of personnel compensation, 
most volunteer departments still rely on private fundraising to balance 
their operating budgets. Volunteer firefighting and EMS professionals 
respond to emergency calls with or without the type of equipment, 
training and apparatus that their counterparts in many larger 
communities take for granted. For many volunteer departments, AFG 
represents their only option for purchasing up-to-date firefighting 
tools.
    AFG is also an invaluable tool in encouraging training within the 
volunteer fire service. Earlier I cited the percentage of fire 
departments serving small communities that have not trained all of 
their personnel for structural firefighting, and similarly dismaying 
statistics exist for training levels of personnel responding to other 
types of incidents, including EMS, wildland fires and hazardous 
materials incidents, among others.
    One of the things that is consistently stressed at stakeholder 
criteria development meetings is that departments receiving grants for 
equipment and apparatus must have their personnel trained to use it. As 
a result, departments must certify that their personnel are trained to 
a level consistent with minimum national consensus standards for the 
use of a piece of equipment or apparatus that they are applying for. 
Departments that do not already meet this minimum standard are still 
eligible to receive AFG funds if they adopt a plan to train their 
personnel and their applications will actually score higher if they 
include funds to pay for necessary training.
    Last year, the NVFC adopted a position that all volunteer fire 
departments should at least be working towards training all personnel 
to a level consistent with NFPA 1001: Standard for Fire Fighter 
Professional Qualifications. This is not a unique position within the 
fire service, but it was a major step for the NVFC because there are a 
number of volunteer departments in the country that do not believe 
training their personnel to that level is possible, desirable or some 
combination of the two.
    Incorporating national consensus standards into the AFG criteria is 
having a ripple effect on the way that some states approach training. 
The Mississippi Fire Academy recently changed its field-delivered 
training and now offers classes that lead to certification based on 
NFPA 1001 requirements. The NVFC's Mississippi Alternate Director 
George Stevens is the Lamar County (MS) Fire Coordinator and reports 
that this change was in part the result of a lobbying effort by the 
state's County Fire Coordinators, who were motivated by the 
requirements in AFG.
    Some of the major challenges facing volunteer departments in 
training their personnel include a lack of resources, time constraints 
on the individual volunteers and a lack of locally-available training 
opportunities. AFG is a vital part of the solution to dealing with all 
of these issues, first and foremost by providing departments with 
resources to pursue additional training.
    State training agencies also play a critical role in training 
volunteer firefighters, but are not currently eligible for funding 
through AFG. These agencies deliver training to fire departments in 
remote areas by producing and disseminating training materials, funding 
training offerings at local colleges and other institutions and through 
regional training facilities. State training agencies should be made 
eligible to apply for funds through AFG to supplement ongoing efforts 
and encourage expanded training offerings.

SAFER

    Staffing was originally a component of AFG, but based on input from 
the fire service through the criteria development process, AFG has 
never funded staffing grants. Instead, Congress created the SAFER 
program in 2003 to address the significant personnel needs that exist 
throughout the fire service.
    SAFER's primary function is to assist career, combination and 
volunteer departments with hiring personnel. There is also a minimum 10 
percent set-aside required by statute to assist combination and 
volunteer departments with recruitment and retention (R&R) of 
volunteers.
    In each of the past three years, 1,300-1,700 fire departments have 
applied for $750-$593 million in funding through SAFER. One of the 
reasons for the low level of requests through SAFER (relative to AFG) 
has been high local matching requirements for hiring grants. Many 
departments have been forced to return hiring grants because they are 
unable to meet the local match. This was addressed, at least in the 
short-term, in ARRA, which eliminated local matching requirements for 
SAFER for FY 2009 and 2010. There has never been a local matching 
requirement for the R&R portion of SAFER, which have represented 30-40 
percent of total requests over the past three years.
    There is no single more significant challenge facing the volunteer 
fire service than recruitment and retention. While the total number of 
people who are members of volunteer fire departments has remained 
relatively constant over the past 25 years, the average age of those 
individuals has been increasing to the point where today, approximately 
half of all volunteer firefighters are over the age of 40. In 1987, 
roughly 65 percent of volunteer firefighters were 39 years of age or 
less.
    As this trend suggests, fire departments are increasingly having 
difficulty recruiting and retaining the next generation of volunteer 
firefighters. There are a variety of reasons for this: increased 
training requirements mean that individuals have to commit more time 
than ever to volunteering; people today are commuting longer distances 
to work, leaving less time for training and putting particular strain 
on departments ability to have adequate staffing during working hours; 
an increase in the number of one- and two-parent households in which 
all the parents are working; and pressure from career fire departments/
union locals to prevent career firefighters from volunteering during 
off-duty hours (also known as ``two-hatters'').
    This last issue is already being addressed to some degree through 
SAFER. Fire departments that receive a SAFER hiring grant are 
prohibited by statute from discriminating against two-hatters. Two-
hatters tend to be individuals who got their initial firefighter 
training and experience through their hometown volunteer fire 
department. In a 2005 study, the Government Accountability Office (GAO) 
estimated that 27,000 (close to 10 percent of) career firefighters 
volunteer during off-duty hours. The volunteer protections in SAFER 
ensure that hiring grants aren't increasing capacity in career 
departments by subtracting from the ranks of volunteers.
    Volunteer fire departments can use R&R funds for a variety of 
activities from marketing campaigns to establishing modest financial or 
other incentives to their personnel. In addition to fire departments, 
local and State interest organizations are eligible to apply for R&R 
funding. My department received a SAFER grant in FY 2008 that is 
currently in the process of being implemented. The grant includes 
matching funds to assist the District with hiring a full time volunteer 
recruitment and retention office for the District, this person will 
also assist the nine surrounding Fire Districts with their R&R 
challenges in meeting the need for increased volunteer firefighting.
    The Oregon Volunteer Firefighters Association received a SAFER 
grant in 2006 to establish a State-wide marketing program to assist 
local fire departments in recruiting volunteers in their areas. The 
Oregon Fire Chief's Association also received a SAFER Grant in 2007 
that was incorporated with the Volunteers grant to enhance recruitment 
and retention across the state. A number of departments have reported 
an increase in interest and in volunteers since the programs were 
implemented.
    One of the major benefits to allowing interest organizations to 
compete for SAFER funds is that they can implement programs with the 
potential to reach volunteer fire departments that are not applying for 
R&R grants. Many of these departments desperately need additional 
personnel but are unsure about how to go about implementing a 
recruitment and retention program. Through the grant that OVFA received 
in 2006, we have directly assisted more than 200 and indirectly 
assisted all 340 volunteer and combination departments--many times more 
than the 32 fire departments in the State of Oregon that applied for 
SAFER funding in FY 2006.
    As I just alluded to, one of the major benefits of allowing 
interest organizations to compete for SAFER funds is that they can 
implement programs with the potential to reach the vast majority of 
volunteer fire departments that are not applying for R&R grants. Many 
of these departments desperately need additional personnel but are 
unsure about how to go about implementing a recruitment and retention 
program. Through the grant that OSFA received in 2006, we have assisted 
more than . . . departments in the State of Oregon, three times the 
number of departments in the state that applied for SAFER funds.
    Unfortunately, national organizations are not currently eligible 
for R&R funding. The NVFC is already active in promoting recruitment 
and retention on a number of fronts, operating a national 1-800-
FIRELINE phone number where individuals interested in learning about 
volunteering can be connected with a department in their area and last 
year developing, in partnership with USFA, an extensive Recruitment and 
Retention manual. National organizations should be made eligible to 
compete for R&R grants so that they have access to additional resources 
to leverage ongoing efforts and establish new initiatives for 
departments nationwide.

FP&S

    As mentioned earlier, FP&S grants are a component of AFG. By 
statute, FP&S must comprise at least five percent of funds appropriated 
to AFG, although in recent years the actual awards have been in excess 
of that figure.
    While AFG and SAFER focus on building response capacity, FP&S 
focuses on reducing the national fire problem through prevention 
activities, with a primary goal to target high-risk populations and 
mitigate high incidences of death and injury. Over the past three 
years, approximately 2,700-3,330 fire departments and interest 
organizations have applied for $270-$448 million through FP&S.
    The NVFC has received FP&S funds to operate our Heart-Healthy 
Firefighter program, the only national program dedicated to saving 
America's firefighters and EMS personnel from heart disease, the 
leading cause of line-of-duty death. Through the Heart-Healthy 
Firefighter program, the NVFC disseminates information, materials and 
programs to implement locally that emphasize heart health through 
fitness, proper nutrition and lifestyle choices to firefighters and EMS 
personnel. The program has also provided more than 15,000 health 
screenings at no cost to firefighters.
    In the 2004 AFG reauthorization, the matching requirement for 
interest organizations was eliminated in an attempt to encourage 
additional applications. Since the reauthorization we have seen a 
substantial increase in applications from interest organizations. 
Unfortunately, since that time we have also seen a major decrease in 
funding requests from fire departments. In FY 2007, the last fiscal 
year for which application statistics have been made available on 
www.firegrantsupport.com, applications from non-fire departments made 
up nearly 43 percent of total funds requested. Between 2005 and 2007, 
fire departments have gone from requests through FP&S have fallen from 
$394 million to $191 million.
    The NVFC would like to see the FP&S local matching requirement 
eliminated altogether in order to level the playing field between fire 
departments and interest organizations and encourage more applications 
generally.

NVFC Priorities for Reauthorization

    The NVFC's main priority for reauthorization of AFG/FP&S and SAFER 
is to extend the programs without substantial changes. We believe that 
the programs are well-run, distributing funding in an efficient manner 
to the most deserving awardees. Through the criteria development and 
strategic planning meetings, DHS is already able to make adjustments to 
the programs on a yearly basis to ensure that the program is responsive 
to the shifting needs of the fire service.
    There are a few changes that we would like to see made, that I 
alluded to earlier and will summarize again:

         Congress should authorize additional tools for assessing AFG/
        FP&S and SAFER. This would include another fire service needs 
        assessment to measure the progress that has been made in 
        bringing fire departments up to a baseline level of readiness 
        based on national consensus standards. It would also include 
        developing tools to analyze the impact that grants are having 
        in communities and incorporate data from NFIRS.

         State fire training academies should be made eligible grantees 
        through AFG, including grants to purchase vehicles and 
        equipment. Grants for State training academies should be capped 
        at $1 million, the same as all but the largest fire department 
        jurisdictions. State training academies are a critical 
        component of creating and delivering training throughout the 
        country and especially in rural areas.

         National organizations should be made eligible to apply for 
        SAFER R&R grants. Recruitment and retention is one of the most 
        significant challenges facing the volunteer fire service today. 
        State and local interest organizations are already eligible to 
        apply for these grants and have been able to use funds to 
        assist hundreds of fire departments. National organizations 
        could use the same approach to benefit an even larger group of 
        departments.

         The local matching requirement for fire departments through 
        FP&S should be eliminated. This would hopefully re-invigorate 
        participation by fire departments in the FP&S program as well 
        as create equity between fire departments and interest 
        organizations, which currently have no matching requirement.

    Thank you again for the opportunity to testify here today. I look 
forward to answering any questions you might have.

                   Biography for Chief Jack Carriger

    Chief Carriger started his emergency service career as a Reserve 
Deputy with the Marion County Sheriff's Office where he spent 10 years. 
During that time he was promoted to the rank of Sergeant in charge of 
the Reserve Training Academy.
    After leaving the Sheriff's office he joined Marion County Fire 
District #1 as a volunteer. During his ten years with MCFD he served as 
a Lt., a member of the Training Committee, President of Volunteer FF 
Association, and became involved with the OVFA.
    In October 1996, Chief Carriger was hired by Nestucca Fire District 
to serve as their Fire Chief.
    In November of 2002 he accepted the Fire Chief's position with 
Stayton Fire District where he continues to serve.
    During his career he has been involved with the following: Adjunct 
Instructor for CCC; OVFA President; OFCA member; Board Member BPSST; 
Chair of the Fire Advisory Committee to BPSST; Tillamook County Fire 
Defense Board, 1st Alt. Chief; Chair, Tillamook County 911 Advisory 
Committee; Chair, Santiam Canyon 911 Center Council; Interim Director 
of Santiam Canyon 911 Center.
    Currently he serves on the following local, State, and national 
committees and councils: Marion County Emergency Management; Marion 
County Communications Plan Committee; Marion County Fire Defense Board 
1st Alt Chief; Santiam Canyon 911 Center Executive Board; Chair of the 
Oregon State FF Training and Emergency Relief Fund; State Mobilization 
Plan Review Committee; FIRE ACT Grant Criteria and Development 
Committee; Advisory Committee to FIRE ACT Administration Staff; 1st VP 
National Volunteer Fire Council.

    Mr. Lujan. Thank you very much, Chief.
    Mr. O'Connor, you are recognized. I just want to remind the 
witnesses of the five-minute timeline. We may be called for 
votes close to 11:00 so that way we can get through all the 
questions. Mr. O'Connor.

 STATEMENT OF MR. KEVIN B. O'CONNOR, ASSISTANT TO THE GENERAL 
  PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS (IAFF)

    Mr. O'Connor. Thank you, Chairman Lujan, Ranking Member 
Smith. I am Kevin O'Connor, representing the men and women of 
the International Association of Fire Fighters. Prior to my 
IAFF service, I served for 15 years as a firefighter/EMT in the 
Baltimore County Fire Department and was also a proud volunteer 
in that same jurisdiction.
    Let me begin by thanking this committee for its continued 
interest in the AFG and SAFER programs. Without the consistent 
bipartisan support of the Science Committee, neither program 
would have ever been authorized. Today I am here to support the 
reauthorization of both programs but also to offer constructive 
advice to make AFG and SAFER more efficient and cost effective.
    In its eight-year history, as you have been told, AFG has 
dispensed over 40,000 grants totaling almost $4 billion; but 
those statistics belie the fact that the programs have not 
always met their original objective. AFG and SAFER were 
designed to strengthen the ability of local fire departments to 
better protect safety nationwide. While some communities have 
used the grants to make important enhancements in local fire 
protection, it is clear that the funds are not being used 
effectively and the current statutory limitations are 
undermining AFG's mission. Recognizing this problem, the IAFF 
worked with the IAFC and NFPA, who are also at this table 
today, as well as others to craft a proposal which we believe 
addresses serious impediments under current law that may 
prevent many communities from taking full advantage of AFG and 
SAFER. Empirically, the overwhelming majority of FIRE grants 
are awarded to departments that protect a relatively small 
percentage of the population. Since 2002, fire departments 
protecting only 20 percent of our nation's populations have 
received a disproportionate share of AFG funding. We fully 
support ensuring that communities of every size, large and 
small, both career and volunteer departments, receive a fair 
share of AFG grants. However, the current distribution of 
funds, which protects only a small portion of the population, 
is an inefficient use of scarce federal resources.
    For a glaring example of this disparity, we only need to 
look at my old fire department, Baltimore County. There, career 
units run 70 percent of the calls but are only eligible under 
current guidelines for $1.7 million in AFG grants. The county's 
33 independent volunteer companies, which run 30 percent of the 
call volume, are collectively allowed to apply for $33 million 
in grants. Other examples abound and are enumerated in my 
written testimony.
    By all measurements, this is an uneven and ineffective 
allocation. The system should be changed. Therefore, we 
advocate revamping the program to apportion AFG into four 
separate pots of money: 30 percent allocated for all volunteer 
departments, all career, and all combination departments with 
the remaining 10 percent allocated through open competition.
    We further suggest that the funding caps be adjusted 
upwardly. Under current law, for example, the New York City 
Fire Department, which runs 357 fire companies and responds to 
nearly half a million calls for assistance per year, can only 
receive $2.75 million in AFG funding. Under our proposal, the 
smallest jurisdictions could receive up to $1 million and 
cities with over a million residents could receive up to $10 
million. So the smallest communities would still continue to 
enjoy proportionately very large awards. By increasing the size 
of awards for larger jurisdictions, AFG could finally start 
making measurable differences in a larger department's response 
capabilities.
    Lastly, we suggest lowering the match from 20 to 15 percent 
with exceptions to further reduce or eliminate the local 
portion if financial distress can be enumerated. We concur with 
the IAFC's position in that regard. These changes will improve 
AFG and ensure that federal dollars are spent in a way that 
maximizes the benefit to public safety while ensuring that 
communities of all sizes continue to benefit from the program.
    SAFER, the staffing component of AFG, also needs to be 
reformed. In its current iteration, SAFER requires an 
increasing local match over five years and caps the federal 
share at $110,000 per position. As a result, SAFER has become a 
program that only benefits a small number of growing but 
prosperous jurisdictions. To truly assist departments in 
meeting safe staffing and deployment requirements, the rules 
governing SAFER should be simplified. We advocate: one, 
establishing a flat 20 percent match to allow for better 
resource management; two, shortening the grant period from five 
to three years to allow communities to better plan 
expenditures; and three, eliminate the current cap to address 
significant differences in starting salary as has been 
testified to by Chief Johnson. Collectively, these changes will 
enable more communities to use SAFER to increase the number of 
firefighters which in turn improves local response capabilities 
and assists in meeting national consensus standards.
    In conclusion, the changes we advocate with the united fire 
service organizations will improve both AFG and SAFER to better 
fulfill their statutory obligation to improve the capabilities 
of local communities while ensuring that federal resources will 
be used more effectively to protect public safety.
    I appreciate the opportunity to testify and will be ready 
to answer questions.
    [The prepared statement of Mr. O'Connor follows:]

                Prepared Statement of Kevin B. O'Connor

    Thank you Chairman Wu, Ranking Member Smith and distinguished 
Members of the Subcommittee. My name is Kevin O'Connor and I am the 
Assistant to the General President of the International Association of 
Fire Fighters (IAFF) for Governmental Affairs and Public Policy. I 
appreciate the opportunity to appear before you today on behalf of 
General President Schaitberger and the nearly 300,000 firefighters and 
emergency medical personnel in our 3148 affiliates from every 
congressional district in the Nation.
    Mr. Chairman, I testify today not only as a representative of the 
IAFF, but as a former firefighter who fully understands the critical 
impact that the Assistance to Firefighters Grant (AFG) program has on 
the ability of local firefighters to serve their communities. I spent 
my entire adult life in the fire service, starting as a volunteer 
firefighter and serving for over fifteen years as a professional 
firefighter and emergency medical technician in the Baltimore County, 
Maryland Fire Department, where I worked as a line firefighter assigned 
to both engine and ladder companies as well the medic unit. I also 
served as the Administrative and Fire Ground Aide to the Chief of the 
Fire Department.
    Since AFG's inception, the various fire service organizations, many 
of whom are represented on this panel today, have worked together to 
improve the programs and ensure that they are administered effectively 
so that local fire departments nationwide, in communities of all sizes, 
may benefit. However, over time we have seen that the programs have not 
met their original objective. The FIRE and SAFER grant programs were 
meant to strengthen the ability of local fire departments to protect 
the public safety and respond to all hazards nationwide. While some 
communities have used FIRE and SAFER to make important enhancements in 
local fire protection, restrictions in current law prevent many 
communities from taking full advantage of the programs, undermining 
AFG's mission of enhancing the safety of firefighters and the public 
nationwide.
    Recognizing this problem, the IAFF, working with the International 
Association of Fire Chiefs, the National Fire Protection Association, 
the Congressional Fire Services Institute and other prominent 
firefighter organizations representing all facets of the fire service--
professional and volunteer, labor and management--have together 
proposed a series of amendments to FIRE and SAFER which we believe will 
address the significant impediments under the law that prevent many 
communities from taking full advantage of the programs.

The Need for FIRE and SAFER

    The modern fire service is no longer simply responsible for 
firefighting. In almost every community in America, our duties 
encompass a wide variety of emergency services including firefighting, 
advanced and basic life support emergency medical services, technical, 
high-angle and water rescue operations, terrorism and hazardous 
materials response. Additionally, today more than ever our nation's 
firefighters are on the front lines working to protect our nation's 
homeland security, whether responding to a natural disaster such as 
Hurricane Katrina, the Midwestern floods, or a terrorist attack like 
that at the Murrah Building or the World Trade Center and the Pentagon 
on 9/11. Firefighters are expected to risk, and give, our lives and we 
do so every day without hesitation. Yet, despite the ever-growing 
duties and risks facing local fire departments, firefighters are too 
often expected to perform their duties with outdated equipment, minimal 
training and insufficient personnel.
    Thus, the Assistance to Firefighters Grant program was created and 
given a unique mission: to protect the health and safety of 
firefighters and the public nationwide through the provision of federal 
funding for staffing, training, equipment and health and wellness 
programs. AFG, popularly known as the FIRE Grant program, was later 
expanded to include the Staffing for Adequate Fire and Emergency 
Response (SAFER) Grant program to provide a mechanism to fulfill the 
original goal of assuring fire departments had adequate staffing to 
operate effectively and safely.
    By utilizing a peer-review process and awarding funds directly to 
local fire departments, FIRE and SAFER grants are among the most well-
administered grants in the Federal Government. A recent Office of 
Management and Budget study recognized FIRE as among the most 
efficiently-administered grant programs.
    Although only $750 million was available to make awards in 2008, 
local communities applied for nearly four billion dollars in FIRE and 
SAFER grants. Furthermore, an assessment of the fire service's needs 
conducted by the National Fire Protection Association concluded that 
local fire departments continue to face significant equipment and 
training needs. And while SAFER grants have enabled local communities 
to hire approximately 3300 new firefighters, the U.S. Fire 
Administration has found that most fire departments are unable to 
respond to many common emergencies with existing staff, and an 
estimated two-thirds of all jurisdictions do not currently have enough 
firefighters to safely respond to emergencies.
    The FIRE and SAFER grant programs are clearly an efficient means by 
which to improve local baseline capabilities and fulfill the critical 
and ongoing unmet needs of local departments. Yet, after eight years, 
is it also clear that the funds are not being used in the most 
effective manner, and that current statutory limitations are preventing 
the program from fulfilling its mission of protecting firefighters and 
public safety.

Impediments Under Current Law

    The restrictions under current law preclude many communities, 
including many of the most needy communities in the Nation, from being 
able to take full advantage of the FIRE and SAFER grant programs. Under 
current law, the overwhelming majority of FIRE grants are awarded to 
fire departments that protect a relatively small percentage of the 
population. Since 2002, nearly seventy percent of funds have been 
awarded to rural departments, while only ten percent of funds have been 
awarded to protect metropolitan areas. Viewed another way, over two and 
half billion dollars has been awarded to protect twenty percent of the 
U.S. population, while slightly less than four-hundred million dollars 
has gone to benefit departments protecting fifty-eight percent of the 
population. By all measurements, this is an uneven and ineffective 
allocation.
    The SAFER grant program also contains a number of budgetary 
restrictions, including a high local match and the need for 
municipalities to budget five years into the future, that have 
complicated the ability of many jurisdictions to apply for and maintain 
a grant, and have prevented many jurisdictions from seeking a grant at 
all. Although the SAFER grant program is not due for reauthorization 
until 2010, we believe that the restrictions under SAFER are so 
onerous, the program is in danger of failing unless fixed now. 
Consequently, the united fire service feels that both programs should 
be re-authorized together.
    The difficulties facing communities in applying for FIRE and SAFER 
grants have only been exacerbated by the current economic crisis. 
Communities nationwide have cut their fire department budgets and 
reduce services, simultaneously making it more difficult to meet the 
programs' requirements while also making funding through FIRE and SAFER 
more important than ever.
    It is with these obstacles in mind that we present our proposals to 
the Subcommittee. We strongly believe that this package of amendments 
to the Assistance to Firefighters Grant program will help ensure that 
federal funding is spent in a way that maximizes the benefit to public 
safety and that grants are distributed more equitably among fire 
departments.

Improving the Assistance to Firefighters Grant Program

Funding Disparity
    As mentioned previously, the most significant problem facing the 
FIRE Grant program is uneven distribution of funds such that the lion's 
share of funds are awarded to departments that protect a subset of the 
population. According to the Federal Emergency Management Agency, 68.4 
percent of funds awarded under the FIRE grant program since the 
program's inception have been awarded to rural areas, while only ten 
percent have been awarded to urban areas.
    When AFG was first authorized, there was a legitimate fear that the 
funding would be monopolized by large urban departments. All 
stakeholders agreed that the AFG program should be more balanced in its 
approach to awarding grants. I am very proud that I was part of those 
original discussions to fashion a system that allowed fire departments 
of all sizes to share in the FIRE Grant program. But, in our attempt to 
assure fairness, we overcompensated and created a situation in which 
the grants are skewed disproportionately against professional and 
combination departments.
    These statistics can be viewed in the following chart:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    This disparity can be explained by two reasons. First, current law 
contains a set-aside for volunteer fire departments and majority-
volunteer departments, but contains no similar set-aside for any other 
type of department. This protection was built into the original law, 
with the support of the IAFF, to alleviate concerns that the majority 
of FIRE funds would be awarded to professional departments in urban 
areas. In part, this concern came from a fear that volunteer 
departments would not have the resources or know-how to apply for 
grants. In addition to the set-aside, FEMA has done a superb job of 
ensuring that the grant applicant process is easy, transparent, and 
accessible. FEMA has gone so far as to hold grant-writing workshops 
across the country, many of which are heavily marketed to volunteer 
departments and promoted by Members of Congress. These efforts have 
done much to enable applications by volunteer departments such that 
their ability to apply for a grant is no longer a common concern.
    The second reason for the disparity in grant awards is due to the 
differences in the way volunteer and professional fire departments are 
organized. In the career fire service, a fire department is generally a 
function of the local government, such as a city or county, and 
consists of many fire stations that protect the jurisdiction in 
question. A volunteer fire department, on the other hand, generally 
consists of a single fire station that protects a defined geographic 
area. As a result, a professional fire department will generally 
protect a much larger population and run a significant number more 
calls than would a volunteer company.
    My former fire department in Baltimore County, Maryland provides a 
good example of this dichotomy. Over a three year period, Baltimore 
County averaged approximately 120,000 to 125,000 emergency calls each 
year with the career component responding to over seventy percent of 
the calls. Of the 125,000 responses, 80,000-85,000 are run by the 
professional Baltimore County Fire Department, which consists of 
twenty-six fire stations. 32,000-33,000 of the calls are run by the 
thirty-three volunteer departments in the County. Under current law, 
the Baltimore County Fire Department is eligible for $1.75 million in 
FIRE grants. The thirty-three volunteer departments, however, are each 
considered separate eligible applicants, and are eligible to receive a 
million dollars apiece or $33 million in aggregate. In other words, the 
volunteer departments in Baltimore County are eligible to receive 
almost twenty times the amount of funding as is the professional 
department, even though they combined only run one-third as many calls 
as the professional department. This pattern is not unique to Baltimore 
County. In nearly every state, the number of volunteer fire departments 
dwarfs the number of professional departments; in almost every case, 
the professional departments run far more calls than do the volunteers.
    No one begrudges the ability of volunteer fire departments to 
receive FIRE grants. However, the current distribution of funds to 
protect only a small portion of the population is an inefficient use of 
scarce federal resources. According to the National Fire Protection 
Association, volunteer departments protected twenty-one percent of the 
population, professional departments protected forty-five percent, and 
combination departments protected thirty-three percent.
    Lest I give the wrong impression, professional fire departments do 
protect a very large number of small communities. Over half of the 
IAFF's locals consist of less than fifty people, the vast majority of 
which serve communities of under 50,000. As a matter of fact, a full 
quarter of our locals consist of less than twenty-five members. The 
IAFF is not simply an organization representing big city departments.
    Current law guarantees that rural communities and small communities 
are guaranteed a portion of FIRE grants, and we would not support any 
proposal that would eliminate that requirement.
    Likewise, volunteer departments have significant needs and should 
continue to receive a large portion of FIRE grants. Thus, to alleviate 
the disparity in FIRE grant awards and to maximize the benefit federal 
dollars can provide to public safety, we propose that professional, 
volunteer and combination departments are each guaranteed thirty 
percent of total grant funding. This provision better allocates FIRE 
grants to those departments that serve a majority of the population, 
while still ensuring that volunteer and combination departments receive 
the vast majority of FIRE grant dollars.
    We also recommend amending current law to codify FEMA's current 
requirement that priority be provided to applicants that protect large 
populations and have high call volume relative to other applicants. 
This provision is consistent with current guidance and will help ensure 
that federal dollars are used more effectively.

Funding Cap
    Current funding caps under the FIRE grant program are too low to 
prove effective. Under current law, the largest jurisdictions, those of 
one million population or more, can receive no more than $2.75 million. 
All metropolitan areas of one million or more in the United States are 
professional departments, which means that the entire City of New York, 
with hundreds of fire stations and nearly fifteen-thousand firefighters 
and emergency medical personnel, is limited to $2.75 million in FIRE 
grant awards. Simply put, $2.75 million is insufficient to measurably 
improve the fire department's preparedness and safety.
    The Chief of the Kansas City Missouri Fire Department and Past 
President of the International Association of Fire Chiefs, Smokey Dyer, 
also noted the restrictions placed on his fire department by the 
current funding cap: ``The FIRE Act is a great program, but needs to be 
re-tooled. It's just plain wrong that as Chief of the Kansas City 
Missouri Fire Department with almost 500,000 people and all the issues 
confronting a major urban city, that I can only apply for a million 
dollars in AFG grants and our neighboring town of Lee's Summit, a 
bedroom community with significantly fewer hazards and population 
(82,000) density, where I was also privileged to serve as Fire Chief, 
is also eligible for the same grant level. For Kansas City to really 
benefit from the AFG program, we need to be able to access much larger 
grants.''
    Many of the largest fire departments do apply for FIRE grants, but 
they cannot make the best use of the funds they receive because of the 
cap. For this reason, we propose increasing the funding cap for 
communities of all sizes and all types of departments, so that the 
largest communities, those of one million or more, are eligible to 
receive up to $10 million. Communities of 500,000 or more would be 
eligible for $5 million, those of 100,000 or more for $2 million, and 
those smaller than 100,000 for $1 million. Even the smallest volunteer 
departments would qualify for a grant of $1 million under our proposal.

Local Match/Maintenance of Effort
    The reduced property values, shrinking tax bases, and tighter 
budgets that have restricted the ability of many local fire departments 
to afford urgently-needed equipment and training are also preventing 
these same jurisdictions from affording FIRE's current 20 percent match 
required of metropolitan areas. To alleviate this burden, we propose 
reducing the local match from 20 percent to 15 percent.
    Additionally, while the fire service supports the principle of a 
local match, we recognize that there will be a few cases each year 
where cash strapped jurisdictions are facing critical public safety 
needs but are unable to afford this reduced match. To this end, we 
propose providing the Department of Homeland Security with the 
authority to waive the local match requirements for particularly needy 
departments.
    For the same reason that many communities are unable to afford the 
current local match, many communities, especially in the years to come, 
will prove ineligible to receive a FIRE grant because they do not meet 
the maintenance of effort requirement under current law. This provision 
requires that grantees maintain their fire department budget at one-
hundred percent of the average budget over the previous two years. As 
fire departments in communities of all sizes must make due with less, 
due to the current recession, this provision will significantly shrink 
the pool of eligible applicants unless addressed. Reducing the current 
maintenance of effort requirement to eighty percent will help assure 
that communities will be able to apply for FIRE grants in the coming 
years, while still requiring that they fund their departments as 
robustly as possible.

Improving the Staffing for Adequate Fire and Emergency Response Grant 
                    Program

    Although the FIRE grant program faces significant serious 
shortcomings, the situation facing the SAFER grant program is 
particularly dire. The hiring portion of the SAFER grant program 
contains numerous budgetary restrictions by which municipalities must 
abide if they wish to receive, and keep, a SAFER grant:

        <bullet>  Municipalities must supply an increasing local share 
        of the firefighter's salary over four years and provide 100 
        percent of the firefighter's salary in the fifth year.

        <bullet>  Municipalities must retain firefighters hired with 
        SAFER funds for at least five years.

        <bullet>  Municipalities may not use SAFER funds to supplant 
        State or local funds.

    If a municipality fails to meet these requirements, it must return 
the grant to the Federal Government. Unfortunately, this is happening 
in greater and greater numbers. According to the Department of Homeland 
Security, since SAFER's inception four years ago, seventy-eight 
grantees have had to repay the Federal Government a total of $62.7 
million because they failed to meet the rigorous requirements. An 
additional seventy-one grants totaling $51.4 million were declined by 
municipalities that felt they could not meet the program's obligations.
    In North Aurora, Illinois, for example, the North Aurora Fire 
Protection District was forced to turn down a $650,000 SAFER grant it 
received, citing the sliding match and the maintenance of position 
requirement as commitments they could no longer keep. The grant was 
originally intended to add six additional firefighters to the 
District's roster.
    SAFER's restrictions have proven to be extremely difficult for many 
municipalities to abide by, and have only been exacerbated by the 
economic crisis. Although Congress enacted temporary measures to waive 
SAFER's local match and provide the Secretary of Homeland Security the 
authority to waive some of SAFER's other restrictions for 2009 and 
2010, without a permanent change in law the SAFER Grant program will be 
left unable to fulfill its mission of helping local communities meet 
safe firefighter staffing levels.
    The most significant issue facing SAFER is the simple inability of 
municipalities to accurately budget five years into the future. Current 
law requires that communities increase their local match over four 
years and pay 100 percent of a firefighter's salary in the fifth year, 
and many communities are finding that they cannot meet their 
commitments in the third, fourth, and fifth years of the grant cycle. 
Furthermore, current law requires that a department maintain its 
staffing levels throughout the five year grant cycle. The simple fact 
of the matter is that five years ago, the very notion that communities 
today would have to cut fire department budgets and lay off 
firefighters was unthinkable. No one could have predicted the depths of 
this recession, and likewise, few communities have sufficient resources 
to handle unanticipated expenses and dramatically lower than expected 
revenues.
    In further illustration of this point, the Washington Fire Chiefs 
recently conducted a survey of their members to determine whether the 
sliding local match required under SAFER precluded fire departments 
from applying for a grant, or accepting a grant for which they had 
previously applied. Twenty-one percent of the departments responded 
that, although they had received a SAFER grant, they were unable to 
meet the local match. Additionally, sixty-one percent of departments 
replied that the local match requirement precluded them from applying 
for a SAFER grant at all.
    In essence, the current budgetary requirements under SAFER limit 
federal awards to only well-off communities. Clearly, this was never 
Congress's intent.
    We think the best way to address these issues is to simplify the 
entire grant process. The joint fire service proposal calls for an 
across-the-board twenty-percent match, rather than the sliding scale 
under current law, and shortening the length of the grant period from 
five years to three. These changes will make it easier for 
municipalities to commit to a SAFER grant and prevent many unseen 
circumstances from necessitating a grant's return to the Federal 
Government.
    SAFER law should also be amended to eliminate the current funding 
cap. Under current law, departments are granted up to $100,000 per 
firefighter over four years to fund the cost of the firefighter's 
salary and benefits. The average first-year firefighter salary is 
currently $37,429. Thus, in many jurisdictions, the $100,000 only meets 
the federal commitment for the first years of the grant, leaving the 
local department to bear more than the local match in the third and 
fourth years. This is especially true in urban areas and on the West 
Coast. In Portland, Oregon, for example, a first year firefighter's 
salary is $52,538, well over the national average.
    By eliminating the funding cap, more communities will be able to 
take advantage of SAFER grants without regard to subsidizing any unmet 
federal share.
    Lastly, we propose that the waiver authorities granted to the 
Secretary of Homeland Security just last month on a temporary basis be 
made permanent. Specifically, the Secretary should be granted the 
authority to permit grants be used to avoid or reverse firefighter 
layoffs, waive the local match, maintenance of position requirement and 
maintenance of budget requirement. We anticipate that such waivers will 
be an uncommon occurrence, but will provide the Department with the 
flexibility to help fire departments that have particularly great need 
and are at particularly great risk.

Conclusion

    On behalf of the International Association of Fire Fighters, I 
appreciate the opportunity to share with you our views on how to best 
improve the Assistance to Firefighters grant program. Having been 
intimately involved in the creation and administration of the FIRE and 
SAFER grant programs, it is clear to the IAFF that current law 
undermines the programs' mission to enhance the safety of firefighters 
and the public nationwide. The changes we have produced with the united 
fire service organizations and have outlined here today will help 
fulfill the programs' intent and allow the Federal Government to better 
play a key role in protecting the public safety.
    To the extent that the IAFF can assist the Subcommittee in 
achieving this vision, I am happy to offer our expertise and pledge to 
work closely with you and your staffs.
    Again, I'd like to thank the Subcommittee for the opportunity to 
testify today and am happy to answer any questions you may have.

                    Biography for Kevin B. O'Connor

    Mr. O'Connor currently serves as Assistant to the General President 
of the International Association of Fire Fighters, representing 295,000 
professional firefighters and emergency medical personnel in every 
state in the United States and Canada.
    He also serves as Chairman of the Congressional Fire Service 
Institute Advisory Board and previously served as a Commissioner on the 
Maryland Fire, Rescue, Education and Training Commission, where he was 
responsible for recommending training and operational standards for the 
7,000 professional and 35,000 volunteer fire, rescue and emergency 
medical personnel in the State of Maryland.
    From 1985 to 2000, Kevin served as a professional firefighter and 
emergency medical technician for the Baltimore County Fire Department 
in Baltimore County, Maryland, where he had previously served as a 
volunteer firefighter.

    Mr. Lujan. Thank you very much, Mr. O'Connor.
    Chief Varone.

 STATEMENT OF CHIEF CURT VARONE, DIVISION MANAGER, PUBLIC FIRE 
   PROTECTION DIVISION, NATIONAL FIRE PROTECTION ASSOCIATION 
                             (NFPA)

    Chief Varone. Good morning. I am Curt Varone, Division 
Manager, Public Fire Protection for the National Fire 
Protection Association. Mr. Chairman, Subcommittee Members, 
NFPA strongly supports reauthorization of the U.S. FIRE grant 
programs, both AFG and SAFER, and appreciates the opportunity 
to speak about these programs. For my allotted time, I want to 
focus on three areas: research we have done to analyze the 
needs of our nation's fire service and the impact these 
programs have had on alleviating those needs; some thoughts on 
enhancements that can be considered during reauthorization; and 
lastly, NFPA's position on the most effective ways to continue 
to reduce fires and fire fatalities and firefighter fatalities.
    By way of background, NFPA is the principal source for 
voluntary consensus codes and standards related to fire safety 
in the fire service. Our standards utilize a true consensus 
approach to address a broad range of topics such as 
professional qualifications and performance testing, 
maintenance and operational procedures for protective and 
firefighting equipment. Many NFPA codes and standards appear as 
mandatory references cited throughout federal agency 
regulations including DHS, DOT (Department of Transportation), 
CMS (Centers for Medicare and Medicaid Services), EPA 
(Environmental Protection Agency) and OSHA (Occupational Safety 
and Health Administration). NFPA is also a recognized authority 
on fire analysis and research. In 2001 and 2005, working with 
the U.S. Fire Administration, NFPA conducted two national 
surveys of the needs of U.S. municipal fire departments. In 
both surveys, needs were defined as the comparison of 
department resources to resources required for compliance with 
applicable national standards and guidelines. As part of the 
second needs assessment, NFPA examined the degree of match 
between the type of resource for which a grant was awarded and 
the department's reported need for that type of resource. NFPA 
also examined the changes in the levels of need for the most 
commonly requested types of resources. Our analysis concluded 
that the grant program was well designed, well executed and 
well targeted and has made a difference in the needs it was 
intended to address. However, the difference has been limited 
simply because the needs of our nation's first responders are 
great.
    Despite this, some notable changes stand out. The 
percentage of departments with enough self-contained breathing 
apparatus to equip all emergency responders on a shift 
increased by 10 percentage points from 30 percent to 40 
percent. The percentage of departments with enough personal 
alert safety system devices to equip all emergency responders 
on a shift increased 14 percent from 38 to 52 percent. Personal 
protective equipment accounted for the largest share of grant 
funds awarded for departments in the years analyzed.
    The NFPA matching analysis, part of our second needs 
assessment, shows a positive correlation between the express 
needs and the impact of the AFG program in targeting that need. 
NFPA believes that there are ample data to support the 
successful initiation by both programs of vital changes 
necessary to protect the health and safety of the public and 
firefighting personnel against fire and fire-related hazards. 
The AFG program is a good beginning and SAFER is an even more 
recent good beginning. We have a long way to go to close our 
national gap in staffing and we need to continue to support 
SAFER for several years in order to ensure that it fulfills its 
objectives of helping fire departments meet safe staffing 
levels to provide protection from fire as well as emergency 
response to many other types of hazards identified by DHS. 
These programs can be strengthened. In the reauthorization, 
NFPA believes it would be appropriate to eliminate the cost 
share in fire prevention and firefighter safety grants as was 
the original intent of the program, or to allow a waiver or 
reduction of the match requirement for applicants facing a 
demonstrated economic hardship. Data show that roughly three 
out of every five emergency responses by U.S. fire departments 
are medical emergency calls. Therefore, the NFPA recommends 
that a minimum of five percent of funding be designated for 
fire service-based emergency medical services. Finally, NFPA 
believes that funds for training and equipment should be 
utilized to meet the latest applicable national voluntary 
consensus standards.
    In order to facilitate fire prevention and fire control 
activities, the USFA could identify specific safety strategies 
they wish to give priority to in the calls for a proposal, 
specify fire and life safety education programs in the listed 
grant fund purposes and/or require all AFG grants to include an 
aligned fire prevention or mitigation project. The USFA could 
also direct some funds to building the fire prevention 
personnel and organizational infrastructure in local fire 
departments. An NFPA research project on fire code 
effectiveness measurement showed several examples of how lack 
of funding and other limitations are forcing communities to 
leave most inspectable commercial properties uninspected.
    Lastly, the way to decrease the number of fires and fire-
related fatalities, particularly in vulnerable populations, is 
through a combination of education, teaching individuals how 
they can be safer from fire, engineering utilizing the latest 
technologies to prevent, mitigate, detect and suppress fire, 
and enforcement, ensuring that the latest codes and standards 
are being followed. To do this, we need to adequately staff, 
train and equip local fire services.
    Today we ask our fire service to do a lot more than fight 
fires. We ask them to be the first line of defense in a full 
range of ordinary and extraordinary situations. As we place 
more demands on them, we must be willing to provide them with 
the resources to do the job. We know from our analysis that the 
fire service is woefully underfunded. The FIRE grant programs 
are working. They are moving the fire service in the right 
direction and must continue. It is essential that the FIRE 
grant programs be reauthorized. Thank you.
    [The prepared statement of Chief Varone follows:]

                Prepared Statement of Chief Curt Varone

    Good morning. I am Curt Varone, Division Manager, Public Fire 
Protection, for the National Fire Protection Association. Mr. Chairman, 
Subcommittee Members, NFPA strongly supports the reauthorization of the 
U.S. FIRE Grant Programs the Assistance to Firefighter Grant (AFG) and 
Staffing for Adequate Fire and Emergency Response (SAFER) and 
appreciates the opportunity to speak about these programs.
    For my allotted time I want to focus on three areas--research we 
have done to analyze the needs of our nation's fire service and the 
impact these programs have had on alleviating the needs, some thoughts 
on enhancements that can be considered during reauthorization and 
lastly NFPA's position on the most effective ways to continue to reduce 
fires and fire fatalities.
    By way of background, NFPA is the principal source for voluntary 
consensus codes and standards related to fire safety and the fire 
service. Our standards use a ``true consensus'' approach, to address a 
broad range of topics such as professional qualifications; performance, 
testing, maintenance, and operation standards for protective and 
firefighting equipment.
    Many NFPA codes and standards appear as mandatory references cited 
throughout federal agency regulations, including DHS, DOT, CMS, EPA and 
OSHA.
    NFPA is also a recognized authority on fire analysis and research.
    In 2001 and 2005, working with the U.S. Fire Administration, NFPA 
conducted two national surveys of the needs of U.S. municipal fire 
departments. In both surveys, ``needs'' were defined as the comparison 
of department resources to resources required for compliance with 
applicable national standards and guidelines.
    As part of the second needs assessment, NFPA examined the degree of 
match between the type of resource for which a grant was awarded and 
the department's reported need for that type of resource. NFPA also 
examined the changes in levels of need for the most commonly requested 
types of resources.
    Our analysis concluded that the grant program was well-designed, 
well-executed and well-targeted and has made a difference in the needs 
it was intended to address. However, the difference has been limited 
simply because the needs of our nation's first responders are great. 
Despite this, some notable changes stand out:

    The percentage of departments with enough self-contained breathing 
apparatus (SCBA) to equip all emergency responders on a shift increased 
by 10 percentage points, from 30 percent to 40 percent of departments. 
The percentage of departments with enough personal alert safety system 
(PASS) devices to equip all emergency responders on a shift increased 
by 14 percentage points, from 38 percent to 52 percent. Personal 
protective equipment accounted for the largest share (39 percent) of 
grant funds awarded for the departments and years analyzed.
    The NFPA matching analysis, part of our second needs assessment, 
shows a positive correlation between the expressed need and impact of 
the AFG program in targeting that need.
    NFPA believes that there are ample data to support the successful 
initiation by both programs of vital changes necessary to successfully 
protect the health and safety of the public and firefighting personnel 
against fire and fire-related hazards. The AFG program is a good 
beginning and SAFER is an even more recent good beginning. We have a 
long way to go to close our national gap in staffing and we need to 
continue supporting SAFER for several years in order to ensure that it 
fulfills its objective of helping fire departments meet safe staffing 
levels to provide protection from fire as well as emergency response to 
many other hazards identified by DHS.
    These programs can be strengthened. In the reauthorization, NFPA 
believes that it would be appropriate to eliminate the cost share in 
the Fire Prevention and Firefighter Safety Grant as was the original 
intent of the program or to allow a waiver or reduction of the match 
requirement for applicants facing a demonstrated economic hardship.
    Data show that roughly three out of every five emergency responses 
by U.S. fire departments are medical emergency calls; therefore, NFPA 
recommends that a minimum of five percent of funding be designated for 
fire service-based emergency medical services (EMS). Finally, NFPA 
believes that funds for training and equipment should be utilized to 
meet the latest applicable national voluntary consensus standards 
available at the time of application.
    In order to facilitate fire prevention and control activities, the 
USFA could identify specific safety strategies they wish to give 
priorities in the call for proposals, specify fire and life safety 
education programs in the listed grant fund purposes and/or require all 
AFG grants to include an aligned fire prevention or mitigation project. 
The USFA could also direct some funds to building the prevention 
personnel and organizational infrastructure in local fire departments. 
An NFPA research project on fire code effectiveness measurement showed 
several examples of how lack of funding and other limitations are 
forcing communities to leave most inspectable commercial properties 
uninspected.
    Lastly, the way to decrease the number of fires and fire related 
fatalities, particularly in vulnerable populations, is through a 
combination of education--teaching individuals how they can be safer 
from fire; engineering--utilizing the latest technologies to prevent, 
mitigate, detect and suppress fire; and enforcement--ensuring that the 
latest codes and standards are being followed. To do this, we need to 
adequately staff, train and equip the local fire services.
    Today, we ask our fire service to do a lot more than fight fires. 
We ask them to be the first line of defense in the full range of 
ordinary and extraordinary situations. As we place more demands on 
them, we must be willing to provide them with the resources to do the 
job. We know from our analysis that the fire service is woefully 
underfunded. The Fire Grant programs are working, are moving the fire 
service in the right direction and must continue. It is essential the 
FIRE grant programs be reauthorized.
    Thank you.

                    Biography for Chief Curt Varone

    Curt Varone is a Division Manager and Director of the Public Fire 
Protection Division at the National Fire Protection Association. He has 
over 37 years of experience in the fire service, retiring in 2008 as a 
Deputy Assistant Chief (shift-commander) with the Providence, Rhode 
Island, Fire Department, after twenty-nine years of service. He is also 
a practicing attorney licensed in both Rhode Island and Maine.
    Curt joined the fire service in 1972 as a volunteer firefighter in 
North Providence. As the department transitioned from a volunteer to a 
combination department, Curt served as a call firefighter, being 
promoted to lieutenant in 1977. 1979 he was hired as a full-time 
firefighter by the Providence Fire Department, where he rose steadily 
through the ranks. He has served with both Massachusetts Urban Search 
and Rescue Task Force MATF01 and Rhode Island Urban Search and Rescue 
Task Force RITF01. Curt was one of the principal organizers of RITF01, 
and served as task force leader. In 2005 he led the team on a 
deployment to Hancock County, Mississippi in the aftermath of Hurricane 
Katrina.
    Curt has two Bachelor degrees from Providence College, the first in 
biology (1978), and the second in fire safety (1982) summa cum laude. 
He is a cum laude graduate of Suffolk University Law School, Class of 
1985. Since graduating from law school, he has engaged in the general 
practice of law with a concentration in fire service issues.
    In 1997, Curt completed the Executive Fire Officer Program at the 
National Fire Academy, becoming the first person ever to receive four 
Outstanding Applied Research Awards. In 1998 he was awarded an 
Executive Fire Officer Fellowship to study Advanced Issues in State and 
Local Government at Harvard University's John F. Kennedy School of 
Government. He presently teaches in the Executive Development program 
at the National Fire Academy.
    He also teaches courses in Fire Tactics, Fire Protection, Fire 
Service Law, and Firefighter Occupational Safety & Health in the fire 
science program at Providence College, is an instructor-coordinator for 
the Rhode Island Fire Academy, and teaches NIMS ICS for Rhode Island 
Emergency Management Agency.
    Curt has written two books, Legal Considerations for Fire and 
Emergency Services, and Fire Officer's Legal Handbook, and writes the 
Fire Law column for Firehouse Magazine. He continues to serve as a 
volunteer firefighter in Exeter, Rhode Island.

    Mr. Lujan. Mr. Carlin.

 STATEMENT OF MR. ED CARLIN, TRAINING OFFICER, SPALDING RURAL 
         VOLUNTEER FIRE DEPARTMENT, SPALDING, NEBRASKA

    Mr. Carlin. Chairman Lujan, Ranking Member Smith and 
Members of the Committee, thank you for giving me the 
opportunity to appear before you today to provide testimony in 
regards to the AFG program. My name is Ed Carlin. I live in the 
small town of Spalding and belong to the Spalding Volunteer 
Fire Department, a department made up of 35 volunteers. I also 
help serve my community as an elected official on the city 
council. In addition, I am a career firefighter currently 
serving as captain on the Grand Island Fire Department. Our 
fire department functions with 68 members operating out of four 
stations. We provide emergency services such as fire, EMS, 
rescue, hazardous-material response, airport response and 
technical rescue response such as trench and high-angle rescue. 
While off duty, I teach both fire and EMS education to 
departments in Nebraska. As a career firefighter, a volunteer 
firefighter, and a fire and EMS instructor, I have been able to 
see the benefits of the AFG program and some of the shortfalls 
of the grant as I travel throughout the state. I was asked to 
come before you and give an oral testimony to what I have seen 
and experienced on a local and community level where I am 
involved.
    Funding for career and volunteer fire departments was 
almost impossible to obtain until the AFG program was 
established. A lot of the departments are in areas classified 
as low-income areas. Although these designations offered relief 
to citizens in the area, it did nothing to help the fire 
departments. With poor economies not just locally but across 
the Nation along with their low-income classification, funding 
for equipment and staffing was becoming impossible to secure. 
The community where I reside, Spalding, Nebraska, had this 
problem until awarded an AFG grant in 2008. The community only 
had one fire apparatus, a 1948 pumper that could not hold water 
due to a rusted tank. This tank could not be fixed or relined 
due to the structural integrity of the tank. When a fire broke 
out, they would have to park this pumper next to a hydrant and 
deploy a portable tank so they could pump out of it until 
mutual aid arrived from the rural fire district. Valuable time 
was lost setting up this tank, allowing a fire to further 
destroy property and eliminating the window of opportunity for 
a rescue. Our ability to protect the two things a firefighter 
is sworn to protect, life and property, was jeopardized in our 
community. When Spalding applied for a grant, they opted for a 
mini pumper for several reasons. The smaller size allowed it to 
fit in the current building and allowed for a quicker response. 
Once the five percent matching funds was obtained, the grant 
was submitted, and as stated earlier, we received this grant. 
The new mini pumper will now allow the village to respond with 
a reliable pumper to help mitigate emergencies in our area.
    Obtaining equipment to protect our firefighters and 
allowing them to conduct their mission in a safe, efficient 
manner would be next to impossible without the AFG grant. I 
believe this program is on the right track of fulfilling its 
objective of protecting the public and firefighters from the 
hazards of fire. I do know that we have a long way to go to 
meet these objectives. It is still hard for some departments to 
come up with their matching portion of the grant, which 
ultimately keeps them from applying. I know of a few 
departments who are not applying this year because they will 
not be able to meet the required match for the grant.
    In the profession of firefighting, it is often said that 
all firefighters are professional and held liable for their 
duties whether they are from a career or volunteer fire 
department. In the 2009 AFG grant, new priorities were outlined 
giving higher levels of consideration to departments that 
protect a larger population and have a higher call volume. This 
is a highly competitive grant and this provision alone could 
possibly eliminate several rural area grants from advancing to 
the next round of peer review. I understand the higher call 
volume will show a greater cost benefit of the award but the 
grant should not discriminate on the basis of the population 
served by a certain fire department. A life is a life and death 
does not discriminate by population. Possibly, they should give 
a higher consideration to departments by the square miles they 
protect as well since most rural areas have huge coverage 
areas.
    I recently instructed a rural department which I could not 
allow to participate in any live fire exercises because their 
bunker gear did not meet the required standards. They were not 
able to complete some of the realistic training that I feel is 
critical for firefighters to experience and learn from. If this 
department was dispatched to a fire call today and had a rescue 
situation in front of them, I can almost guarantee that not one 
firefighter would hesitate to attempt a rescue. Not one would 
say I cannot go in because Instructor Carlin told me my gear is 
not compliant with the NFPA standards. It is what they are 
trained to do, whether we like it or not. They are going to do 
their job and attempt to save the life. Fortunately, an AFG 
grant was awarded to them and they are in the process of 
acquiring new gear to protect their firefighters.
    It is stated in the program guidance for the 2009 AFG that 
our primary goal is to help fire departments and non-affiliated 
EMS organizations meet their firefighting and emergency 
response needs. Based off this, I do not believe the intent of 
the grant program was for it to become biased toward the 
population of a given area whether large or small. I feel the 
AFG is not a complex grant to apply for but many departments 
use grant writers to write their grants. There is nothing wrong 
with using a grant writer to provide an edge by using 
experience and expertise in the field. There are still 
thousands of departments out there that cannot afford to use a 
grant writer and will continue to submit their own grants due 
to the lack of funds. Funding for the AFG is right on track. 
The money goes straight to the fire department and 100 percent 
of it can be used at their request.
    The SAFER program has also been a huge benefit to fire 
departments across the Nation in this time of economic crisis. 
Fire departments nationwide are being forced to freeze hiring 
and lay off firefighters. Unlike factories, manufacturing 
plants and other businesses that can slow production or reduce 
production to coincide with their layoffs, we cannot. There is 
no control over fires, accidents, injuries and other emergency 
calls, and our call volumes will not decline. Fire scenes are 
demanding and often require continuous aggressive actions to 
stop the fire. Waging this war in dangerous environments close 
to a point of exhaustion, firefighters work as they await other 
units to arrive and relieve them so they can rehabilitate and 
return to the battle. At these scenes, manpower is often the 
primary resource, and without it, firefighters will be forced 
to operate in multiple roles, putting them in dangerous 
situations without the help they need.
    In closing, as these cuts to fire departments are made, I 
would not expect the number of injuries and fatalities to 
firefighters on fire and emergency scenes to decline, but 
possibly increase instead. It was evident early on that the 
SAFER grant was needed to adequately staff the fire 
departments' manning to a level where they could safely 
respond. SAFER funding needs to remain at a higher level at 
$420 million but taking money from the AFG program and adding 
it to the SAFER program is not the solution. With 21,000 
departments applying for $3.2 billion in the AFG, it is evident 
that there is still a need for the AFG to be fully funded.
    Thank you, and I will be happy to answer questions you may 
have.
    [The prepared statement of Mr. Carlin follows:]

                    Prepared Statement of Ed Carlin

    Chairman Wu, Ranking Member Smith, and Members of the Committee, 
thank you for giving me the opportunity to appear before you today to 
provide testimony in regards to the AFG program. My name is Ed Carlin. 
I live in the small town of Spalding located 60 miles away and belong 
to the Spalding Volunteer Fire Department, a department made up of 35 
volunteers. I also help serve my community as an elected official on 
the city council. In addition, I am also a career FF currently serving 
as Captain on the Grand Island Fire Department. Our fire department 
functions with 68 members operating out of four stations. We provide 
emergency services such as fire, EMS, rescue, hazardous material 
response, airport response and technical rescue such as trench and high 
angle rescue.
    While off duty, I teach both fire and EMS education to departments 
in Nebraska. As a career firefighter, a volunteer firefighter and a 
fire and EMS instructor I have been able to see the benefits of the AFG 
and some of the short falls of the grant as I traveled throughout the 
state. I was asked to come before you and give an oral testimony to 
what I have seen and experienced on a local and community level, where 
I am involved.
    Funding for career and volunteer departments was almost impossible 
to obtain until the AFG was established. A lot of the departments are 
in areas classified as low income areas. Although these designations 
offered relief to citizens in the area, it did nothing to help the fire 
departments. With poor economies not just locally but across the 
Nation--along with many areas being classified as low income--funding 
for equipment and staffing was becoming impossible to secure.
    The community where I reside--Spalding, Nebraska--had this problem 
until awarded an AFG grant in 2008. The community had only one fire 
apparatus, a 1948 pumper that could not hold water due to a rusted 
tank. This tank could not be fixed or relined due to the structural 
integrity of the tank. When a structure fire broke out they would have 
to park this pumper next to a hydrant and deploy a portable tank so 
they could pump out of it until mutual aid arrived from the Rural Fire 
District. Valuable time was lost setting up this tank, allowing a fire 
to further destroy the property and eliminating the window of 
opportunity for a rescue.
    Our ability to protect the two things a firefighter is sworn to 
protect, life and property, was jeopardized in our community When 
Spalding applied for a grant they opted for the Mini pumper for several 
reasons. The smaller size allowed it to fit in the current building our 
pumper was housed in and allowed for a quicker response. Once the five 
percent in matching funds was obtained, the grant was submitted and as 
stated earlier we received the grant. This new mini-pumper now allows 
the village to respond with a reliable pumper to help mitigate 
emergencies in our area.
    Obtaining equipment to protect our firefighters and allow them to 
conduct their missions in a safe, efficient manner would be next to 
impossible without AFG program. I believe this program is on the right 
track of fulfilling its objective of protecting the public and 
firefighters from the hazards of fire. I do know that we have a long 
way to go to meet these objectives. It is still hard for some 
departments to come up with their matching portion of the grant, which 
ultimately keeps them from applying. I know of a few departments who 
are not applying this year because they will not be able to meet the 
required match for the grant. As easy as it sounds to obtain five to 
ten percent in matching funds, it is still very hard to do for some 
departments that have small budgets with no leeway.

Grant Review Criteria

    In the profession of fire fighting it is often said that all 
firefighters are professionals and are held liable for their duties 
whether they are from a career or volunteer department. In the 2009 AFG 
grant, new priorities were outlined giving higher level of 
consideration to departments that protect a larger population and have 
a higher call volume. This is a highly competitive grant and this 
provision alone could possibly eliminate several rural area grants from 
advancing to the next round of ``peer review,'' where the grants are 
actually read and discussed. I understand the higher call volume will 
show a greater benefit of the award, but the grant should not 
discriminate on the basis of the population served by a certain fire 
department. A life is a life and death does not discriminate by 
population. Possibly, DHS should give higher consideration to 
departments by the square miles they protect as well since most rural 
areas have huge coverage areas.
    I recently instructed a rural department which I could not allow to 
participate in any live fire exercises because their bunker gear did 
not meet the required standards. They were not able to complete some of 
the realistic training that I feel is critical for firefighters to 
experience and learn from. If this department was dispatched to a fire 
call today and had a rescue situation in front of them I can almost 
guarantee that not one firefighter would hesitate to attempt the 
rescue. Not one would say ``I cannot go in because Instructor Carlin 
told me my gear is not compliant with NFPA standards.'' It is what they 
are trained to do and whether we like it or not they are going to do 
their job and attempt to save a life. Fortunately, an AFG grant was 
awarded to them and the department is in the process of acquiring new 
gear to protect their firefighters. This is just another example of why 
we need to make sure this grant remains a grant to help firefighters 
and fire departments equally across the Nation based on their needs.
    It is stated in the Program Guidance for the 2009 AFG that ``Our 
primary goal is to help fire departments and nonaffiliated EMS 
organizations meet their firefighting and emergency response needs. AFG 
seeks to support organizations that lack the tools and resources 
necessary to more effectively protect the health and safety of the 
public and their emergency response personnel with respect to fire and 
all other hazards.'' Based off this I do not believe the intent of the 
grant program was for it to become biased toward the population of a 
given area.
    I feel the AFG is not a complex grant to apply for but, due to the 
urgent need and competiveness, many departments use grant writers to 
write their grants. There is nothing wrong with using a grant writer. 
It can provide an edge by using experience and expertise in the field 
to demonstrate needs, further increasing the chance of an award.
    There are still thousands of departments that could not afford a 
grant writer to and will continue to submit their own grants due to the 
lack of funding.
    Funding from the AFG is right on track. The money goes straight to 
the fire department and 100 percent of it can be used for their 
request. Whether they are a small or large fire department, this grant 
is needed by all departments across the Nation to upgrade their 
equipment so we can continue to provide our services to the public.

SAFER

    The SAFER program has also been a huge benefit to fire departments 
across the Nation in this time of economic crises. Fire departments 
nationwide are being forced to freeze hiring and lay off firefighters. 
Unlike factories, manufacturing plants and other businesses that can 
slow production or reduce their production to coincide with their 
layoffs, we cannot. There is no control over fires, accidents, injuries 
and other emergency calls and our call volumes will not decline. 
Departments nationwide will continue to respond to their call volume 
understaffed and it will be the public who will suffer by waiting 
longer for a rescue unit or engine company to arrive.
    Fire scenes are demanding and often require continuous aggressive 
actions to stop the fire. Waging this war in dangerous environments 
close to a point of exhaustion, firefighters work as they await other 
units to arrive and relieve them so they can rehabilitate and return to 
the battle. At these scenes manpower is often the primary resource and 
without it firefighters will be forced to operate in multiple roles, 
putting them in dangerous situations without the help they need.
    As these cuts to fire departments are made I would not expect the 
number of injuries and fatalities to firefighters on fire and emergency 
scenes to decline, but possibly increase instead. It was evident early 
on the SAFER grant was needed to adequately staff the fire departments 
manning to a level where they could safely respond. SAFER funding needs 
to remain at the $420 million, but taking money from the AFG program 
and adding it to the SAFER program is not the solution. With 21,000 
departments applying for $3.2 billion dollars in the AFG it is evident 
that there is still a need for the AFG to be fully funded.
    Thank you and I will be happy to answer any questions you may have.

                        Biography for Ed Carlin

    Ed Carlin has been a career firefighter with the Grand Island Fire 
Department for 13 years serving initially as a FF/Paramedic and now as 
a Captain. Some of training received by the Grand Island Fire 
Department includes FFI, rescue technician, Haz-mat technician, Officer 
I and II and many other Fire and EMS courses.
    He also belongs to the Spalding Volunteer Fire Department in the 
community of Spalding where he resides and serves on the city council 
as well. In his off-duty time he enjoys teaching Fire and EMS classes 
across the State of Nebraska.
    Ed is married to Wendy, who works as a dental hygienist, and has 
three kids, Will, Sarah and Nick.

                               Discussion

    Mr. Lujan. Thank you, Mr. Carlin, and at this point we will 
open our first round of questions. The Chair recognizes himself 
for five minutes.
    I want to thank each of you for sharing your testimony 
today. My district in New Mexico is a rural district, for the 
most part. My familiarity with the important responsibilities 
that our fire service has across New Mexico is one that I had 
serving in my previous capacity. We were a regulatory 
commission that was structured in such a way that our fire 
marshal for the State of New Mexico and our State fire academy 
were under our jurisdiction, and we worked closely with them in 
the State of New Mexico to create opportunities to be able to 
take advantage of a fire fund that was put in place at the 
State level but that was not being fully allocated to our 
firefighters across New Mexico and our fire districts, 
recognizing the importance of being able to get them the 
support that they need. But the emphasis in our state was to 
look at those ISOs that were in trouble, those fire districts 
that didn't have the tax base or the ability to get their 
resources and so we put together the FIRE grant fund to be able 
to emphasize the fact that we could grow those fire departments 
that were weaker, and as we strengthened them, the state as a 
whole would be in a better position to be able to protect our 
citizens, to be able to respond to different areas. I have 
counties where we don't have many people that reside in them. 
Mr. Manning is familiar with those. I was in many of them just 
last week. And it is important that we are also able to provide 
them support. And so with that being said, with some of the 
suggestions that we are hearing today, how will we make sure 
that we are able to still fully support the fire needs of all 
parts of the country as we are looking to make sure we are 
maximizing the investments that can be made? And I would open 
that up to any one of you.
    Mr. O'Connor. I will take a crack at it, Mr. Chairman, 
Kevin O'Connor again from the IAFF. I think that everybody at 
this table is committed and recognizes that there is not an 
unlimited pool of federal resources. There is no way that the 
Federal Government can properly resource all local fire 
departments. So with the limited pot of money that we have--and 
some of the observations here I completely concur with--we have 
to make sure that we spent it efficiently. I think that when 
you look at the data over eight years, clearly it has helped 
departments of all sizes, and we recognize that and we think 
that that should continue. But I think in an objective 
analysis, as the stewards of the public dollar, we have an 
obligation to make sure that it is spent efficiently. That 
doesn't mean that population needs to be the only requisite, 
which is one of the reasons why in adopting the proposal 30/30/
30, you essentially are comparing apples to apples.
    For our organization, a lot of people are under the 
misconception that we only represent large jurisdictions. We 
have 3,100 chapters across the country. We call them the 
locals. Over half of them have under 50 people and 20 percent 
have under 15 members, so some of the same problems that local 
volunteer companies are facing, in terms of grant writing, we 
have. We have small departments that don't have those 
capabilities. But by our measure, if you can group the money 
proportionately, all the professional departments--in some of 
the areas in Mr. Smith's district, we have locals with eight 
people--they will be competing for the professional pot against 
New York City. So it is not done as large versus small, it is 
trying to compare apples to apples and make sure that there is 
a reasonable allocation of dollars, and we just think that on 
the front end of this, and I was privileged to be part of that 
process, we were very cognizant of the legitimate concerns of 
smaller departments and in crafting the statutory requirements 
of the 45 percent, we took that in consideration. But as time 
has evolved, we have seen just the opposite has been the case, 
and this is just an attempt to rectify while ensuring fairness 
and equity to everybody.
    Chief Carriger. Mr. Chairman, I agree with some of the 
statements that Mr. O'Connor and that Mr. Carlin made. I think 
it is extremely important that this program be reauthorized but 
I believe that we need to look at the fact that there are two 
different issues involved in this program with AFG and with 
SAFER, and I believe that neither issue is satisfied by robbing 
one's resources and giving them to the other. They need to both 
be fully funded at the authorized amounts that have been 
recognized in the past, and as we continue to grow and as the 
system builds for this program, it gets better, and we are 
constantly looking at ways to recognize how to apply the matrix 
system for the application process in a more fair way, and I 
would have to compliment the staff for their constant vigil on 
recognizing that there is always a better way. Even though this 
program has been very, very effective and I have been very 
proud to be a part of it, we are constantly looking for ways to 
make it better, and I think that through this process, that 
will happen, but that will only happen if both of these 
programs are funded to their maximum authorized levels, and 
that is what is going to result in providing our country with 
the first-response capabilities that this committee is looking 
for as a result.
    Mr. Lujan. Thank you very much, Chief.
    I now recognize Mr. Smith for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    I guess for the record, Mr. Carlin, could you state the 
population of Spalding?
    Mr. Carlin. Six hundred.
    Mr. Smith. So I overstated in my opening statement when I 
talked about communities of a few thousand people up to 
communities of a few hundred thousand people and even more, but 
how many miles across would you say your jurisdiction is?
    Mr. Carlin. I believe Spalding covers about a 350-square-
mile district.
    Mr. Smith. So there might be a fire where no people are 
located but you still need to fight the fire. Is that accurate?
    Mr. Carlin. That is correct. A lot of times they have to 
travel miles, which is across the Nation, miles off the road 
just to get to a fire, you know.
    Mr. Smith. Thank you. I appreciate that. And I do want to 
point out that I am constantly impressed and truly amazed by 
the cooperation of departments. It might be a volunteer 
department complementing a full-time paid department. It might 
be one paid department from a neighboring community 
complementing another one. Regardless, I appreciate the hard 
work and efforts that everyone makes to fight the bad things 
that can happen in various communities.
    Let us talk a little bit about the matching requirement. 
The Unified Fire Service proposal recommends reducing the 
current matching requirement for large departments from 20 
percent down to 15 percent, and increasing the matching for 
small departments up to 15 percent from its current level of 
five percent, basically tripling that. Mr. Carriger and Mr. 
Carlin, could you discuss how the rural departments you 
represent currently deal with the match requirement and how 
this increase would impact your ability to apply and receive 
the grants?
    Mr. Carlin. Coming up with the five percent is hard for 
many departments to do. In the regional grants, they add the 
population of everyone going together in the grant, and it will 
usually take you up to the ten percent match and that is 
preventing a lot of the departments in our area from applying 
for a regional grant because it brings them up to the ten 
percent and they just can't meet that requirement. So a 15 
percent match would definitely eliminate several departments 
from even applying.
    Chief Carriger. Mr. Smith, I would have to agree with Mr. 
Carlin. I think it is very difficult for many departments to 
come up with the five percent match because when you are 
talking about departments that have maybe 40 or 50 volunteer 
firefighters on them and they are looking to replace their 
SCBAs, you are talking about a cost of a quarter of a million 
dollars, and for a lot of those departments, their budget for 
the year is less than $50,000 and they have to maintain their 
equipment and provide all the services to their community out 
of that, so moving that up to 15 percent I would say definitely 
would affect the number of departments that would even apply. 
And then I think when we start losing departments that apply, 
we start losing our ability to have data on who is out there 
and who needs what. If they are not involved in the system, we 
don't have that information. And I think any time that we do 
anything that discourages departments from applying, we have 
cut our ability to recognize what the fire service needs for 
especially in rural areas in this country are.
    Mr. Smith. Thank you.
    Mr. Johnson, Mr. O'Connor, would you care to comment on 
that scenario of increasing and decreasing the matches to 
respective sizes of departments?
    Mr. O'Connor. From our perspective, I think that both the 
witnesses bring up very, very good points. I don't think it is 
in anybody's intention or objective to try to reduce the number 
of grants. We honestly thought in crafting the United Fire 
Service position that the waiver for DHS to basically take into 
account economic exigencies would in fact provide an out to 
allow jurisdictions to address that, but when we were, I guess, 
contemplating this, we recognized that there are certain 
jurisdictions that are small in terms of population but very, 
very well disposed financially, and our whole issue here was 
equity. So I think that, you know, we certainly would be 
willing to work with the Committee in trying to address that 
issue because it is not anyone's intention to try to limit the 
number of FIRE Act grants.
    Mr. Smith. Okay. Anyone else wishing to comment?
    Chief Johnson. I would just concur with those comments. 
From the IAFC's perspective, we are not interested in raising 
that minimum threshold. We can actually live with it the way it 
is, for sure, but this was about making 15 percent more 
attractive, and likewise we thought the waiver for economic 
hardship would deal with the ones that were in the most dire of 
need.
    Mr. Smith. Okay. Thank you, Mr. Chairman.
    Mr. Lujan. Thank you very much.
    Mr. Lipinski, you are now recognized for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing. I thank Ranking Member Smith for this 
hearing. I think that both the FIRE and SAFER grant programs 
are two vital tools for strengthening local fire departments 
nationwide, and although they have only been in existence a 
relatively short amount of time, I think they have already 
demonstrated their value, particularly in helping local 
departments fulfill emergency response duties that obviously 
these days have expanded beyond firefighting. Especially in the 
post-9/11 world, there has been a big expansion in what these 
local departments have to be prepared for.
    I am concerned that many of the protections included in the 
bill for rural and volunteer departments, though, may have been 
more successful than expected, resulting in suburban and urban 
departments combined only receiving 30 percent of the federal 
funding awarded. The FIRE grants authorizing legislation 
required that volunteer and combination departments receive 
funding in proportion to percentage of the U.S. population that 
they serve, about 55 percent, but from Mr. O'Connor's 
testimony, I understand a significantly larger percentage has 
been awarded to these departments since 2002. Now, under the 
30/30/30 proposal, wouldn't this still--and I am throwing this 
question out to whoever wants to address it. Under that 
proposal, wouldn't that still result in more than 55 percent, 
the required 55 percent going towards volunteer and combination 
departments? Who wants to--aren't you still going to have that 
even under this 30/30/30 proposal? I know Mr. O'Connor wants to 
jump in. I thought maybe someone else wanted to, but go ahead.
    Mr. O'Connor. We think so. We think that the aspect of the 
combination departments, clearly most of those in our view are 
generally departments that are primarily volunteer where you 
hire two or three firefighters to help with EMS, help with 
being a paid driver. There are notable exceptions. My old 
department was a combination department. We had 3,000 
volunteers and 1,000 career guys. But by and large when you 
take a look at the combination, you know, I can't say this 
scientifically and I wouldn't purport to, but if you look at 
this pot of 30/30/30 and you break it down, I think certainly 
that it would hit the 55 percent bogey. I just think that when 
you look at, you know, the way the grants have been distributed 
over the eight years, I don't think there is anybody that can 
legitimately look at it and say that the larger suburban and 
urbanized departments really haven't gotten a fair share, and 
nobody wants to tilt the balance. We certainly are not looking 
to tilt the balance dramatically in the other side. We would 
just like equity, and collectively we thought this was a fair 
way to address the issue.
    Mr. Lipinski. Chief Carriger.
    Chief Carriger. Thank you. And I think that we are all 
interested in that. I don't think anybody at this panel feels 
any differently about making sure that we are doing the right 
thing for the right reason. That is what this is about. I think 
there is also other things that have to be considered in this 
such as funding from other sources through US&R (Urban Search 
and Rescue), through domestic preparedness, and there is a lot 
of other funding that is available too, especially metro 
departments for specific challenges that they face and the 
types of things that they are definitely going to deal with as 
opposed to rural departments. So I think that has an effect on 
making sure that metro and suburban-type departments do receive 
the funding that they justly deserve but I don't think it 
always has to come from AFG, and I think that AFG is one of 
those programs that--it is the only program that truly can 
deliver training, equipment, and again, a capability for rural 
fire districts to perform at that baseline level. So when the 
metro departments such in the 9/11 incident are faced with 
those challenges, those rural departments and those volunteer 
departments can come in and help provide service to them as 
they have been affected with a baseline of equipment that is 
compatible, that is capable and that is safe for those 
jurisdictions coming in to operate at that level with the metro 
departments.
    Mr. Lipinski. Was there something you wanted to add, Mr. 
O'Connor? Go ahead.
    Mr. O'Connor. Well, just in general I wouldn't take 
exception to the comments about the scope of UASI (Urban Areas 
Security Initiative) but as most folks in the fire service 
community know, specifically fire chiefs in those types of 
areas, is that UASI money generally doesn't filter down to the 
departments. It is not something that a fire department is able 
to identify their specific needs and make the application, and 
the chief is absolutely correct with respect to US&R but I 
would submit that that is a federal function, those 28 teams 
which are chronically underfunded and legitimately we think 
that poses a threat to homeland security, but I think you have 
to look at that separately because that US&R training is not 
specifically geared to basic first response, it is geared to 
responding to a Katrina situation, a Murrah building, a World 
Trade Center. But the Chief's point is right. There are large 
pots of money available but it is not necessarily directed to 
the fire service. This AFG is also our pot of money for all 
jurisdictions specifically for fire service utilization.
    Mr. Lipinski. Thank you. My time is up. I yield back.
    Mr. Lujan. Thank you very much, Mr. Lipinski.
    Mr. O'Connor, I had some of the same thoughts pertaining to 
the waivers or to the matching funds--I apologize--the matching 
funds and making sure that we are able to fully take advantage 
of the funding that is available, recognizing that some fire 
districts or fire departments have more trouble than others. 
You testified that SAFER is in danger of failing if it isn't 
fixed now, and the American Recovery and Reinvestment Act 
waived the matching requirements and the supplemental allows 
departments to use the funding to retain firefighters and to 
retain firefighters that may have otherwise been lost. Given 
these major changes to the program, why is it still in danger 
of failing now and what more should be done to make sure the 
program can continue to help local departments?
    Mr. O'Connor. I think you have to answer that in two 
phases, first off, the specifics to the current crisis that we 
are facing economically, and a lot of the steps we are taking 
first in the stimulus with the original waiver on the SAFER 
grants for this fiscal year; and next coupled with the recently 
passed, about two weeks ago, supplemental, which affords the 
Secretary of DHS the authority to waive these requirements for 
a two-year period. Simply put, no one needs to be lectured or 
educated on the crisis nationwide. Small communities, much more 
so than large communities--if you take a look at the State of 
Massachusetts, Falls River, New Bedford, O'Leary, Ohio, small 
communities throughout Michigan are laying off firefighters in 
unprecedented numbers. SAFER, the way it is currently 
constructed, was authorized at a time when the economy was a 
lot better. People did not envision firefighters being laid off 
so it was originally authorized as a program to augment a local 
jurisdiction's hiring capability. We applaud this Congress, the 
Obama Administration and DHS for addressing that on a short-
term basis. So that is with response to what was just done with 
respect to the supplemental and the stimulus.
    Separate and apart from that when it comes to the 
reauthorization, under the current rules, as Chief Johnson very 
eloquently articulated, some of the requirements with respect 
to the $110,000 the way it is tiered over five years, the 
duration of the program really gives great pause to a lot of 
budget managers looking at it. We really can't prognosticate 
over a five-year period. So I think that you really have to 
keep it separate and apart from what was done in both the 
stimulus and the supplemental as it relates to what I will call 
the tweak on SAFER to address the economic crisis as opposed to 
the reauthorization to make structural long-term changes to 
make SAFER a more appealing program for communities hopefully 
after we recover from this current crisis.
    Mr. Lujan. Thank you.
    And Deputy Administrator Manning, how does FEMA create the 
criteria for fire protection safety grants, and how do the 
grants align with other fire protection research being 
performed across the Federal Government such as the National 
Institute of Standards and Technology, and what is FEMA's view 
on the need to create centers of excellent for fire health and 
safety R&D?
    Mr. Manning. Thank you, Mr. Chairman. We feel that those 
are some of the most important aspects to this, the reduction 
in loss of life and property and the creation and the crafting 
of good guidance in the grant, not just AFG but across all of 
the grant programs and across all of our preparedness policy 
can only come from establishment of collection of good data, 
the analysis of good data and the creation of centers of 
excellence is one way to accomplish that. We would look forward 
as we go forward to working with the Committee to identify how 
best to accomplish that.
    Mr. Lujan. Chief Johnson?
    Chief Johnson. Mr. Chairman, Members of the Committee, I 
think an example I am experiencing right now about the value 
that a center of excellence could potentially bring to our 
profession is, we have come a long way in the fire service to 
bring residential fire sprinklers to the forefront both in the 
fire code and other places, but when you try to implement it at 
the local level, one of the things that happens is, you find 
out your local water purveyors are implementing system 
development charges oftentimes between $6,000 and $10,000 
because the larger water line requirement to supply a fire 
sprinkler system based on engineering calculations make them 
up-size their system so they charge you for that in the system 
development charge. Now, we all know that a fire sprinkler is 
going to use far less water than four of my firefighters 
showing up on an engine company after the house is well 
involved. We are talking 18 gallons a minute. However, water 
purveyors have no empirical evidence that shows that people 
will not utilize the full capacity of that water line installed 
for fire sprinklers to do things like add less stations on 
their sprinkler system for watering their yard. Therefore, they 
charge the system. When a homeowner is faced with $3,000 to 
install a sprinkler and $10,000 for a water line to supply that 
sprinkler, they say ``No.'' We don't have the science, and 
absent a research center that conducts this kind of research 
and puts some of these things to bed that don't affect just a 
single department but affect our nation's fire service, without 
that, we will actually continue to perpetuate some of the 
barriers that remain. Thank you.
    Mr. Lujan. Thank you, Chief.
    Mr. Smith, you are recognized for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Manning, might you have an administrative position on 
the United Fire Service's proposal for the AFG reauthorization 
and particularly the proposals to introduce the set-asides 
based on department size and changing the matching requirements 
and the grant size?
    Mr. Manning. Thank you. At this point the Administration 
has not taken a position on the details of reauthorization. We 
anticipate and appreciate the opportunity to work with the 
Committee to do so as we go forward but we haven't seen a 
formal recommendation. We are aware of the discussion in the 
testimony this morning but we look forward to working with the 
Committee in identifying the potential impacts of any proposed 
changes to the statute as it goes through reauthorization.
    Mr. Smith. Do you see a timeline for when you might be able 
to have a recommendation?
    Mr. Manning. Well, we are available to work with the 
Committee at any time and would be pleased to evaluate any 
recommendations we may see from the Committee against the 
numbers that we--the historical numbers and how they might have 
rerun based on new implementation guidance.
    Mr. Smith. Okay. Thank you. Also, the President's 2010 
budget, it actually cuts the Assistance to Firefighters Grant, 
the AFG program, by about 70 percent while doubling it and 
pushing money over to the SAFER program to hire new 
firefighters. This is despite the fact that more than $3 
billion was requested for AFG while only $580 million was 
requested for the SAFER grants. Can you explain these numbers?
    Mr. Manning. Well, Ranking Member Smith, the presidential 
request, the budget that came in from the Administration was, 
as you are aware, the first time that there was a request from 
the Administration to support these grants. As we go forward in 
out years, we anticipate and appreciate working with the 
Congress on the funding levels. As was discussed earlier, there 
are a number of different funding avenues through different 
grant programs. This being our first budget submission and 
adjusting those grant programs to the right levels is something 
we are working on and will continue to work on closely with the 
Committee and the Appropriations Committees on doing so in out 
years.
    Mr. Smith. Okay. I appreciate that. Anyone else wishing to 
comment on those? Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lujan. Chief Johnson, in your testimony, you include 
the importance of how the larger fire departments should get 
funding as well. What can be done again--I know the question 
was asked before--with some of the smaller fire departments to 
ensure that they will be able to get the adequate funding and 
be able to benefit from some of the data that you referenced 
earlier as well?
    Chief Johnson. Thank you, Mr. Chairman. Well, I think 
particularly we are hearing from the large regional systems 
that have gone through the trouble on behalf of their local 
taxpayers to consolidate and regionalize their service. In our 
particular area, were we not consolidated, there would be 12 
fire chiefs, 24 assistant fire chiefs, 12 fire training 
programs and on and on and on, and by regionalizing we have 
saved the taxpayers that kind of redundant overhead and allowed 
us to redirect that capacity to the street level. With that 
said, these departments, like in our case, if we were left 
alone we would be eligible for 12 separate $1 million grants, 
and right now we are eligible for a single $1 million grant. 
Our position is, we would like to see the disincentive for 
cooperating and regionalizing removed when actually you see 
language in there that promotes regional efforts and 
cooperation. So we just think this was a nuance that was 
overlooked and we wanted to bring it to light.
    Mr. Lujan. And Chief Johnson, to go a step further as well, 
regarding local budgets and the importance of making sure that 
we are able to leverage those local budgets, what are your 
thoughts there on the unintended consequences of relying on 
federal funding to supplant that local funding? How can we 
leverage that local funding? And do you think that SAFER should 
be changed to allow for the retraining of firefighters as 
opposed to just for training of new firefighters?
    Chief Johnson. Thank you, Mr. Chairman. The IAFC's position 
is that we believe it was a good move recognizing the current 
economic situation to recognize the retention component of the 
SAFER grant. We believe this really does--if you remove the 
barrier from making these long-term commitments, this really 
does create additional capacity, not only for career 
departments but for volunteer departments who are also eligible 
for this. So we think it makes all the sense in the world. In 
terms of leveraging the local match, I think as it relates to 
SAFER specifically, it is less of a barrier to come up with a 
match for SAFER than it is to say to yourselves, for $100,000 
potential federal match, I am willing to lock myself into five 
years of commitment, knowing that if I hiccup in there 
economically speaking, I have got to pay it all back, that is a 
commitment that most policy-makers won't make, and one of the 
nuances at a local level is, it is not uncommon that at State 
level and local levels boards are not allowed to bind future 
boards. So when you make a five-year commitment, you are 
outside the four-year term of most local elected officials so 
you actually run into statutory issues there. So we think that 
shortening this would provide a lot of incentives and remove 
the barrier. Thank you.
    Mr. Lujan. And Mr. Carlin and Mr. Carriger, if you could 
just again talk about the importance of--I think both of you 
have referenced how some of our smaller fire departments are 
just outdated and the importance of this funding to be able to 
assist you in building upon that local support as well. Mr. 
Carlin?
    Mr. Carlin. I guess with the 30/30/30, just hearing about 
it, you know, I would have to look into it further, but if the 
panel that reviews the grants busted up their peer reviews to 
smaller people, looking at that 30 percent from small 
departments, right now if a small area puts in for a grant, my 
town of 600 may have someone from Chicago, New York and Miami 
looking at my grant and how are they going to understand my 
needs. At the 30/30/30, if they bust up the peer reviews to 
that population category as well, it may actually benefit the 
small areas as well.
    Mr. Lujan. Chief?
    Chief Carriger. Thank you, sir. I believe that there is 
definitely room for improvement in how we apply these grant 
fundings, and I think it is very important and certainly from 
the volunteer fire service, it is very important to a lot of 
the aspects of SAFER continue. The recruitment and retention 
section of SAFER is extremely important and it has no match, 
and that is open for volunteer departments to put in for 
programs, and one of the biggest challenges for volunteer 
departments is finding somebody that is capable and has the 
time and can truly basically build and implement a marketing 
program for finding new volunteers. So I think SAFER is an 
extremely important part of this grant process and the program 
in general but I think the things that need to happen in 
response to the economic situation of our country right now 
need to be short-term issues, not permanent issues or not 
permanent solutions that, you know, five years from now we are 
looking at in recovery times when things are going good like 
they were five years ago when most of this was developed that 
we are not inadvertently hurting how the program is implemented 
to the fire service, and I think that goes right into the AFG 
and taking money away from AFG and putting it in SAFER is that 
the economy is going to be, I think, somewhat proportionate to 
population and the areas that have the larger population are 
going to obviously recover faster than the rural areas. So I 
think that is even more important for us to remember, that any 
adjustments to the program we need to make need to be 
unfortunately short term so that we can respond to the economic 
situation in our country. But I think here today this panel and 
your comments have proven to all of us that this is a program, 
it is a puzzle, it is a big picture, and each one of the 
sections of this program are vitally important and have a 
ripple effect to the other sections of the program and that is 
why that funding and the reauthorization and the appropriate 
funding to all sections of this is so vitally important to the 
fire service.
    Mr. Lujan. Thank you, Chief.
    The Chair recognizes Mr. Smith for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. O'Connor, can you--in terms of the United Fire Service 
proposal, can you tell us a little bit as quickly as you can 
how that came about and who signed on to that?
    Mr. O'Connor. Discussions, I guess, started beginning 
recognizing the reauthorization was occurring this year. As you 
all know, there is an organization, the umbrella group for the 
fire service, the Congressional Fire Service Institute. A 
number of the participants in that including the IAFC, the 
NFPA, the IAFF, arson investigators, State fire training 
academy directors and others began a series of conversations 
about trying to address some of the issues that have been 
articulated in everyone's testimony.
    Mr. Smith. Thank you. And I appreciate your willingness to 
come here today and explain some of this. I mean, clearly there 
is some disagreement here, you know, among all of us being 
friends, let us say, and can we get everyone to sit down and 
discuss this and hopefully arrive--contrary to what some people 
think, we elected officials don't like controversy. We like it 
when many, many, many parties can get along and agree on things 
so that we can kind of make things move quicker here. Do you 
think that is a thing that can be achieved?
    Mr. O'Connor. Well, speaking solely from the IAFF 
perspective, I think that one of the things that has engendered 
some of the progress that the fire service has made is the fact 
that by and large we have had a great degree of cooperation 
among all components. You know, for people that have been in 
this town historically, about 15, 18 years ago there was open 
warfare between the IAFC and the IAFF, and happily that has 
abated and, you know, we have worked very well together for a 
great number of years. The same applies with, at least in my 
view, the NVFC. I think the chief's comments and testimony 
today tracks pretty closely. I don't think there is a great 
deal of discrepancy and disagreement. I think everyone at this 
table has come from a firefighting background. We all 
recognize--you know, Mr. Carlin is obviously a career 
firefighter and a volunteer. I started as a volunteer and ended 
as a career firefighter.
    Mr. Smith. We can put him in charge.
    Mr. O'Connor. But, no, I think the short answer to your 
question is sure. I mean, everybody here are friends and 
everybody has the same objective. We might--it is like anything 
else. We might have disagreements on, you know, where the lines 
are ultimately cut but as I testified earlier, I don't think 
that anybody objectively would look at it and not recognize 
that, you know, there needs to be some realignment. The 
question is, where do you cut the line.
    Mr. Smith. Thank you. And I appreciate, Mr. Manning, I know 
that there are many details of a President's budget. I guess I 
might hear you saying that the budget with the 70 percent 
reduction and shifting of dollars might be a less than optimal 
idea and maybe we can steer away from that direction. Am I 
correct in hearing you suggesting that maybe?
    Mr. Manning. Well, we of course support fully the 
President's recommendation, and as we craft the out-year 
budgets we will work with the community to identify what the 
needs are and of course working through our own process.
    Mr. Smith. But for this budget, you would like to see the 
70 percent reduction and then shifting dollars elsewhere?
    Mr. Manning. Well, for this budget, we are primarily 
concerned with making the program as successful as possible and 
working with the budget that is provided to us by the Congress.
    Mr. Smith. Okay. Thank you.
    Mr. Lujan. Thank you.
    Mr. Manning, would you agree that some of the investment 
that was included on the waivers to be able to provide more 
flexibility to fire departments across the country will assist 
in the upcoming budget cycle?
    Mr. Manning. The changes to the program that were made by 
the supplemental and to the waiver authority obviously has a 
possibility, has the potential to assist some communities. The 
application of that authority is problematic. It can be 
difficult as you try to find uniform criteria for the 
application. That is something that we will have to look at 
closely. I believe that we can work with communities with the 
existing grant roles in the AFG. On the SAFER program, I 
believe that the waiver authority that was--the waiving of the 
match for the next two fiscal years will certainly provide the 
assistance to communities throughout the country.
    Mr. Lujan. And again, would also highlight the importance 
of reauthorizing the SAFER act, correct?
    Mr. Manning. Mr. Chairman, absolutely, yes.
    Mr. Lujan. Mr. Varone, you talked a little bit about the 
importance of inspections and making sure that we are being 
responsible in that manner. Could you touch upon the importance 
of that, especially as we are looking at commercial properties, 
residential properties and what more we could do there? And 
also if you could highlight the importance of what are the most 
effective programs in a few of these areas?
    Chief Varone. Well, in terms of inspections, it seems like 
one of the first things that gets cut in economic times is 
activities in the fire prevention bureau, and there are a lot 
of reasons for that but, you know, one of the first things to 
go are the inspections, and it is vitally important that the 
inspections continue, and we would like to see some additional 
consideration through the AFG to help support some of the fire 
prevention activities that would help support those inspection 
activities.
    Mr. Lujan. Thank you very much. I have no further 
questions.
    Mr. Smith?
    Mr. Smith. No questions.
    Mr. Lujan. With that being said, I want to thank you all 
for appearing before the Committee this afternoon. The record 
will remain open for two weeks for additional statements from 
the Members and for answers to any follow-up questions the 
Committee may ask of the witnesses.
    With that, the witnesses are excused and the hearing is now 
adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Timothy W. Manning, Deputy Administrator, Federal 
        Emergency Management Agency (FEMA), U.S. Department of Homeland 
        Security (DHS)

Questions submitted by Chairman David Wu

Q1.  In your experience with running the AFG program, if the maximum 
allowable grant were as high as $10 million, how many departments would 
be able to meet a 15 percent match for that amount? A 20 percent? Are 
basing maximum grant awards on jurisdiction population still 
appropriate? If, so why?

A1. It has been our experience that all applicants applying for the 
Assistance to Firefighters Grants have done so with the knowledge that 
a cost-share is one of many conditions of award. Potential applicants 
assess their own financial stability as well as their ability to 
leverage federal funds. Quantifying the actual number of potential 
applicants that would not apply with a changed cost share is not 
possible.
    With respect to the question regarding the appropriateness of 
basing the maximum grant award on the jurisdiction's population, we do 
not have any basis for sustaining or removing it. We are not aware of 
any specific or systemic benefits for fire departments that have been 
realized under these present funding limitations, nor are we aware of 
any negative effects.

Q2.  What criteria is FEMA using to implement the waiver of matching 
funds authority that was given under the Supplemental Appropriations 
Act of 2009 (P.L. 111-32)? How does this authority change the 
implementation and management of the program? Would FEMA use the same 
criteria if a waiver authority was added for the AFG program and how 
would such an authority change the implementation and management of the 
program?

A2. The waiver of cost share for SAFER grants awarded with 
appropriations from FY 2009 and FY 2010 that is contained in the 
American Recovery and Reinvestment Act is universal to all SAFER 
grants, and hence no specific waiver criteria will be applied--there 
will be no cost share for any of these SAFER grants. The waiver of the 
cost-share will have little impact on the implementation or management 
of the competitive aspects of the grant program. We will still evaluate 
the merits of each application based on established criteria, award 
grants to the applications that demonstrate the grant funds will have 
the highest impact, and monitor or provide oversight to assure that all 
the conditions of award are followed.
    We would not use this approach (global waiver of the cost-share) 
for the Assistance to Firefighters Grants. In the SAFER grants, the 
ultimate cost-share amounted to approximately 60+ percent for the local 
fire department when all the factors were considered (the diminishing 
federal-share, the statutory salary limit, etc.). Adding to the SAFER 
burden was the requirement to maintain the pre-SAFER staffing levels. 
All of these issues contributed to the changes to the SAFER program for 
FY 2009 and FY 2010.
    At this time, we do not believe that there is reason to waive the 
cost-share under AFG. There is little incidence of a reduction in the 
number of applications for AFG from FY 2008 to 2009, and the small 
reduction evidenced is, we believe, a reflection in the lesser number 
of requested vehicles--the most competitive portion of AFG. More 
importantly, there is even less evidence of declinations of award 
offers under AFG (less than one tenth of one percent of the award 
recommendations) and therefore little to cause concern about cost share 
capacity at this time, despite current economic conditions in the 
Nation. We believe that applicants' requests are reflective/
representative of the amount of local funds that would be available to 
match the federal funds if/when awarded.

Q3.  For the Fire Prevention and Safety Grants, what percentage of that 
money is used for research projects? What percentage of applicants for 
Fire Prevention and Safety Grants apply for research funding? What 
percentage of the research funding goes to academic researchers and 
what other types of entities apply for this funding?

A3. Please see table below. Fire Prevention and Safety (FP&S) Grants 
are, per statutory requirement, at least five percent of the 
appropriation for AFG. The program includes both FP&S activities grants 
(such as education and awareness programs), as well as research and 
development grants. Historically, the percentage of FP&S grants for 
research activities has varied between 20-35 percent from FY 2005 to FY 
2008. Thus, the percentage of the total AFG appropriation that is being 
placed into research has been one to two percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Additional applicants, aside from academic entities, include 
foundations and organizations that conduct research, primarily focused 
on the fire and emergency services, such as Underwriter's Laboratories, 
Commission on Fire Accreditation International, and the Fire Protection 
Research Foundation, among others.

Q4.  In testimony from Chief Jack Carriger of the National Volunteer 
Fire Council, he stated that between 2005 and 2007 applications for the 
Fire Prevention and Safety grants have dropped from $394 million to 
$191 million. What might account for this drop? What are the most 
effective activities in preventing fires?

A4. In fact, the amount of federal funding requested through the Fire 
Prevention and Safety Grants increased by nearly $60 million between 
2006 and 2007. However, under the Fire Prevention and Safety grants, 
eligible applicants include not only fire departments, but national, 
regional, State, local, or community organizations that are recognized 
for the experience and expertise in fire prevention and safety programs 
and activities. Both public and private non-profit organizations are 
eligible to apply for funding. Additionally, under the research and 
development activity, eligible applicants include national, regional, 
State and local organizations, such as academic, public health, 
occupational health, and injury prevention institutions, especially 
those that are recognized for their experience and expertise in 
firefighter safety research and development programs or whose 
applications demonstrate the potential to improve firefighter safety. 
From 2006 to 2007, there was an increase in organizations applying for 
these grants.
    The statistics quoted by Chief Carriger of the National Volunteer 
Fire Council take into account only those applications submitted by 
fire departments themselves. There was a sharp decrease between 2005 
and 2007 in the applications for fire prevention activities in the FY 
2005-FY 2007 timeframe. This drop may be attributable to any number of 
variables. For example, in FY 2005 there was an error in the 
interpretation of the authorizing statute, and no match from fire 
departments was required. In FY 2006 & 2007, that error was corrected.
    With respect to effective strategies, recent assessments by 
entities such as the Centers for Disease Control and Prevention have 
shown that some of the most effective projects for fire prevention 
include smoke alarm installation projects, sprinkler awareness, public 
education on the reduction of injury, code enforcement/awareness and 
arson prevention programs. These same assessments, also show that the 
effective delivery of these strategies includes the partnering of 
community/neighborhood organizations with fire departments, the use of 
education plans and techniques, and intervention programs with juvenile 
fire setters.

Q5.  If the cap for individual SAFER grants were removed, how would 
this change affect the implementation and management of the program?

A5. We assume that you are referring to the cap on an individual 
firefighter's salary and benefits, since there is no cap on the amount 
that can be awarded for an individual SAFER grant such as there is 
under the AFG. Aside from the long-term federal liability involved in 
the decision to fully fund local fire departments' personnel costs, 
removal of the salary cap would not necessarily affect the 
implementation or management of the program. Applications would still 
be evaluated based on the merits of each application based on 
established criteria, the grants would still be awarded to the 
applications that demonstrate the grant funds will have the highest 
impact, and the grants would still be monitored to assure that all the 
conditions of award were followed. However, there would be fewer 
grants, since on average each grant award would be higher.

Questions submitted by Representative Adrian Smith

Q1.  Aside from the AFG and SAFER programs, what other DHS grant 
programs support fire department preparedness, and in what form and for 
what types of departments and activities is such funding used for? 
Specifically, approximately how much of the combined $1.6 billion Urban 
Area Security Initiative and the State Homeland Security Grant Program 
supports fire departments?

A1. In addition to the AFG and SAFER programs, the following DHS grant 
programs since FY 2004 support fire department preparedness:

        <bullet>  Homeland Security Grant Program, including the

                  State Homeland Security Program (SHSP)

                  Urban Areas Security Initiative (UASI), and

                  Citizen Corps Program (CCP)

        <bullet>  State Homeland Security Program--Tribal (SHSP-Tribal)

        <bullet>  Inter-operable Emergency Communications Grant Program 
        (IECGP)

        <bullet>  Emergency Management Performance Grant Program (EMPG)

        <bullet>  Emergency Operations Center (EOC) grant program

        <bullet>  Regional Catastrophic Preparedness Grant Program 
        (RCPGP)

        <bullet>  Buffer Zone Protection Program (BZPP)

        <bullet>  Nonprofit Security Grant Program (NSGP)

        <bullet>  Transit Security Program (TSP)

        <bullet>  Port Security Grant Program (PSGP)

    Funding from these programs is used to support all fire department 
response activities, especially those associated with non-fire response 
requirements. Hence the kinds of purchases being supported will include 
specialty response vehicles, hazardous materials equipment and 
monitors, biological and chemical response equipment and monitors, 
specialty rescue equipment, such as that used in urban heavy rescue, 
and so forth. The departments most often receiving this support are 
fire departments in threat areas, hence most often urban and large 
suburban communities.
    Since FY 2004, 15.24 percent of SHSP funds have been used for fire-
related activities, and 15.63 percent of UASI funds have been used for 
fire-related activities.
    In FY 2008, approximately 8.65 percent of the total expended funds 
for SHSP and 13.14 percent of the UASI expended funds have been 
expended for fire departments uses. However, there is no data at 
present that have been reported on the expenditures of the FY 2009 
appropriated funds to UASI and SHSP of $1.6B.
    A chart reflecting these and all of the historical data on fire 
department expenditures since FY 2004 is attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Donna F. Edwards

Q1.  Since the beginning of the 1990's, the number of people dying in 
fires each year has remained around 3,400. A disproportionate number of 
those people are poor and minority citizens. Why is this the case?

A1. There is not a definitive study on this aspect of fire incidences, 
but there are several contributing factors that taken together would 
begin to explain why a disproportionate number of fire deaths are poor 
and minority citizens:

        <bullet>  According to the National Fire Protection 
        Association, under-education is one of the top three factors 
        most strongly related to fire death rates (NFPA Journal, 
        January/February 1996);

        <bullet>  Lack of financial resources may prevent some 
        individuals and families from purchasing fire prevention and 
        safety tools, such as smoke alarms, because other necessities 
        take precedence;

        <bullet>  Poorer households may use portable heating devices in 
        place of central heating, which increases the risk of fire; and

        <bullet>  Those living below the poverty line in urban areas 
        have a greater risk of arson because some live in high crime 
        areas. Additionally, in the urban areas, greater security 
        measures may jeopardize egress routes.

Q2.  What types of programs do the Fire Prevention and Safety Grants 
support to reduce the number of fatal fires? Can the circumstances that 
cause these fires be addressed with more education or is some other 
type of intervention needed?

A2. With respect to Fire Prevention programs, we support and place 
priority on the most effective projects, which include smoke alarm 
installation projects, sprinkler awareness, code enforcement/awareness 
and arson prevention programs. The effective delivery of these 
strategies often has been shown to rely on the partnering of community/
neighborhood organizations with fire departments, the use of education 
plans and techniques, and intervention programs with juvenile fire 
setters.
    Additional education on fire prevention and safety will continue to 
prove to be effective strategies in reducing fires, as well as death 
and injury from fire and related hazards. As for other interventions, 
the most notable would be the adoption of a change in the International 
Residential Code that would require fire sprinkler systems in all new 
construction. Recently, the Acting United States Fire Administrator 
released a statement on this change, stating:

         ``It is the position of the U.S. Fire Administration that all 
        Americans should be protected from death, injury, and property 
        loss resulting from fire in their residence. All homes should 
        be equipped with both smoke alarms and residential fire 
        sprinklers, and all families should have and practice an 
        emergency escape plan. The U.S. Fire Administration supports 
        all efforts to reduce the tragic toll of fire losses in this 
        nation, including the recently adopted changes to the 
        International Residential Code that require residential fire 
        sprinklers in all new residential construction.''
                   Answers to Post-Hearing Questions
Responses by Chief Jeffrey D. Johnson, First Vice President, The 
        International Association of Fire Chiefs (IAFC); Chief, 
        Tualatin Valley Fire and Rescue

Questions submitted by Chairman David Wu

Q1.  What criteria would IAFC recommend be used to waive the matching 
requirement for AFG and SAFER? Should the criteria be the same for 
waiving other program requirements? How should these criteria be 
developed?

A1. The IAFC recommends that the waivers to the local matching 
requirements for FIRE grants be based on a two-step process to ensure 
both transparency and accountability. The first step would require that 
the jurisdiction applying for a waiver fall below a specified threshold 
within an index using U.S. Census data, such as the State poverty level 
or median household income. Then, if a jurisdiction met this 
requirement, the AFG program office would make a final determination on 
the fire department's request based on financial information provided 
with the application. This process would ensure that fire departments 
that receive waivers both meet a clear economic benchmark, and that the 
AFG office has made a positive, accountable determination to grant the 
waiver.
    The AFG office should establish the criteria for the waiver system 
by consulting the major fire service organizations and other 
stakeholders. The current, annual AFG criteria development meeting may 
provide a relevant forum for this consultation.

Q2.  The proposal to raise the maximum allowable grant for the AFG 
program to $10 million would more than triple the current maximum. Why 
is such a large increase needed? If the cap were significantly 
increased, would departments be able to provide a 15 percent match? 20 
percent?

A2. There are a number of good reasons for supporting an increase in 
the cap for FIRE grants. To ensure economies of scale, local fire 
departments in many Western states are consolidating into larger fire 
departments. For example, my fire department, Tualatin Valley Fire and 
Rescue, is composed of what were historically 12 departments, and now 
covers more than 432,500 people in nine cities and portions of three 
counties in the Portland, Oregon metropolitan area. My department is 
limited to a $1 million grant, but if these 12 departments had applied 
separately for FIRE grant funding, they could have applied for a much 
larger amount. My department faces many of the same equipment and 
training needs as the 12 departments would, because we cover the same 
area. A larger maximum allowable grant would allow my department to 
better handle our equipment and training needs, while also rewarding 
fire departments that promote economies of scale and more effective use 
of taxpayer money by consolidating into larger departments.
    In addition, the $2.75 million limit can be a challenge for larger 
departments. For example, the Fire Department of New York has over 
11,000 firefighters covering over eight million people and the Los 
Angeles County Fire Department has over 2,500 firefighters covering 
over four million residents. The current $2.75 million cap does not go 
very far in helping these larger departments meet their needs.
    The IAFC would like to work with the Committee to set an 
appropriate larger amount to be the maximum allowable grant for larger 
fire departments.

Q2a.  Is the current structure of basing award sizes on jurisdictional 
population still appropriate today? If so, why?

A2a. The IAFC believes that it is important to base award sizes on the 
population of the jurisdiction. The population of a jurisdiction is an 
important factor in determining the staffing and equipment needs for 
protecting it. For example, in areas with large populations, a fire 
department needs more firefighters and equipment to perform its 
lifesaving mission. In jurisdictions with smaller populations, a fire 
department may require a smaller number of firefighters or equipment.
    The IAFC also supports the proposal to use a 30-30-30 percent floor 
to distribute FIRE grants to career, combination and volunteer fire 
departments (with the remaining 10 percent available for open 
competition). The current statute (15 U.S.C.  2229( (b)(11) ) requires 
that all-volunteer and combination departments must receive ``a 
proportion of the total grant funding that is not less than the 
proportion of the United States population that those firefighting 
departments protect.'' The IAFC supported this set-aside in the past, 
because we were originally concerned that volunteer fire departments 
might not receive as much funding from the FIRE grant program as larger 
all-career departments. In fact, volunteer fire departments have 
received over 60 percent of the funds from the FIRE grant program and 
all-career fire departments have received about 10 percent of the 
funding. The IAFC supports a fair and equitable distribution of AFG 
grant funds. Based on our discussions with some of the other national 
fire service organizations, we believe that the 30 percent floor for 
each type of department was the best method to achieve this goal.

Q3.  In your testimony you offered the example of fire sprinklers as 
one area where a coordinated research program would be useful in 
advancing public safety. What other types of large research questions 
would Centers of Excellence address? How many Centers of Excellence are 
needed? How effectively is current fire research put into practice and 
how can this technology transfer be improved? Why would Centers of 
Excellence be more effective than simply increasing the amount of R&D 
funds available overall?

A3. The IAFC would recommend the creation of 2 or 3 centers of 
excellence. The purpose of these centers would be to reduce the fire-
related death and injury rate of firefighters and the general public by 
examining the behavioral, engineering, social science and technological 
causes. The centers would use tools and methods developed from the 
behavioral, clinical and social science fields; the computer, 
engineering and physical sciences; and injury surveillance studies to 
examine issues such as:

        <bullet>  Overexertion and stress due to cardiac or 
        cerebrovascular illness

        <bullet>  Motor vehicle crashes

        <bullet>  Accidental injury on the fireground

        <bullet>  Exposure to toxic substances

        <bullet>  Situational leadership

        <bullet>  Development of personal protective equipment.

    During my testimony, I described how the centers could be used to 
address cost calculations related to residential fire sprinklers. Water 
purveyors are implementing system development charges that are 
oftentimes between $6,000 and $10,000, because they assume a larger 
waterline requirement for the sprinkler. However, the water load for a 
sprinkler is much less than that caused by a fire department's 
operations in trying to put out a fully involved house fire. However, a 
homeowner will only see the $3,000 cost to install a sprinkler and 
$10,000 cost for the water line to supply that sprinkler. The centers 
of excellence can perform an important service to homeowners by 
providing a cost analysis comparing the water requirements and costs 
associated with the preventive installation of fire sprinklers versus 
the costs and water use associated with putting out a fire in a single-
family dwelling.
    The AFG office does a good job of overseeing the research that is 
funded by the Fire Prevention and Safety grants. However, there is not 
a direct pipeline for transmitting most of this research to the public. 
Research findings and technological developments can be transmitted 
through conferences; web, news and magazine articles; and ``word of 
mouth,'' but there is no systematic way for this information to be 
released.
    We envision that the Centers of Excellence in Fire Safety Research 
would be partnerships between major fire service organizations and 
major research universities. The major fire service organization would 
give the center credibility within the fire service and a clear 
pipeline to distribute information to the fire service. The major 
research institution would provide the academic discipline, research 
infrastructure, and rigorous scientific testing required to provide 
world-class research. In addition, the centers would develop the 
infrastructure required to support long-term fire safety research 
programs, such as the continued involvement between the fire service 
and major academic research institutions, stable funding for fire 
safety research, and the systematic involvement of junior faculty and 
students.

Q4.  In his testimony, Chief Jack Carriger of the National Volunteer 
Fire Council stated that between 2005 and 2007 applications for the 
Fire Prevention and Safety grants have dropped from $394 million to 
$191 million. What might account for the drop? What are the most 
effective activities for preventing fires and how can those activities 
be encouraged?

A4. The matching requirement is one of the major obstacles to fire 
departments applying for the Fire Prevention and Safety grants. Fire 
departments must meet the same 20-10-5 percent matching requirement 
based on population that they must meet for the FIRE grant program. As 
fire departments face budget cuts, the IAFC is being told that fire 
prevention funding is the first to be cut to meet lower budget 
projections and still maintain staffing and operational capability. If 
the matching requirement were eliminated for the fire prevention grants 
(as it currently is for national, State, local or community 
organizations), you may see an increase in fire prevention grant 
applications.
    On behalf of the nearly 13,000 chief fire and emergency officers of 
the IAFC, I would like to thank you for leading the effort to 
reauthorize the FIRE and SAFER grant programs. The IAFC is dedicated to 
working with you to reauthorize these programs this year.
                   Answers to Post-Hearing Questions
Responses by Chief Jack Carriger, Stayton Fire Department, Stayton, 
        Oregon; First Vice-Chairman of the National Volunteer Fire 
        Council (NVFC)

Questions submitted by Chairman David Wu

Q1.  You recommended in your testimony that State fire training 
academies be able to apply for more types of activities under the AFG 
program. What types of activities may they apply for now, and what 
other activities would you recommend Including?

A1. State training academies are not currently eligible to apply for 
funds through AFG, although several have received funds for research 
through the FP&S program. State training programs train over one 
million students each year and provide the majority of courses 
resulting in national certifications. Allowing State fire training 
academies to compete for AFG funs would result in improvements in 
firefighter training and safety and allow greater access to important 
fire service training programs.

Q2.  You noted in your testimony that between 2005 and 2007 
applications for the FP&S grants have dropped from $394 million to $191 
million. What might account for this drop? What are the most effective 
types of activities in preventing fires and how can those activities be 
encouraged?

A2. Funds requested by career, combination, volunteer and paid-on-call 
fire departments through FP&S went down between 2005 and 2007, but the 
steepest drop came from the volunteers. In 2005, 938 volunteer fire 
departments applied for $194.2 million. In 2007, 711 volunteer fire 
departments applied for $31 million.
    It is difficult to say exactly what caused such a precipitous drop 
in funds requested, but it is worth noting that even in 2005, less than 
five percent of volunteer fire departments applied for FP&S funds. Fire 
departments that apply for funds through AFG may not have additional 
resources available to cover the local matching funds requirement 
through FP&S. AFG/FP&S appropriations have declined since 2005, leaving 
a smaller pool of funds available for fire departments that do apply, 
and the number of applications from non-fire departments has increased 
significantly since matching funds requirements from those entities 
were eliminated in the last reauthorization. Ail of these factors 
likely have contributed to the low application rate through FP&S.
    Different communities face different challenges in preventing 
fires. For instance, steps taken by communities located in the 
wildland/urban interface (WUI) to reduce their exposure to wildland 
fire would have little to no impact in communities outside of the WUI. 
Fire prevention strategies should be tailored to address the unique 
challenges facing each community. The competitive grant process ensures 
that funds are allocated to the most effective projects. Eliminating 
the local matching requirement for fire departments through FP&S would 
encourage more applications making the grant process even more 
competitive.

Q3.  How successful have SAFER recruitment and retention grants been in 
increasing the number of volunteer firefighters? What are the most 
successful recruitment and retention activities? How should we 
encourage more types of these activities?

A3. Since SAFER was created, a little less than $50 million have been 
made available in the form of recruitment and retention grants and to 
this point, there hasn't been any comprehensive study performed to 
assess the effectiveness of these grants collectively. As I mentioned 
in my testimony, the Oregon Volunteer Firefighters Association (OVFA) 
received a grant in 2006 to conduct a statewide recruitment campaign. 
200 volunteer fire departments have benefited directly from the 
campaign, reporting an increase in volunteers and general community 
interest in the volunteer fire department.
    We estimate that statewide we have directly or indirectly impacted 
340 volunteer fire departments through the campaign.
    Communities face different challenges when it comes to recruitment 
and retention. Providing modest monetary awards to volunteers is an 
effective tactic for boosting retention rates, but many communities 
cannot afford to offer financial incentives. Marketing campaigns like 
the OVFA's have been very successful at generating interest in the 
volunteer fire service and drawing potential recruits to volunteer fire 
departments, but relatively little is known about the retention rates 
of those recruits over time. More data collection and analysis would be 
extremely useful in determining the effectiveness of recruitment and 
retention grants.

Questions submitted by Representative Adrian Smith

Q1.  What is NVFC's position on the specific provisions in the United 
Fire Service proposal, particularly the recommendations related to the 
``30/30/30'' set-aside, increased matching requirements and increased 
allowable grant size?

A1. The United Fire Service Proposal was developed and submitted to 
Congress without input from the NVFC.

Assistance to Firefighters Grant Program

Provides all career, all volunteer and combination departments each 
with a minimum 30 percent guarantee of total grant funding to better 
distribute funds among departments according to population served. If 
not enough applications are received to meet this floor for a specific 
category, then the remaining funds would be given to the other two 
categories.

    Volunteer fire departments have historically received significant 
levels of funding through the Assistance to Firefighters Grant (AFG) 
program to purchase equipment, training and apparatus for a variety of 
reasons, including:

        --  Volunteer departments submit more applications for a 
        collectively higher level of funding than their combination or 
        career counterparts;

        --  One of the main focuses of AFG is bringing fire departments 
        up to a baseline level of readiness. Fire service needs 
        assessments consistently show that by a wide margin, volunteer 
        departments need far more assistance to achieve baseline 
        readiness as defined by compliance with national consensus 
        standards.

        --  Larger fire departments, which tend to utilize career 
        staffing, receive substantially more financial support from 
        local government sources and other Department of Homeland 
        Security grant programs to address equipment, training and 
        apparatus needs.

Applications and Awards

    Looking at the statistics for FY 2007 applications and awards 
through AFG, volunteer fire departments submitted close to five times 
as many applications for more than three times the amount of funding. 
Applications from volunteer fire departments had a success rate of 24 
percent, compared with 20.6 percent for career departments. Overall, 15 
percent of funding requests from volunteer departments were met 
compared with 14.2 percent from career departments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Applying the 30/30/30 standard to the FY 2007 grant cycle gives us 
an idea of what would happen if that proposal were adopted:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since the proposal doesn't account for Paid On-Call/Stipend 
departments, it is difficult to say with certainty where they would fit 
in. Paid On-Call/Stipend departments pay their personnel cash awards 
for each call they respond to or on an annual or monthly basis. It is 
likely that these departments would either be classified as volunteer 
departments or left out of the 30/30/30 classification altogether. In 
the chart I simply eliminated Paid On-Call/Stipend departments.
    As the chart above shows, if the 30/30/30 standard had been applied 
to the FY 2007 grant cycle, 31.7 percent of funds requested by career 
departments would have been funded compared with 19.7 percent of funds 
requested by combination departments and 10 percent of funds requested 
by volunteer departments.

Assessing Need

    Congress authorized a needs assessment of the U.S. fire service 
when it created AFG in 2000, and authorized another needs assessment 
when the program was reauthorized in 2004. The latest needs assessment, 
``Four Years Later--A Second Needs Assessment of the U.S. Fire 
Service'' was published by DHS in 2006.
    Both of these needs assessments consistently show that smaller 
communities tend to be protected by volunteers and that those volunteer 
departments are far less likely to meet national consensus standards. 
On average, volunteers tend to have less training and older equipment 
and apparatus. This is primarily due to a lack of resources, which is 
hardly surprising since one of the main reasons that communities have 
volunteer staffing in the first place is because they can't afford to 
hire full-time personnel. Most volunteer departments rely on private 
fundraising just to meet their operating budgets.
    The following three charts are from the 2006 needs assessment and 
demonstrate the difference in equipment, training and apparatus need in 
large and small departments:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The charts above are a snapshot of a trend that is demonstrated 
consistently throughout the needs assessment--that shortfalls in 
equipment, training and apparatus tend to be more significant in 
smaller communities. Because need is a component of the AFG criteria, 
applications from departments that have the greatest shortfalls tend to 
score higher.

Other Sources of Federal Funding

    Volunteer and mostly-volunteer departments collectively receive a 
lower percentage of funding through the SAFER grant program than the 
percentage of the population that they protect, and virtually no 
funding through numerous other DHS grant programs that tend to direct 
money toward densely populated areas served by large career 
departments. Through the Urban Areas Security Initiative (UASI) alone, 
60 of the most populated areas in the country were awarded differing 
amounts of $781.6 million in FY 2008, almost twice as much as was 
available for equipment, training and apparatus through AFG.
    In 2007, volunteer fire departments and State and local interest 
organizations collectively received approximately 11 percent of SAFER 
funds to implement recruitment and retention plans. Mostly volunteer 
fire departments received 24 percent of SAFER funds to hire 
firefighters while 65 percent of SAFER funds were distributed to career 
and mostly-career departments for additional hiring.
    The focus of SAFER on hiring as opposed to recruitment and 
retention is a product of the significant cost paying salaries and 
benefits to career firefighters. Additionally, while staffing 
shortfalls in smaller communities tend to be greater than those in 
larger communities, the disparity is not as significant as the 
corresponding equipment, training and apparatus shortfalls.
    The bulk of DHS grant dollars flow to large densely populated 
communities to pay for a wide range of preparedness activities, 
including local fire department functions, through programs like UASI 
and the State Homeland Security Grant Program (SHSP). Fire departments' 
access to assistance through UASI and SHSP is difficult to track 
because funds are distributed to State and local governments rather 
than directly to first responder agencies. Still, there is evidence 
that hundreds of millions of dollars are being spent on metro fire 
departments through UASI in particular: In 2006, five of the 15 of 
projects proposed to be funded by New York City through UASI were for 
FDNY. New York City received $124.5 million through UASI in 2006--three 
times as much as any state received through AFG that year.
    By contrast, states that do not have major metropolitan areas tend 
to receive considerably less preparedness funding through DHS. In 2008, 
AFG was the largest single source of DHS funding distributed to 
Alabama, Arkansas, Iowa, Kentucky, Mississippi, North Carolina, Ohio, 
Pennsylvania, South Carolina, Tennessee and Wisconsin. In many other 
states with smaller populations and population densities, AFG was the 
largest single source of DHS funding in 2006 outside of SHSP, which 
provided a minimum of $6.2 million per state.

Summary

    Volunteer fire departments have historically applied for far more 
funding through AFG than career fire departments. DHS needs assessments 
consistently show that equipment, training and apparatus needs tend to 
be more severe in volunteer departments. Career departments receive a 
higher percentage of SAFER grants than volunteer departments, and the 
largest career departments have access to significant levels of 
additional assistance through other DHS grant programs.
    The fire services' involvement in criteria development and ranking 
grant applications already ensures that funds are directed to the 
departments that need it most. Applying the 30/30/30 standard would 
result in fire departments with lower-scoring applications receiving 
grants simply because they employ full-time paid personnel and 
departments with higher scoring applications being denied funding 
simply because they utilize volunteer personnel. The NVFC opposes 
applying the 30/30/30 standard to the AFG program.

Increases the funding cap for all categories of grantees:

        <bullet>  Jurisdictions of more than one million: $10 million 
        cap

        <bullet>  Jurisdictions between 500,000--one million: $5 
        million cap

        <bullet>  Jurisdictions between 100,000-500,000: $2 million cap

        <bullet>  Jurisdictions of less than 100,000: $1 million cap

    In FY 2004, there were 12 awards made to departments protecting 
500,000 or more people that were at or within $100,000 of $750,000, the 
grant cap at that time. During the FY 2004 reauthorization of AFG, 
Congress increased the grant caps for all departments to $1 million. 
Additionally, the grant cap for fire departments protecting communities 
with a population of 500,000--one million was increased to $1.75 
million and the cap for fire departments protecting one million or more 
people was increased to $2.75 million.
    Under current law, no single grant can constitute more than .5 
percent of the funds appropriated for AFG in any year. For FY 2010, the 
House--and Senate-passed DHS appropriations bills include $390 million 
for AFG--a decrease of $175 million from FY 2009. If the grant caps 
were increased to the levels recommended in the United Fire Service 
Proposal, each fire department serving one million or more people would 
be eligible for more than three percent of the funds appropriated in FY 
2010.
    From FY 2005-2008 (since the grant caps were raised) a total of 
four awards have been made to fire departments protecting more than 
500,000 people that were within $100,000 of the grant cap (none have 
been made for the full amount allowed under the cap). During that same 
time period, AFG awards were made to fire departments in Baltimore 
(twice), Boston, Charlotte, Cleveland, Columbus (OH), Dallas, El Paso 
(twice), Fort Worth, Hartford, Houston, Indianapolis, Los Angeles, 
Louisville, Memphis, Montgomery County (MD), Nashville, New York 
(twice), Oklahoma City, Orange County (FL), Pittsburgh, Prince Georges 
County (MD), and San Francisco.
    Fire departments protecting 500,000 or more people are receiving 
awards through AFG, just not at or near the maximum amount allowable 
under the law. There is no evidence from the award statistics that 
large fire departments would take advantage of the inflated grant caps 
contained in the United Fire Service Proposal--at least as long as 
local units of government have to put up matching funds and safeguards 
are kept in place to ensure that AFG funds are used to supplement 
rather than supplant local spending.

Provides priority to applicants that protect large populations and have 
high call volume

    Population protected and call volume were incorporated into the AFG 
criteria in FY 2008. As a result, departments that protect large 
communities and/or have a high call volume score higher on their grant 
applications.
    Because of the changes made in FY 2008, the overall percentage of 
AFG funds directed to career fire departments as well as urban and 
suburban areas increased slightly from FY 2007. The primary impact on 
the smallest fire departments has been that they are less likely to 
receive high scores on applications for expensive items, such as new 
apparatus.
    The NVFC does not oppose the inclusion of population protected and 
call volume as a component of the AFG criteria matrix as it is 
currently being applied. Other components of the matrix, including an 
assessment of the need of fire departments based on their ability to 
meet national consensus standards, have ensured that the smallest fire 
departments still have reasonable access funds through AFG, 
particularly for purchases of equipment and training. The current 
scoring matrix is carefully calibrated by DHS with input from the fire 
service on an annual basis to ensure that funding is directed where it 
is needed most.
    It is not clear from the United Fire Service Proposal whether this 
recommendation is meant to merely codify existing practice or expand 
the influence of population protected and call volume within the AFG 
criteria matrix. If the aim is the former, the NVFC would like to see 
language clarifying that in the committee report. If the aim is the 
latter, the NVFC would oppose this recommendation.

Reduces the local match from 20 percent to 15 percent, enabling 
economically challenged communities to take advantage of the program 
and allow DHS to grant a waiver to fire departments facing economic 
hardship.

    Under current law, the matching requirement for fire departments 
serving communities of 50,000 or more is 20 percent. Fire departments 
serving between 49,999 and 20,000 have a 10 percent match and 
departments serving communities of less than 19,999 have a match of 
five percent. Smaller departments have a reduced local match because 
they tend to have fewer financial resources at their disposal than 
their larger counterparts.
    As discussed in the section of this document that dealt with the 
30/30/30 proposal, fire departments in smaller communities are far more 
likely to utilize older equipment and apparatus and far less likely to 
have ail personnel trained to the level recommended by national 
consensus standards. This disparity is primarily due to the fact that 
most small fire departments are located in communities that are 
sparsely populated and/or have high poverty rates. As the following 
charts from the 2006 Needs Assessment
    demonstrate, many small fire departments do not have a budget for 
equipment and apparatus replacement and most rely on private donations 
simply to maintain operations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The United Fire Service Proposal's draft bill would increase the 
local match for all fire departments protecting communities of 50,000 
or less to 15 percent. That represents a 50-300 percent increase in the 
matching requirement for 97 percent of fire departments in the United 
States, including for the smallest departments that have the most 
financial need. The NVFC vigorously opposes any increase in the 
matching requirement for communities of any size, but does not oppose 
reducing the matching requirement for communities serving 50,000 or 
more from 20 percent to 15 percent.
    The United Fire Service Proposal would also allow DHS to waive the 
local matching requirement for ``fire departments facing economic 
hardship.'' The NVFC does not oppose the concept of waivers but is 
concerned about how such a system would be implemented. How ,would 
``economic hardship'' be defined, and who would define it? How many 
waivers per year would be granted? A waiver system has the potential to 
create significant controversy and draw negative attention to AFG if it 
is not implemented properly.

Reduces the requirement that grantees maintain their budget at 100 
percent of the average budget over the previous two years to 80 percent 
with a waiver on this requirement for departments facing an economic 
hardship.

    Requiring departments to at least maintain past years' operating 
budgets ensures that AFG funds are being used to supplement rather than 
supplant local spending. Without this safeguard, AFG funds could be 
used to plug holes in local government budgets rather than improving 
the capabilities of local fire departments.
    There may be justification for allowing some fire departments that 
have reduced their budgets to receive AFG funds. Many departments that 
have been forced by the recent economic downturn to reduce their 
budgets have significant equipment, training and apparatus needs. 
Additionally, departments that experience a budget spike in a year when 
they make a sizable one-time purchase or expenditure should not be 
penalized.
    What is being proposed here, however, would essentially give 
permission to fire departments to replace local spending with AFG 
funds. Furthermore, it would become a permanent feature of AFG. The 
NVFC would prefer to see the requirement that fire departments maintain 
their budgets at 100 percent of the average over the previous two years 
maintained, but permit the Secretary to waive this requirement at the 
request of an applicant. Applicants would have to justify the budget 
reduction based on criteria established by DHS in conjunction with the 
criteria development panels.

Adds State fire training academies as eligible grantees for vehicles 
and equipment, and limits grants to such entities to $1 million

    The NVFC supports making State fire training academies eligible 
applicants through AFG. Some of the major challenges facing volunteer 
departments in training their personnel include a lack of resources, 
time constraints on the individual volunteers and a lack of locally-
available training opportunities. State training agencies play a 
critical role in delivering training to fire departments in remote 
areas by producing and disseminating training materials, funding 
training offerings at local colleges and other institutions and through 
regional training facilities.

Adds a new category of prevention grant for joint research programs 
between universities and national fire service organizations focused on 
reducing injuries and LODDs among firefighters; limits such grants to 
$2 million in the first year and $5 million annually thereafter.

    The NVFC believes that joint research programs could be a valuable 
addition to AFG's Fire Prevention and Safety (FP&S) program. The 
existing $1 million cap and one-year limit on FP&S grants severely 
restricts the scope of research that can be performed.
    The NVFC is concerned, however, that allocating as much as $5 
million in one grant could significantly reduce the total number of 
grants and grant recipients, particularly during down appropriations 
years. By statute, five percent of AFG funds are set aside to fund the 
FP&S program. It appears likely that Congress will appropriate $390 
million for AFG in FY 2010, a reduction of $175 million from FY 2009. 
Assuming that approximately $20 million is made available through FP&S 
in FY 2010, under this proposal as much as 25 percent of the entire 
program's funding could be devoted to one joint research program grant.
    The NVFC is also concerned that this proposal could exacerbate the 
recent trend of FP&S funds being directed to universities and non-
profit fire service organizations rather than fire departments. In FY 
2006, fire departments received less than 34 percent of FP&S funds, 
despite requesting nearly twice as much funding than non-fire 
departments.

Clarifies that training purchased with FIRE Grant dollars must comply 
with applicable national voluntary consensus standards, and allows for 
a waiver of this requirement by the Administrator.

    The NVFC is supportive of this recommendation.

Staffing for Adequate Fire And Emergency Response Program

    The United Fire Service Proposal recommends several changes to the 
manner in which hiring grants through SAFER are administered, 
including: lowering the local matching requirement and reducing the 
length of the grant; eliminating the cap on grant funds that can be 
used to pay for firefighters' salaries and benefits; allows the 
Administrator to waive local matching requirements altogether, waive 
the requirement that firefighters hired under SAFER be retained after 
the grant expires and waive the requirement that fire departments not 
reduce past years' budgets in order to receive a SAFER hiring grant; 
and grants the administrator the authority to allow departments to use 
SAFER hiring grant funds to avoid layoffs rather than hiring new 
personnel.
    The NVFC does not oppose any of these recommendations.

Q2.  You cite in your testimony that recruitment and retention of 
volunteer firefighters is being hindered in part due to ``pressure from 
career fire departments/union locals to prevent career firefighters 
from volunteering during off-duty hours.'' Please elaborate on this 
issue. In what form does the ``pressure'' occur, how widespread is it, 
and how does it impact fire department preparedness? Are there any 
actions underway--either from the NVFC or other national organizations, 
or at the Department of Homeland Security--to protect firefighters' 
right to volunteer during off-duty hours?

A2. The Government Accountability Office estimates that close to 30,000 
career firefighters volunteer during off-duty hours. These ``two-
hatters'' tend to be individuals who got their start in the fire 
service volunteering for their hometown fire department and eventually 
decided to pursue firefighting as a career. They tend to be among the 
most experienced, well-trained and dedicated members of the fire 
service community. Because career firefighters generally work 24-hour 
shifts with multiple days off in between, two-hatters are often 
available to cover the daytime, weekday shifts that are the most 
difficult for many volunteer fire departments to staff.
    The International Association of Fire Fighters (IAFF) prohibits its 
members from volunteering as firefighters during off-duty hours. The 
types of pressure brought to bear on two-hatters ranges from peer-
pressure and intimidation by fellow union members to formal charges and 
in some cases expulsion from the union. Two-hatters are often told that 
their prospects for career advancement will be hindered if they 
continue to volunteer. In many cases, some combination of these tactics 
is enough to convince a two-hatter to quit his volunteer department.
    The NVFC's Maryland Alternate Director, Jim Seavey, is a career 
firefighter in Washington, DC, and a volunteer fire chief in Montgomery 
County, MD. Several years ago, Jim and a number of other two-hatters in 
the metropolitan Washington area were brought up on charges by the IAFF 
for volunteering during off-duty hours and threatened with expulsion 
from the union. The charges were eventually dropped just before the 
formal hearing was scheduled to take place, although Jim remains a 
volunteer fire chief.
    In 2006, New Jersey two-hatter Vincent Pereira had his IAFF 
membership revoked after he joined a local volunteer fire department. 
Mr. Pereira had been a member of the Colonia Volunteer Fire Company but 
resigned his membership when he was hired by the Woodbridge Fire 
Department as a condition of being admitted to membership in IAFF Local 
290. Mr. Pereira eventually re-joined his volunteer fire department 
after observing that other IAFF members that he worked with continued 
to volunteer.
    Last August, the IAFF amended their prohibition against 
volunteering to apply only in areas where the volunteer activities of 
the member in question are deemed detrimental to the ability of an IAFF 
local's organizing efforts. This limits the scope of the IAFF's 
prohibition against volunteering but also protects the IAFF from 
charges of selective enforcement like the ones employed by Mr. Pereira. 
Since the IAFF amended their volunteer prohibition, union locals in 
Albany and Jamestown, NY, have publicly forbade their members from 
volunteering during off-duty hours, claiming that they were enforcing 
the recent bylaws change.
    Collective bargaining agreements in a handful of fire departments 
around the country stipulate that as a term of employment, career 
firefighters will not volunteer as firefighters during off-duty hours. 
These provisions are generally justified as being a health and safety 
measure, but the collective bargaining agreements in question do not 
prohibit career firefighters from engaging in other types of 
potentially dangerous activities. Many of these collective bargaining 
agreements exist in municipalities in Connecticut, which recently 
passed a statewide law allowing local units of government to enter into 
agreements allowing career firefighters to volunteer during off-duty 
hours.
    One problem that exists in trying to track instances of two-hatters 
quitting the volunteer fire service under pressure from the IAFF is 
that the individuals who do so are often not willing to come forward 
publicly. The NVFC is developing a web-based resource for two-hatters 
to report instances of formal or informal attempts by the IAFF to 
dissuade them from volunteering. The web site will allow for anonymous 
reporting, although we hope to encourage individuals to come forward 
publicly as well.
    Last year, the International Association of Fire Chiefs issued a 
statement expressing their support for the right of individuals to 
volunteer as firefighters, whether or not they are career firefighters. 
I am not aware of any efforts by other national organizations to 
address this issue.
    By statute, firefighters that are hired through the SAFER program 
cannot be discriminated against because they volunteer during off-duty 
hours. I am not aware of any other programs or initiatives through DHS 
or any other federal agency that address the problem of the targeting 
of two-hatters by the IAFF or local units of government.

                   Answers to Post-Hearing Questions
Responses by Kevin B. O'Connor, Assistant to the General President, 
        International Association of Fire Fighters (IAFF)

Questions submitted by Chairman David Wu

Q1.  What criteria would IAFF recommend be used to waive the matching 
requirement for AFG and SAFER? Should the criteria be the same for 
waiving other program requirements? How should these criteria be 
developed?

A1. The Secretary of Homeland Security should be provided with the 
authority to waive the local match requirement for AFG and SAFER. In 
determining such waivers, the following criteria should be considered:

        <bullet>  Financial Need: Three consecutive years of budget 
        data (including the current year) for both the department and 
        the jurisdiction should be required as part of the application 
        process. Changes in revenue projections/collection, change in 
        bond rating, general fund balances and operational costs of 
        providing fire, rescue and EMS services should also be 
        considered. Applicants should also be required to disclose any 
        major events, such as missing bond payments, which have 
        impacted the jurisdiction and budget within the past 12 months. 
        The overall financial health of the jurisdiction should also be 
        taken into account including unemployment rates, foreclosure 
        rates, percentage of the population in poverty and whether or 
        not significant cuts have been made in staffing or the budgets 
        of other agencies within the jurisdiction.

        <bullet>  Remedies: What steps have the jurisdiction and the 
        fire department undertaken to deal with the exigency.

        <bullet>  Impact on the Community: Departments should provide 
        information regarding response unit call volume and individual 
        apparatus response time, impact on firefighter health and 
        safety, and impact on the health and safety of the public.

    Other waivers, including waivers for the maintenance of effort 
provisions, should be granted in accordance with these recommendations 
as well.
    The authority to waive provisions limiting grants to the hiring of 
new firefighters under SAFER will require additional criteria, namely:

        <bullet>  Jurisdictions seeking waivers to bring employees back 
        to duty should provide documentation of layoffs, including 
        dates and the percentage of the department laid-off.

        <bullet>  Jurisdictions seeking waivers to reverse a reduction-
        in-force should provide documentation of the staffing 
        complements at the time of application and the staffing 
        complements prior to the RIF. Information on official policies 
        within the past 12 months, such as a hiring freeze, that have 
        impacted the ability of departments to hire or maintain 
        positions should also be included.

    The waiver criteria should be developed via the criteria-setting 
process as described under current law, through which the national fire 
service organizations currently determine criteria for awarding AFG and 
SAFER grants. Additionally, such criteria should be published in the 
Federal Register prior to making any grants, as is required for AFG and 
SAFER application and award guidelines under current law.

Q2.  The proposal to raise the maximum allowable grant for the AFG 
program to $10 million would more than triple the current maximum. Why 
is such a large increase needed? If the cap were significantly 
increased, would departments be able to provide a 15 percent match? 20 
percent?

A2. Current funding caps under AFG are too low to prove effective. 
Under current law, the largest jurisdictions, those of one million 
population or more, can receive no more than $2.75 million. All 
metropolitan areas in the United States of one million or more are 
professional departments, which means that, for example, the City of 
New York, with hundreds of fire stations and nearly fifteen thousand 
firefighters and emergency medical personnel, is limited to $2.75 
million in FIRE grant awards. While we do know that very large 
departments are making relatively small purchases, such as the purchase 
of a new engine, through AFG, the current caps preclude such 
departments from making purchases that would measurably improve the 
fire department's preparedness and safety.
    For example, a relatively inexpensive self-contained breathing 
apparatus (SCBA) costs approximately $2000. Under the current cap, a 
very large jurisdiction such as New York City could only afford to 
purchase SCBA for 1,700 individuals. Raising the cap to $10 million for 
the largest jurisdictions would permit the city to purchase new 
equipment for a much larger percentage of the force, and consequently 
make a much larger impact on firefighter health and safety.
    We anticipate that, in healthy economic times, most departments 
would be able to meet the 15 or 20 percent match for a large grant.

Q2a.  Is the current structure of basing award sizes on jurisdictional 
population still appropriate today? If so, why?

A2a. Yes. Jurisdictions with larger populations require proportionately 
larger fire departments, which have proportionately larger equipment, 
vehicle and training needs.

Q3.  In Chief Jeffrey Johnson's testimony, he offered the example of 
fire sprinklers as one area where a coordinated research program would 
be useful in improving public safety. What other types of large 
research questions would the Centers of Excellence address? How many 
Centers of Excellence are needed? How effectively is current fire 
research put into practice and how can this technology transfer be 
improved? Why would Centers of Excellence be more effective than simply 
increasing the amount of R&D funds available overall?

A3. There is a great and continuing need for additional fire service 
research. Considering the continued persistence of firefighter 
fatalities and injuries, there is an especially urgent need for 
research to support advances in firefighter health and safety. Some 
research areas which could be explored include research on how crew 
size impacts response time, injury data collection and analysis, and 
the impact of performance-based codes, to name a few.
    Much of this research requires ongoing study for a longer period, 
and additional expense, than is currently permitted. Under current 
restrictions, Fire Prevention and Safety (FP&S) grantees are limited to 
$1 million in funding over a period of up to three years. In addition 
to allowing long-term research through the Centers of Excellence, the 
Department should permit FP&S grantees to receive continuing funding 
for successful and necessary research.

Q4.  In his testimony, Chief Jack Carriger of the National Volunteer 
Fire Council stated that between 2005 and 2007 applications for the 
Fire Prevention and Safety grants have dropped from $394 million to 
$191 million. What might account for this drop? What are the most 
effective activities in preventing fires and how can those activities 
be encouraged?

A4. The current recession is causing many jurisdictions to make cuts to 
their fire department budgets; as fire departments make do with less, 
fire prevention activities are among the first activities to decline. 
Under current law, fire department applicants for Fire Prevention and 
Safety grants are subject to the same cost-share requirements to which 
they are subject under the AFG program. It is possible that many 
potential applicants have declined to apply for a FP&S grant because 
they may not currently be able to afford the cost-share. Additionally, 
under current law, the combined awards through AFG and FP&S may not 
exceed statutorily-defined funding caps. Given this limitation, and 
combined with budgets which may preclude many departments from 
obtaining needed equipment, vehicles and training with local funds, 
many departments may choose to apply solely for funding under AFG.
    Effective fire prevention strategies may vary widely among 
communities, depending on factors such as population density, 
infrastructure age, poverty rate and education level. Regardless of 
such factors, however, the most effective means to fire prevention and 
mitigation is ensuring that a community's fire department employs 
sufficient personnel at sufficiently located stations--consistent with 
NFPA standards. Well-staffed departments ensure sufficient time and 
personnel to conduct prevention activities including community 
education and smoke detector programs.
    Additionally, as referenced in my answer to the previous question, 
FP&S grantees are not currently permitted to receive continuing funding 
in subsequent years for ongoing research. Lifting this restriction, and 
allowing grantees to receive continuing funding for successful and 
necessary research will both encourage applications as well as help 
advance novel fire prevention strategies.

                   Answers to Post-Hearing Questions
Responses by Chief Curt Varone, Division Manager, Public Fire 
        Protection Division, National Fire Protection Association 
        (NFPA)

Questions submitted by Chairman David Wu

Q1.  What criteria would NFPA recommend be used to waive the matching 
requirements for AFG and SAFER? Should the criteria be the same for 
waiving other program requirements? How should these criteria be 
developed?

A1. Although NFPA encourages the use of waivers to allow communities in 
which revenues fell five to ten percent or more to receive FIRE grants 
without matching fund requirements, the details of the waiver program 
criteria are best left to the U.S. Fire Administration (USFA). The 
criteria to prove financial hardship will differ from those associated 
with other program requirements.

Q2.  The proposal to raise the maximum allowable grant for the AFG 
program to $10 million would more than triple the current maximum. Why 
is such a large increase needed? If the cap were significantly 
increased, would departments be able to afford the 15 percent match? 20 
percent? Is the current structure of basing award sizes on 
jurisdictional population still appropriate today? If so, why?

A2. The proposed higher ceiling on allowable grant amount will permit 
larger cities to fully address some of their needs with a single grant.
    For example, as part of a costing exercise for the Council on 
Foreign Relations, NFPA converted results of the first fire service 
needs assessment study into costs to prepare for hazmat and EMS 
services to deal with a chemical/biological agent attack, one of two 
homeland security reference incidents examined in the study. GAO 
studies estimated $1.3-$12.2 million (in dollars from the early 2000s, 
not adjusted for inflation) in equipment costs for a specialized 
response team for a city of 500,000 population. NFPA estimated 
additional costs for firefighters not involved in the specialized 
response team to safely deal with incidents before they are identified 
as chem/bio agent attacks. Those costs amounted to $30,800 per 
firefighter, and the median number of career firefighters for a city of 
500,000 is 635, resulting in an additional $19.6 million. Training 
costs would be additional and significant.
    This is just one example of a need that is high priority--both from 
the point of view of a city fire department and from the point of view 
of the homeland security of the United States--where the cost of 
filling the need would easily meet or exceed the new maximum grant 
ceiling.
    Some departments would be able to afford a 15 percent or 20 percent 
match for a project of this size but could not afford the full cost 
themselves. The other departments would presumably apply for smaller, 
more affordable projects; there is no need for all or even most grants 
to come in at or near the cap.
    And as this example illustrates, many projects have costs 
proportional to the number of firefighters, which tend to be 
proportional to the size of the civilian population protected. 
Therefore, basing award sizes on jurisdictional population makes good 
sense and will continue to make good sense.

Q3.  What percentage of jurisdictions have enough qualified building 
and fire inspectors? In his testimony, Chief Jack Carriger of the 
National Volunteer Fire Council stated that between 2005 and 2007 
applications for the Fire Prevention and Safety grants have dropped 
from $394 million to $191 million. What might account for this drop? 
What are the most effective activities in preventing fires and how can 
those activities be encouraged?

A3. According to the second fire service needs assessment, one-quarter 
of fire departments have no one to conduct fire code inspections. Less 
than half conduct fire code inspections using full-time fire department 
inspectors, building department inspectors, or inspectors from a 
separate inspection department, and even some of these departments 
assign part of their inspection workload to in-service firefighters.
    In recent research projects, NFPA has been told by fire marshals 
from coast to coast that many communities are unable to provide annual 
fire code inspections to most of their properties subject to inspection 
because rising standards of certification for inspectors have forced 
them to discontinue use of in-service inspectors, thereby leaving them 
with too few inspectors to cover most of their properties. The use of 
FIRE grant program monies to provide training may improve this 
situation.
    Based on these available facts, it seems clear that the answer to 
the question is that the percentage of jurisdictions with ``enough'' 
qualified building and fire inspectors is well below half. Clearly, the 
need is there and is still widespread. That does not mean that every 
department with such a need will pursue any opportunity to fill that 
need immediately. Some departments may be unable to use the grant funds 
(e.g., inability to pay the matching portion; lack of available staff 
to supervise and execute the effective spending of grant funds) and 
some departments may see higher priority targets for grant funding.
    There is a substantial literature on the evidence for effectiveness 
and cost-effectiveness of various fire prevention and fire loss 
prevention programs, much of it developed under the auspices of the 
U.S. Centers for Disease Control and Prevention through their 
Unintentional Injury programs. By far the most frequently cited 
effective program is distribution and installation of smoke alarms to 
needy homes (four to six million homes still have no smoke alarms). 
Smoke alarm distribution and installation programs have been at the 
center of the CDC's own grant programs and NFPA's outreach programs, 
whether funded by the government or by NFPA from its own funds.
    Successful means of encouraging effective fire prevention 
activities is itself a type of program subject to evaluation. CDC is in 
the forefront of those sponsoring ``translation research,'' in which 
researchers evaluate the relative effectiveness of different programs 
to apply interventions (e.g., smoke alarm installation) with proven 
effectiveness in a large and diverse group of additional sites. Fire 
prevention programs that involve technologies and products have been 
the subject of evaluations by the National Institute of Standards and 
Technology's Building and Fire Research Laboratory and the U.S. 
Consumer Product Safety Commission. The USFA has also conducted 
evaluations of research, as have a number of private groups such as 
NFPA.
    All of these agencies and organizations participate in a private, 
voluntary information exchange and coordination association called the 
Fire Safety Council, which was founded by CDC, CPSC, and the U.S. Fire 
Administration. This is only one of a number of existing or potential 
forums in which knowledge can be shared on how to encourage effective 
fire prevention activities. The House Committee on Science and 
Technology has jurisdiction over most if not all of these U.S. science 
agencies and could encourage continued close cooperation and 
information sharing, as well as continued and expanded use of this 
knowledge in grants decision-making.

Q4.  In Chief Jeffrey Johnson's testimony, he offered the example of 
fire sprinklers as one where a coordinated research program would be 
useful in improving public safety. What other types of large research 
questions would Centers of Excellence address? How effectively is 
current fire research put into practice and how can this technology 
transfer be improved? Why would Centers of Excellence be more effective 
than simply increasing the amount of R&D funds available overall?

A4. A Center of Excellence offers the opportunity to assemble and 
maintain a critical mass of technical personnel empowered and directed 
to provide ongoing focus on an important set of problems. In the fire 
safety area, there are a number of existing agencies and organizations 
with commendable histories of contributions to fire safety research, 
but each arguably lacks at least one of the key elements that would be 
found in a Center of Excellence, including breadth of disciplines 
available to deal with all aspects of complex social-technological 
problems, depth of personnel needed for large and ambitious projects 
that can make transformational changes possible, and reliable long-term 
support needed to permit continuing focus.
    Many of the agencies and organizations involved in fire safety 
research--for example, the NIST fire program, the Society of Fire 
Protection Engineers, and the NFPA Fire Protection Research 
Foundation--have conducted research prioritization workshops. Reviewing 
the results of these workshops leaves no doubt that there are an 
abundance of large research questions worthy of continuing focused 
attention, including:

        <bullet>  Materials with improved fire performance

        <bullet>  Technologies for detection, alarm or suppression 
        (e.g., fire sprinklers, as cited by Chief Johnson)

        <bullet>  Improvements for higher reliability or lower cost

        <bullet>  Modifications for changing characteristics of society 
        (e.g., an aging population) or relevance to more diverse 
        populations (e.g., different cultures, different types of 
        disability)

        <bullet>  Modifications for changing fire safety technologies 
        to reflect changes in related technologies (e.g., battery-
        powered or hydrogen-powered automobiles)

        <bullet>  Improvements in scientific methods and related data 
        to support design, engineering, review and evaluation in fire 
        safety

        <bullet>  Improvements in ergonomic design, education for fire 
        safety, design to accommodate patterns of human behavior, and 
        engineering to provide better feedback to shape fire-safe 
        behaviors (e.g., use of voice alarms to provide more 
        information in emergencies, adding color to kerosene so it is 
        not mistaken for water or gasoline)

    Ideally, organizations and coalitions of organizations would be 
invited to propose Centers of Excellence, including a specification of 
the particular group of large research questions they would address and 
the capabilities of the proposed center with respect to such questions.
    The flow of new research to revised product standards or 
regulations and to revised installation standards, primarily through 
voluntary consensus standards, seems to operate effectively. Each of 
the agencies and organizations cited above as having conducted research 
priority workshops and exercises has also studied ways to further 
improve technology transfer. The CDC translation research grants cited 
above have potential value as a technique to look systematically for 
ways to improve technology transfer.
    The value of a Center for Excellence is its ability to successfully 
pursue large, ambitious, high-impact projects beyond the capabilities 
of existing entities. A Center for Excellence is a way to spend money 
more effectively in service to the nation's fire safety goals. It is 
not an alternative to an increase in the level of available funding but 
rather a different way of achieving maximum value from whatever funding 
level is provided.
    Additionally, the effective translation of fire research into 
practice is impacted by a lack of inspectors. The American Housing 
Survey data indicate that roughly one-third of homes four years old or 
less had smoke alarms powered by battery only, although research has 
indicated the need for a more stable power source and most codes 
require hard-wired smoke alarms in new construction.
    A separate challenge is the difficulty in getting newer, safer 
products in the hands of lower-income, higher risk populations who may 
not have the resources to buy new items. The poor may be more likely to 
have household items that predate the latest and safest standards. 
Their goods may also be at or beyond their useful life and consequently 
less reliable or safe. Programs similar to the cash for clunkers might 
help, e.g., trade in your old space heater for a major discount on one 
that is safer and more energy efficient.

Questions submitted by Representative Donna F. Edwards

Q1.  Since the beginning of the 1990's, the number of people dying in 
fires each year has remained around 3,400. A disproportionate number of 
those people are poor and minority citizens. Why is this the case?

A1. The number of people dying in fires was 5,195 in 1990 and never 
fell below 4,000 until 1999. The fire death toll has only been around 
or below 3,400 in three years--2002, 2006, and 2007. (Figures have not 
been released yet for 2008.)
    Regardless of the death toll, certain high-risk characteristics 
have been consistently identified, including very low or high age, 
socioeconomic deprivation (such as poverty and lack of education), use 
of certain substances (including cigarettes and alcohol), and race or 
ethnicity. Not all ethnic groups are high-risk; Asian Americans are 
statistically low risk and Hispanic Americans are of average risk. 
Blacks and American Indians have higher than average risk, but most 
studies have found that their higher statistical fire risk is largely a 
side effect of their correlated higher likelihood of socioeconomic 
deprivation. All or nearly all fire safety agencies and organizations 
devote resources to targeting high-risk groups and modifying effective 
programs to fit any special needs of high-risk groups.

Q2.  What types of programs do the Fire Prevention and Safety Grants 
support to reduce the number of fatal fires? Can the circumstances that 
cause these fires be addressed with more education or is some other 
type of intervention needed?

A2. Fire prevention, broadly defined as prevention of fires or of 
serious losses from fires (such as deaths), can be accomplished in a 
number of ways--change products that function as heat sources, change 
the burning properties of materials and products commonly ignited in 
fires, change behaviors the lead to ignition or lead to worse outcomes 
when fires occur, better code enforcement, better detection and alarm, 
better suppression, better structural integrity and compartmentation, 
and so on. The Fire Prevention and Safety Grants can and have been 
devoted to programs along any of these lines. Any of these approaches 
can be effective or cost-effective; the question of whether the program 
will be effective or cost-effective depends on specifics and is best 
assessed on a case-by-case basis.
    Public education has proven to be a useful fire prevention 
strategy. There are occasions, however, when we know what we should do 
and do something else instead or never get around to taking the 
positive steps we know we should take. The technologies that help save 
us from ourselves such as automatic shutoffs on coffee makers and irons 
can prevent tragic outcomes from predictable errors.
    The leading cause of home fires and home fire injuries is cooking. 
A typical scenario involves unattended frying. There are products on 
the market that can prevent a stovetop from getting hot enough to 
ignite cooking oil or that will shut off the stove if motion is not 
detected within a certain period of time. Additional research is needed 
to ascertain consumer acceptance, reliability and effectiveness of 
these products before there is a mandate for their use. Even people who 
don't plan to leave cooking unattended may be distracted by a phone 
call, news story, etc. The discussions on texting while driving 
strongly suggest that people often violate their own sense of safe 
behavior. Effective fire prevention strategies include an understanding 
of the behavioral aspects as well as educational solutions.
    Few fire problems need a particular type of intervention. Education 
is always an option. Engineering is not always an option, and when 
used, an engineering solution will often work better when reinforced 
with education in safe product use.
    Thank you for the opportunity to address these questions. If you 
would like additional information or clarification in this regard, 
please do not hesitate to contact me.

                                   

</pre></body></html>
